<html>
<title> - U.S.-INDIAN NUCLEAR ENERGY COOPERATION: SECURITY AND NONPROLIFERATION IMPLICATIONS</title>
<body><pre>[Senate Hearing 109-384]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-384
 
 U.S.-INDIAN NUCLEAR ENERGY COOPERATION: SECURITY AND NONPROLIFERATION 
                              IMPLICATIONS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED NINTH CONGRESS



                             FIRST SESSION



                               __________

                            NOVEMBER 2, 2005

                               __________



       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                    U.S. GOVERNMENT PRINTING OFFICE
27-404                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R. Biden, Jr., U.S. Senator from Delaware.....     3
    Prepared statement...........................................     5
Burns, Hon. R. Nicholas, Under Secretary for Political Affairs, 
  Department of State, Washington, DC............................     6
    Prepared statement...........................................    11
Carter, Hon. Ashton B., codirector, Preventive Defense Project, 
  Belfer Center for Science and International Affairs, Harvard 
  University, Cambridge, MA......................................    43
    Prepared statement...........................................    47
Joseph, Hon. Robert G., Under Secretary for Arms Control and 
  International Security, Department of State, Washington, DC....    17
    Prepared statement...........................................    19
Krepon, Michael, cofounder and president emeritus, Henry L. 
  Stimson Center, Washington, DC.................................    65
    Prepared statement...........................................    66
Lehman, Hon. Ronald F., II, director, Center for Global Security 
  Research, Lawrence Livermore National Laboratory, Livermore, CA    36
    Prepared statement...........................................    38
Lugar, Hon. Richard G., U.S. Senator from Indiana................     1
Sokolski, Henry D., executive director, Nonproliferation Policy 
  Education Center, Washington, DC...............................    51
    Prepared statement...........................................    54
    Viewgraphs...................................................    58
    India's ICBM--On a ``Glide Path'' to Trouble.................    85
    Feeding the Nuclear Fire.....................................    93

              Additional Material Submitted for the Record

Einhorn, Hon. Robert J., senior adviser, International Security 
  Program, Center for Strategic and International Studies, 
  Washington, DC:
    Letter to Senator Lugar......................................    79
    Recommended Modifications of U.S. Law and NSG Guidelines.....    80
    Prepared statement...........................................    81
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    77
Rademaker, Stephen G., Acting Assistant Secretary of State for 
  International Security and Nonproliferation, State Department, 
  Washington, DC, statement before the NSG Consultative Group, 
  October 18-19, 2005............................................    77
Responses to questions submitted by Senator Lugar:
    Responses of Under Secretaries Burns and Joseph..............    97
    Responses of Under Secretary Burns...........................   103
    Responses of Secretary Joseph................................   104

                                 (iii)

  


 U.S.-INDIAN NUCLEAR ENERGY COOPERATION: SECURITY AND NONPROLIFERATION 
                              IMPLICATIONS

                              ----------                              


                      WEDNESDAY, NOVEMBER 2, 2005

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 3 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee) presiding.
    Present: Senators Lugar, Hagel, Chafee, and Biden.

 OPENING STATEMENT OF HON. RICHARD G. LUGAR, U.S. SENATOR FROM 
                            INDIANA

    The Chairman. The Senate Foreign Relations Committee is 
called to order.
    The Foreign Relations Committee meets today to consider the 
Joint Statement issued by President Bush and Prime Minister of 
India on July 18, 2005. This document stands as a milestone in 
the United States-Indian relationship. It covers the full range 
of economic, political, and security issues, as well as matters 
related to nuclear energy cooperation, and has the potential to 
bring our two countries closer together than ever before.
    India is a very important emerging power on the world 
stage. It enjoys a vibrant democracy, a rapidly growing 
economy, and increasing influence in world affairs. Indians 
have come to the United States to study in our universities, to 
work in our industries, and to live here as citizens. It is 
clearly in the interest of the United States to develop a 
strong strategic relationship with India.
    At this point, let me pause for a moment to express the 
committee's condolences and our sympathy for the people of 
India, who suffered a terrible terrorist attack over the 
weekend in New Delhi. We fully support India in its battle 
against terrorism.
    Although the Joint Statement covers many areas of policy, 
commentary has focused narrowly on the nuclear energy section, 
which states that India will be treated as, ``a responsible 
state with advanced nuclear technology.'' Critics and advocates 
acknowledge that this represents a departure from previous U.S. 
policies and international practices. India has never signed 
the Nuclear Non-Proliferation Treaty, the foundation of 
international efforts to stop the spread of nuclear weapons. 
India has developed a nuclear weapons arsenal, in conflict with 
the goals of the treaty. New Delhi, in 1974, violated bilateral 
pledges it made to Washington not to use U.S.-supplied nuclear 
materials for weapons purposes. And, more recently, Indian 
scientists have faced United States sanctions for providing 
nuclear information to Iran.
    India's nuclear record with the international community 
also has been unsatisfying. It has not acknowledged, or placed 
under effective international safeguards, all of its facilities 
involved in nuclear work. Its nuclear tests in 1998 triggered 
widespread condemnation and international sanctions.
    Prior to the July 18 Joint Statement, India had repeatedly 
sought, unsuccessfully, to be recognized as an official nuclear 
weapons state, a status the NPT reserves only for the United 
States, China, France, Russia, and the United Kingdom. 
Opponents argue that granting India such status will undermine 
the essential bargain that is at the core of the NPT; namely, 
that only by foregoing nuclear weapons can a country gain 
civilian nuclear assistance. They observe that permitting India 
to retain nuclear weapons while it receives the same civilian 
nuclear benefits as nations that have foresworn weapons 
programs would set a harmful precedent that would encourage 
other nations to take India's path. New Delhi has long claimed 
that the NPT is discriminatory, and that the international 
community has instituted what it calls a, ``nuclear apartheid'' 
against it.
    Implementation of the July 18 Joint Statement requires 
congressional consent, as well as modifications to 
nonproliferation laws and an American commitment to work with 
allies to adjust international regimes to enable full civil 
nuclear energy cooperation and trade with India. This 
committee, and ultimately the entire Congress, must determine 
what effect the Joint Statement will have on United States 
efforts to halt the proliferation of weapons of mass 
destruction. To date, no associated legislative proposals have 
been offered by the administration. Likewise, there does not 
appear to be a specific Indian timetable to fulfill its 
obligations under the Joint Statement.
    India has agreed, according to the statement, to, ``assume 
the same responsibilities and practices, and acquire the same 
benefits and advantages, as other leading countries with 
advanced nuclear technology.''
    These responsibilities include seven specific action steps:
    One, identifying and separating civilian and military 
nuclear facilities and programs in a phased manner, and 
declaring them to the IAEA;
    Two, voluntarily placing the civilian nuclear facilities 
under IAEA safeguards;
    Three, signing, and adhering to, an Additional Protocol;
    Four, continuing India's unilateral moratorium on nuclear 
testing;
    Fifth, working with the United States to conclude a 
multilateral Fissile Material Cutoff Treaty;
    Sixth, refraining from the transfer of enrichment and 
reprocessing technologies to states that do not have them, and 
supporting international efforts to limit their spread; and, 
finally,
    Seven, complying with the Missile Technology Control 
Regime, the MTCR, and Nuclear Suppliers Group, NSG, guidelines.
    There are four key questions that today's hearing seeks to 
answer.
    The first question is, How does civil nuclear cooperation 
strengthen the United States-Indian strategic relationship? And 
why is it so important?
    Second, How does the Joint Statement address United States 
concerns about India's nuclear programs and policies?
    Third, What effects will the Joint Statement have on other 
proliferation challenges, such as Iran and North Korea and the 
export policies of Russia and China?
    And, fourth, What impact will the Joint Statement have on 
the efficacy and future of the NPT and the international 
nonproliferation regime?
    Today's hearing will consist of two panels. On the first 
panel, Under Secretary of State for Political Affairs, Nicholas 
Burns, and Under Secretary of State for Arms Control and 
International Security, Robert Joseph, will lay out the 
administration's case for the July Joint Statement. They are 
both good friends of our committee, and I want to express my 
personal appreciation for their efforts to meet with Senators 
on this and other important issues.
    On the second panel, we will hear from several outside 
experts. Ronald Lehman, former director of the U.S. Arms 
Control and Disarmament Agency, and currently director of the 
Center for Global Security Research at Livermore National 
Laboratory; and Ashton Carter, codirector of the Preventive 
Defense Project will present their views to the committee. Dr. 
Lehman and Dr. Carter are cochairmen of the Non-Proliferation 
Policy Advisory Group, an informal panel of experts that I have 
convened to examine nonproliferation issues. They are joined by 
Mr. Henry Sokolski, executive director of the Nonproliferation 
Policy Education Center, and Mr. Michael Krepon, cofounder and 
president emeritus of the Henry L. Stimson Center.
    We deeply appreciate the appearance of all of our 
witnesses, and we look forward to their testimony.
    I would say at the outset, gentlemen, that each of your 
full statements will be made a part of our record. As you are 
asked to proceed, please summarize or give as much as you wish. 
We want to hear from you. These are very serious issues.
    I now want to recognize the distinguished ranking member of 
our committee, Senator Biden.

   STATEMENT OF HON. JOSEPH R. BIDEN, JR., U.S. SENATOR FROM 
                            DELAWARE

    Senator Biden. Mr. Chairman, thank you for holding this 
hearing and for assembling such a distinguished and deep panel 
here. And I mean that sincerely.
    And, as we say in this business, Mr. Chairman, I'd like to 
associate myself with your remarks, and, as a consequence, 
eliminate the first half of what I was going to say, because 
it's repetitious, and ask that my entire statement be placed in 
the record----
    The Chairman. It will be placed in the record in the full.
    Senator Biden [continuing]. So that I can just speak to the 
second half of what I was going to say.
    As our colleagues in the administration know, this is not a 
``slam dunk'' here. There are a lot of questions. I had lunch 
today, as you and Mr. Hyde did last week, I believe, with the 
Secretary of State and some of her personnel, and this was a 
topic of some discussion. And my House colleague, Congressman 
Lantos, was pointing out what difficulty this may face in the 
House.
    Obviously, it's in our interest to have very close 
relationships with India. At least, I believe that. I think we 
all do. And as we understand it, India, in return for the 
proposed opening of nuclear commerce, would separate civil 
nuclear facilities from its military ones, put its civil 
facilities under IAEA safeguards, and sign and implement an 
Additional Protocol with IAEA, and it would work with the 
United States on, as was mentioned, a multilateral Fissile 
Material Cutoff Treaty, continue its moratorium on nucler 
testing, and improve its export control regime, all of which 
are very much in our mutual interest.
    As I said, I strongly support close relations with India. 
India is not only the world's most populous democracy, it's 
also a major power in the region and a longstanding contributor 
to world progress in technology, philosophy, and the arts. 
India and the United States are, in my view, natural partners, 
but, at the same time, both countries have to ensure that close 
relations don't lead to further nuclear proliferation. If this 
nuclear deal, in fact, does have, as critics say, the effect of 
significantly undermining nonproliferation, even by accident, 
the cost to the world, in an increased risk of nuclear war or 
terrorism, would be a terrible legacy to leave.
    And I wonder how good the July 18 deal really is. Critics 
have charged that India's promises are quite unclear regarding 
separation of civil from military facilities, and that it 
contains nothing new on testing, on the Fissile Material Cutoff 
Treaty, or on export controls.
    So, it seems to me, as you gentlemen know, it's up to the 
administration to demonstrate that, in dealing with the dilemma 
of countries that have not signed the NPT, it will strengthen 
nonproliferation rather than turning its back on over 50 years 
of U.S. policy.
    The July 18 Joint Statement raises several questions, some 
of which have been raised by my colleague, that I hope the 
witnesses are ready to address today. Let me summarize a few of 
them.
    First, Will this open the door to nuclear cooperation with 
Pakistan, even if that is not our intent?
    Second, What implications would an Indian exemption have 
for potential nuclear weapons states that have abided by the 
bargain implicit in the NPT? What concerns did other countries 
raise at the recent Nuclear Suppliers Group meeting in this 
regard?
    Third, Will an Indian exception decrease our ability to 
forge a common front against the nuclear ambitions of Iran and 
North Korea, or is it totally unrelated?
    Could Russia use the Indian precedent to justify technology 
transfers to Tehran? Could China use it to justify sales to 
Iran, or even to North Korea?
    Will India allow significant international safeguards on 
its civilian nuclear entities?
    Will it open as many facilities as possible to 
international safeguards, as the United States does? Or will it 
take Russia or China as its model?
    Will it agree to permanent safeguards on civil nuclear 
facilities that it declares?
    And how confident are we that India shares our 
nonproliferation concerns? Why were two of its senior 
scientists sanctioned by the United States, just months ago?
    How binding are the commitments that each side has made in 
the July 18 statement? If India were to conduct a nuclear test 
or did not put many facilities under safeguards, or if the 
United States Congress or the NSG were to attach conditions to 
the India exception, would the other country be released from 
its promises?
    How can we assure that what we do regarding India will 
further nonproliferation? Is there a useful way to address the 
broader dilemma of nonsigners of NPT, rather than just India?
    And, last, how can we assure that what we do to preserve 
nonproliferation equities will not undermine the important 
United States-Indian relationship that we all want to improve?
    These are very tough questions. I don't have the answers to 
all of them. But that is in the nature of a serious hearing. 
So, I look forward to hearing from our witnesses--all of them, 
but beginning with the administration.
    I thank you, Mr. Chairman. And I thank the Secretaries for 
being here.
    [The prepared statement of Senator Biden follows:]

  Prepared Statement of Hon. Joseph R. Biden, Jr., U.S. Senator From 
                                Delaware

    Mr. Chairman, as you and I both know, there may be no more urgent 
issue for our country than nuclear nonproliferation. Today's hearing 
addresses some of the most difficult aspects of this issue, and I am 
grateful to you for assembling such excellent witnesses to help us.
    I hope that this is only the first of several hearings on nuclear 
trade between the United States and India. The matter is complex and 
Congress will be asked to legislate on it, so we need careful 
consultation with the executive branch. And I am sure you agree that 
any needed legislation on this matter should go through the Foreign 
Relations Committee.
    The Nuclear Non-Proliferation Treaty includes this basic bargain: 
Countries that renounce nuclear weapons gain the right to civil nuclear 
cooperation with the world's nuclear powers. The NPT and this bargain 
at its core have deterred many countries from pursuing nuclear weapons.
    Several countries did not sign the NPT--including India and 
Pakistan, which openly tested nuclear weapons, and Israel, which is 
presumed to have them.
    Past practice has been to ignore or reject the status of new 
entrants to the nuclear ``club,'' and to forswear nuclear commerce with 
them. This has not stopped those countries from developing nuclear 
weapons, but it may have slowed or limited their progress.
    We are left with the problem of how to assure that these countries 
do not become proliferators themselves or lead other countries to 
develop nuclear weapons, as well as the concern that a forthright 
nonproliferation policy might sour our relations with important and 
otherwise friendly countries.
    President Bush and Indian Prime Minister Singh propose to change 
the rules for India. The United States would seek changes in U.S. law 
and in NSG Guidelines to permit ``full civil nuclear energy cooperation 
and trade with India.''
    India, in return, would separate its civil nuclear facilities from 
its military ones, put its civil facilities under IAEA safeguards, and 
sign and implement an Additional Protocol with the IAEA. It would work 
with the United States on a multilateral Fissile Material Cut-Off 
Treaty, continue its moratorium on nuclear testing, and improve its 
export control regime.
    I strongly support closer relations between the United States and 
India. India is not only the world's most populous democracy, but also 
a major power in the region and a long-standing contributor to world 
progress in technology, philosophy and the arts. India and the United 
States are natural partners.
    At the same time, both countries must ensure that closer relations 
do not lead to further nuclear proliferation. If we were to undermine 
nuclear nonproliferation, even by accident, the cost to the world--in 
an increased risk of nuclear war or terrorism--would be a terrible 
legacy to leave.
    And I wonder how good the July 18 deal really is. Critics have 
charged that India's promises are unclear (regarding separation of 
civil from military facilities) or nothing new (on testing, a Fissile 
Material Cut-Off Treaty, and export controls).
    So, it is up to the administration to demonstrate that in dealing 
with the dilemma of countries that have not signed the NPT, it will 
strengthen nonproliferation, rather than turning its back on over 50 
years of U.S. policy. The July 18 Joint Statement raises several 
questions that I hope our witnesses will address today, among them:

          (1) Will this open the door to nuclear cooperation with 
        Pakistan, even if that is not our intent?
          (2) What implications would an India exemption have for 
        potential nuclear weapon states that have abided by the bargain 
        implicit in NPT? What concerns did other countries raise at the 
        recent Nuclear Suppliers Group meeting?
          (3) Will an ``India exemption'' decrease our ability to forge 
        a common front against the nuclear ambitions of Iran and North 
        Korea? Could Russia use the India precedent to justify 
        technology transfers to Tehran? Could China use it to justify 
        sales to Tehran or even Pyongyang?
          (4) Will India allow significant international safeguards on 
        its civilian nuclear entities? Will it open as many facilities 
        as possible to international safeguards, as the United States 
        does, or will it take Russia or China as its model? Will it 
        agree to permanent safeguards on the civil nuclear facilities 
        it declares?
          (5) How confident are we that India shares our 
        nonproliferation concerns? Why were two of its senior 
        scientists sanctioned a few months ago?
          (6) How binding are the commitments that each side made in 
        the July 18 Joint Statement? If India were to conduct a nuclear 
        test or did not put many facilities under safeguards, or if the 
        U.S. Congress or the NSG were to attach conditions to their 
        ``India exemptions,'' would the other country be released from 
        its promises?
          (7) How can we assure that what we do regarding India will 
        further nonproliferation? Is there a useful way to address the 
        broader dilemma of nonsigners of the NPT, rather than just 
        India? And,
          (8) How can we assure that what we do to preserve 
        nonproliferation equities will not undermine the important 
        U.S.-India relationship that we all want to improve?

    These are tough questions, but that is in the nature of serious 
hearings. I look forward to the testimony of our witnesses.

    The Chairman. Thank you, Senator Biden.
    Senator Hagel, do you have an opening comment?
    Senator Hagel. No; thanks.
    The Chairman. Very well.
    We'll proceed to our witnesses. And I'll ask you to testify 
in this order: First of all, Secretary Burns, and then 
Secretary Joseph.
    Secretary Burns, we are delighted that you're here, and 
would you please proceed?

   STATEMENT OF HON. R. NICHOLAS BURNS, UNDER SECRETARY FOR 
     POLITICAL AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Burns. Mr. Chairman, thank you very much. Senator 
Biden, Senator Hagel, thank you for the invitation, to Bob 
Joseph and myself, to be with you.
    We have testimony we've submitted for the record. We will--
I will not read my testimony to you. But I would like to 
address two questions, and I think that, in doing so, perhaps 
we can begin to answer some of the questions that you and 
Senator Biden have put on the table for us.
    The first is to describe to you the nature and the schedule 
of our negotiations with the Indians that do continue toward 
the fulfillment of this civil nuclear energy agreement and to 
talk about, obviously, the role of Congress and the need for 
Congress to be fully briefed and to take a final decision on 
this issue.
    The second would be to provide a little bit of rationale 
for why we undertook this deal, and also to discuss the 
strategic benefits of the fuller relationship that we have 
foreseen.
    So, I'll proceed on that basis.
    President Bush said, a couple of months ago, that this 
century will see democratic India's arrival as a force in the 
world. And he believes--Secretary Rice believes--that it is in 
our national interest to develop a strong and forward-looking 
strategic engagement with India as the global system shifts 
inevitably eastward toward Asia. And we know that many in 
Congress embrace that view. You've both said this in your 
opening statements. And we believe the time is right to seek 
such a relationship with India.
    During the cold war, India was the ultimate nonaligned 
country; we were the ultimate aligned country. And the cold war 
is now long past. So, it's our view that it's time to build 
this relationship. And that was the intent that the President 
had when he met with Prime Minister Singh here in Washington on 
July 18.
    We look at India as a rising strategic power. Within the 
first quarter of this century, it is likely to be included 
among the world's five largest economies. It will soon be the 
most populous nation in the world. It has a demographic 
distribution that bequeaths it a very large and youthful and 
skilled workforce. Its military forces are increasingly 
training with ours, working with ours. They are large, they are 
capable, they're sophisticated, and they also are under 
civilian control, as, of course, ours are.
    Above all else, as we look at India, we think we know what 
kind of country India will be a generation from now. It's going 
to be a country like the United States--multiethnic and 
multireligious and multilingual--and it will be a democracy. It 
will be a--it will be a country that is built on the rule of 
law and individual freedom. And that is a great assurance to 
provide the bedrock or the foundation of any strategic 
relationship.
    We're here as part of the beginning of a consultative 
process with the Congress, and we are determined to work very 
closely with the Congress as we proceed through these rather 
complex and difficult negotiations. When the President and 
Prime Minister agreed, on July 18, on the many, many joint 
ventures, including this nuclear deal between the two 
countries, we determined that we obviously would need to 
negotiate the implementation of these agreements, especially 
the nuclear agreement, with the Indian Government.
    And Bob and I testified before the House International 
Relations Committee in September. Since then, as you said, Mr. 
Chairman, I know that Secretary Rice has had a chance to brief 
the leaders of both the Senate and the House, in general, on 
this arrangement. She's eager to engage with you in more 
detailed discussions, herself, on our South Asia policy, more 
broadly, and on this particular initiative, more specifically.
    We've had extensive briefings with the House and Senate 
staff. We even invited members of the House staff to attend 
with us the Nuclear Suppliers Group meeting in Vienna 2 weeks 
ago.
    So, in short, we believe we've shared with the Congress the 
basics of our rationale for the July 18 agreement, and we 
intend to proceed in that fashion in the months ahead.
    We cannot go forward on this initiative without the express 
authorization of the Congress. The advent of full United States 
civil nuclear cooperation with India would require a change in 
United States law, and that is the responsibility, not of the 
executive branch, but of the legislative branch.
    Based on my visit to New Delhi 2 weeks ago, it's clear to 
us that it's going to take some time for the Indian Government 
to fulfill all the commitments it made to us in the July 18 
agreement. The actions India agreed to take are difficult, and 
they're complex, and they're time consuming. And our 
administration, thus, believes that it would--it's better to 
wait before we ask Congress to consider any required 
adjustments in law until India is further along in taking these 
necessary steps to fulfill our agreement. And it may be, 
although it's very hard to predict this, that the Indians won't 
be ready to have--they won't have taken all these steps until 
the first part of 2006. It could be February or March or April.
    Our judgment is: It wouldn't be wise or fair to ask 
Congress to make such a consequential decision without evidence 
that the Indian Government was acting on what is arguably the 
most important of its obligations, and that's the separation of 
its civilian and military nuclear facilities.
    I told the Indian leadership in Delhi, 2 weeks ago, that 
they must craft a credible and transparent plan, and have begun 
to implement it--this is the separation plan--before the 
administration would request congressional action. And my 
counterpart, Foreign Secretary Shyam Saran, assured me that the 
Indian Government will produce such a plan.
    As India begins to meet its obligations under the--our 
agreement, we would propose appropriate language that, in our 
view, might best be India-specific and would demonstrate our 
dedication to fulfilling the July 18 agreement. I have invited 
Foreign Secretary Saran to come to Washington to continue these 
implementation negotiations in December, and I'll be returning 
to Delhi in January. We will, of course, keep the Congress 
fully apprised of all of these discussions, and we're ready to 
come and brief and talk, on an informal basis or a formal way, 
whichever is better for you.
    Mr. Chairman, you posed four questions to us. Senator Biden 
posed more questions to us, and let us see if we can answer 
some of them. And I know we won't fulfill that in our opening 
statements, but we're happy to take your questions.
    When Secretary Rice set out on her first trip to India last 
spring, she had in mind the development of a broad strategic 
relationship, a partnership with India. And she knew, and we 
knew, that we would have to deal with the one issue that had 
bedeviled United States-India relations for the last 30 years, 
and that's the nuclear issue. We determined from the start that 
we could not recognize India as a nuclear weapons state. Such a 
step would weaken, fundamentally, the Nuclear Non-Proliferation 
Treaty. It would be logically inconsistent with the policy of 
the last seven American Presidents.
    It was equally clear that India would not become a party to 
the NPT as a nonnuclear weapons state. We also knew that we 
would have to confront the more difficult and complex issue of 
whether to work with India on full civil nuclear cooperation. 
India had made this a central issue in the new partnership 
developing between our two countries. And, as you know, past 
administrations had decided to forego such cooperation with 
India due to India's nuclear weapons program and its status 
outside the nonproliferation regime. We had to decide whether 
this policy remained consistent with American interests in 
building a strong nonproliferation regime, and with our obvious 
interest in building a new across-the-board strategic 
relationship.
    Because India had developed nuclear weapons outside the 
regime, we had no existing cooperation between our civil 
nuclear energy industries, and, as such, no real influence on 
India's adherence to the critical international safety and 
proliferation standards that are the bedrock of the 
international regime.
    And while not formally part of the NPT regime, India has 
demonstrated a strong commitment to protect fissile materials 
and nuclear technology. Indeed, India has upheld an important 
obligation undertaken by all NPT members in resisting proposals 
for nuclear cooperation with nuclear aspirants that could have 
had averse implications for international security.
    We weighed the pros and cons, frankly, of whether or not to 
seek changes to U.S. policy and to ask Congress for 
authorization to begin full cooperation in this field. And we 
decided that it was in the American interest to bring India 
into compliance with the standards and practices of the 
international nonproliferation regime. And we decided that the 
only way to reach that goal was to end India's isolation and 
begin to engage it. India will soon have the largest population 
in the world, and we thought to consign it to a place outside 
that system did not appear to be strategically wise. And that 
isolation had not been effective. Without such an agreement, 
India, with its large and sophisticated nuclear capabilities, 
would continue to remain unregulated by international rules 
governing commerce in sensitive nuclear and nuclear-related 
technologies. With the agreement, and especially given India's 
track record in stemming the proliferation of its nuclear 
technology, the United States and the international community 
will benefit by asking India to open up its system to submit to 
international inspections and to safeguards in its civil 
facilities, and to take the steps necessary to separate 
civilian and military nuclear facilities. In other words, we 
would be asking India to come into effective compliance with 
international standards.
    This agreement, then, is about the formation of a much more 
effective partnership between India and the United States on 
nonproliferation for the first time in 30 years. India is going 
to assume, if this agreement is implemented, the same 
responsibilities as other nations with civil nuclear energy, 
and will protect against diversion of items to India's nuclear 
weapons program or to other countries.
    United States-Indian cooperation on nuclear energy will, 
therefore, help strengthen the international order in a way 
that advances widespread international equities in nuclear 
nonproliferation. It will also allow India to develop, much 
more quickly, its own civilian nuclear power industry, thus 
reducing demand in the world energy market, and by the use of 
clean fuel, clean nuclear energy.
    Mr. Chairman, I should tell you this was not an easy 
choice. The construct that I just reviewed with you was 
essentially a sense of the pros and cons as Secretary Rice and 
her senior officials weighed them. We concluded we had a better 
chance to have India meet international standards if we engaged 
it, rather than isolated it. And we believe that the July 18 
agreement advances our strategic partnership and is a net gain 
for nonproliferation. And we do not plan to offer such 
cooperation to any other country. I think that answers one of 
Senator Biden's questions.
    India is, in effect, for us, a unique case. Unlike North 
Korea, unlike Iran, it remained--it never adhered to the NPT; 
it pursued nuclear weapons outside the NPT. But it's now 
prepared to comply with the restrictions and safeguards on its 
civil nuclear program. That, to us, is a distinct advantage.
    There are other benefits here. There are security benefits. 
India's September vote in the IAEA that joined with the United 
States and other countries in finding Iran not in compliance 
with its international obligations reflects that India is 
beginning to think of its global role differently, and that 
India--the United States-Indian conversation on this issue is 
at an impact. And I should give some credit here to the 
Congress. When Bob and I testified in September before the 
HIRC, Congressman Lantos and Chairman Hyde and others made it 
abundantly clear that if India acted to somehow protect Iran in 
this issue of whether or not Iran should have a nuclear weapons 
capability, then those Members of Congress said they could not 
support this civil nuclear agreement. India has acted. And we 
have every reason to believe that India's vote in September is 
a permanent change in Indian policy.
    There are environmental benefits to this that I have spoken 
about. There are certainly commercial benefits. As we seek to 
normalize commercial civil nuclear cooperation there are 
advantages to American companies, and there are opportunities 
for American jobs.
    And there are energy benefits, because we have pledged to 
bring India into the International Thermonuclear Experimental 
Reactor Program, which will help make the next generation of 
reactors safer and more efficient, and also to have it become a 
member of the Generation IV Forum.
    Mr. Chairman, let me just conclude, because I don't want to 
read the rest of my testimony, that in addition to this civil 
nuclear energy deal, President Bush was able to negotiate a 
wide range of initiatives--joint-venture initiatives--that 
we've never undertaken before with the Indian Government. And 
we believe these are consequential for American interest: A new 
defense relationship, broader work on trade and investment--in 
fact, our trade relationship has expanded several times over in 
the last 4 or 5 years; science and technology research 
cooperation, space launch and space research cooperation; a 
return to agricultural cooperation of the type that we had, as 
many will remember, in the 1950s and 1960s, at the beginning of 
this relationship, after Indian independence; and, 
interestingly, a commitment by the Indians to work with us to 
promote democracy worldwide. That kind of thing didn't happen 
when the nonaligned movement and the aligned West were often at 
ideological odds during the cold war. But India's agreement and 
its sponsorship of a U.N. democracy fund with President Bush is 
an indication that the Indians are thinking differently about 
their global role, as is their joint sponsorship with us of 
HIV/AIDS programs in Africa and other parts of the world.
    So, we see a distinct advantage, not just from the nuclear 
agreement, but from this broader based strategic engagement 
that we've outlined, and we're happy to talk about any of those 
programs.
    And I would just make one final point, Mr. Chairman. This 
is not a perfect relationship, by any means. We're still very 
different countries with different histories, and sometimes 
with different interests. But we seem to have a coincidence now 
of interests and views on the issues that are truly important: 
On nonproliferation, on the question of Iran's nuclear weapons 
program, on the promotion of democracy, on the need for 
stability and peace in Asia as we look toward strategic 
challenges there in the 21st century.
    There are some remaining challenges and differences that we 
need to work out with the Indians. We hope that the Indians 
will join the Proliferation Security Initiative. They're 
really, I think, the only great partner of the United States, 
large partner, that has not elected to do that.
    We hope very much that the Indians and our Government will 
cooperate better at the United Nations. We have tended, over 
the years, not to vote with each other on important issues at 
the Security Council. But as we increasingly find a coincidence 
of views together, we hope there will be a change in New York, 
and that we'll both support reform of the United Nations.
    And, finally, India is a country that is critical to 
resolving some of the--some of the difficult and complex 
problems in South Asia: The question of the autocratic regime 
in Burma and its denial of human rights to its own people; the 
question of the problems in Nepal with the renunciation of the 
political party system by the King of Nepal in the--over the 
last half year; the problem of stability in Bangladesh. India 
can be helpful to the United States, and I think we can be 
helpful to India, on all of those questions. And we now are 
building this kind of cooperation across the board in South 
Asia, as well as globally, and that is a distinct departure 
from where we were even 5 or 10 years ago in this relationship.
    So, I would just submit the rest of my testimony for the 
record, Mr. Chairman, but I wanted to give you a sense of the 
strategic prism through which we view this relationship.
    Thank you.
    [The prepared statement of Mr. Burns follows:]

   Prepared Statement of Hon. R. Nicholas Burns, Under Secretary for 
         Political Affairs, Department of State, Washington, DC

                              INTRODUCTION

    Mr. Chairman and members of the committee, thank you for inviting 
Under Secretary Joseph and me to discuss the current state of our 
relations with India and, specifically the development of full civil 
nuclear energy cooperation between India and the United States. The 
July 18 visit of Indian Prime Minister Manmohan Singh to Washington 
marked a watershed in our ties with the world's most populous 
democracy.
    President Bush's desire to transform relations with India is based 
on his conviction that, as he has said, ``This century will see 
democratic India's arrival as a force in the world.'' We believe it is 
in our national interest to develop a strong, forward-looking 
relationship with India as the political and economic focus of the 
global system shifts toward Asia. We know that many in Congress embrace 
this view. And the time is right. The cold war, when India was the 
ultimate nonaligned nation and the United States the ultimate aligned 
nation, is long past. It is time to shift our United States-India 
relationship to a new, strategic partnership for the decades ahead.
    India is a rising global power with a rapidly growing economy. 
Within the first quarter of this century, it is likely to be included 
among the world's five largest economies. It will soon be the world's 
most populous nation, and it has a demographic distribution that 
bequeaths it a huge, skilled, and youthful workforce. India's military 
forces will continue to be large, capable, and increasingly 
sophisticated. Just like our own, the Indian military remains strongly 
committed to the principle of civilian control. Above all else, we know 
what kind of country India will be decades from now. Like the United 
States, India will thrive as a multiethnic, multireligious and 
multilingual democracy, characterized by individual freedom, rule of 
law and a constitutional government that owes its power to free and 
fair elections.
    Under Secretary Joseph and I are here as part of a consultation 
process with both Houses of Congress to seek eventually the adjustment 
of United States laws to accommodate civil nuclear trade with India. We 
are at the very beginning of that process. We will work closely with 
Congress to determine the best way ahead.
    Since President Bush agreed with Prime Minister Singh on this 
nuclear initiative on July 18, we have discussed with many of you 
individually where best to begin the decisionmaking process with 
Congress. Both of us testified before the House International Relations 
Committee in September. Secretary Rice has briefed the Senate and House 
leadership on this initiative. She is eager to engage with you in more 
detailed discussions in the coming months. We have already had 
extensive briefings of House and Senate staff, and we even invited 
House staff to attend with us the meeting of the Nuclear Suppliers 
Group in Vienna 2 weeks ago dealing with the Indian civil nuclear 
issue. In short, we have shared with the Congress our rationale for the 
July 18 agreement and have consulted consistently and in detail on our 
discussions with the Indian Government since that time.
    Secretary Rice, Under Secretary Joseph, and I look forward to 
continuing this dialog. We recognize that the pace and scope of the 
initiative requires close consultation with Congress and we welcome 
your suggestions and advice as we move forward.
    Indeed, we cannot go forward on this initiative without the express 
consent of Congress. The advent of full United States civil nuclear 
cooperation with India requires adjustments in United States law. I had 
the privilege of negotiating the July 18 agreement for the United 
States and remain the principal negotiator with the Indian Government. 
Based on my visit to New Delhi 2 weeks ago, it is clear that it will 
take some time for the Indian Government to fulfill all of the 
commitments it made in the July 18 agreement. The actions India 
committed to undertake are difficult, complex and time consuming. The 
administration thus believes it is better to wait before we ask 
Congress to consider any required legislative action until India is 
further along in taking the necessary steps to fulfill our agreement. I 
believe that will likely be in early 2006.
    Our judgment is that it would not be wise or fair to ask Congress 
to make such a consequential decision without evidence that the Indian 
Government was acting on what is arguably the most important of its 
commitments--the separation of its civilian and military nuclear 
facilities. I told the Indian leadership in Delhi 2 weeks ago that it 
must craft a credible and transparent plan and have begun to implement 
it before the administration would request congressional action.
    My counterpart, Foreign Secretary Shyam Saran, assured me that the 
Indian Government will produce such a plan. He stressed last week to a 
domestic audience at the New Delhi-based Institute of Defense Studies 
and Analyses, ``It makes no sense for India to deliberately keep some 
of its civilian facilities out of its declaration for safeguards 
purposes, if it is really interested in obtaining international 
cooperation on as wide a scale as possible. As India begins to meet its 
commitments under our agreement, we will propose appropriate language 
that would be India-specific and would demonstrate our dedication to a 
robust and permanent partnership.''
    I have invited Foreign Secretary Saran to Washington in December to 
continue our talks, and I intend to return to India in January to 
further our understanding of India's plans to separate its civil and 
military nuclear facilities. We will, of course, keep the Congress 
fully apprised of all these discussions. We hope very much that India 
can make the necessary progress to allow us to refer legislation to 
Congress by early 2006.

                THE CIVIL NUCLEAR COOPERATION INITIATIVE

    Mr. Chairman, you requested that we answer three questions in this 
hearing: First, why is it necessary to draw closer to India; second, 
how would United States concerns about India's nonproliferation 
policies be addressed by this agreement; and, third, will our proposed 
policy change apply to countries other than India? Under Secretary 
Joseph and I will respond to each of your questions.
    When Secretary Rice set out last spring to develop the structure of 
such a partnership, we knew we would have to deal with the one issue 
that has bedeviled United States-India relations for the last 30 
years--the nuclear issue.
    We determined from the start that we could not recognize India as a 
nuclear weapons state. Such a step would weaken fundamentally the 
nuclear Nonproliferation Treaty (NPT) and would be logically 
inconsistent with U.S. policy under the last seven American Presidents. 
It was equally clear that India would not become a party to the NPT as 
a nonnuclear weapons state.
    We also knew that we would have to confront the more difficult and 
complex issue of whether to work with India on full civil nuclear 
cooperation. India had made this the central issue in the new 
partnership developing between our countries. As you know, past 
administrations had decided to forgo such civil cooperation with India 
due to India's nuclear weapons program and its status outside the 
nonproliferation regime. We had to decide whether this policy remained 
consistent with U.S. interests in building a strong nonproliferation 
regime and with our obvious priority of improving relations with the 
world's largest democracy.
    Because India developed nuclear weapons outside the regime, we had 
no existing cooperation between our civil nuclear energy industries 
and, as such, no real influence on India's adherence to the critical 
international nonproliferation standards that are the bedrock of our 
efforts to limit the spread of nuclear technology. While not formally 
part of the NPT regime, India has demonstrated a strong commitment to 
protect fissile materials and nuclear technology. Indeed, as other 
responsible countries with advanced nuclear technology, India has 
resisted proposals for nuclear cooperation with nuclear aspirants that 
could have had adverse implications for international security.
    We weighed the pros and cons of whether or not to seek changes to 
U.S. policy and ask Congress for authorization to begin full civil 
nuclear energy cooperation.
    We decided that it was in the American interest to bring India into 
compliance with the standards and practices of the international 
nonproliferation regime. And, we decided that the only way to reach 
that goal was to end India's isolation and begin to engage it. India 
will soon have the largest population in the world, and to consign it 
to a place outside that system did not appear to be strategically wise 
and has not proven effective.
    Without such an agreement, India, with its large and sophisticated 
nuclear capabilities, would continue to remain outside the 
international export control regimes governing commerce in sensitive 
nuclear and nuclear-related technologies. With this agreement, given 
India's solid record in stemming and preventing the proliferation of 
its nuclear technology over the past 30 years, the United States and 
the international community will benefit by asking India to open up its 
system, to separate its civil and military nuclear facilities, and to 
submit to international inspections and safeguards on its civil 
facilities, thus allowing it to bring its civil nuclear program into 
effective conformity with international standards.
    India will assume the same nonproliferation responsibilities as 
other responsible nations with civil nuclear energy and will protect 
against diversion of items either to India's weapons program or to 
other countries. United States-Indian cooperation on nuclear energy 
will therefore help strengthen the international order in a way that 
advances widespread international equities in nuclear nonproliferation. 
It also will allow India to develop much more quickly its own civilian 
nuclear power industry, thus reducing demands on the world energy 
market and in a way that provides clean energy for the future.
    This was not an easy choice. We do not live in an ideal world. We 
concluded we had a better chance to have India meet international 
nonproliferation standards if we engaged rather than isolated it. We 
believe the resulting agreement advances our strategic partnership and 
is a net gain for nonproliferation. We do not plan to offer such 
cooperation to any other country.
    In addition to aligning ourselves with a country that shares our 
democratic values and commitment to a multiethnic, multireligious 
society, developing civil nuclear cooperation with India will bring 
concrete benefits to the United States and to the international 
community more broadly. Under Secretary Joseph will address this 
initiative in detail, but let me outline here some of the key reasons 
why we believe this initiative makes excellent sense:

  <bullet> Security Benefits: All the steps that India pledged on July 
        18 strengthen the international nonproliferation regime, and 
        all align with our efforts to prevent the spread of weapons of 
        mass destruction. India's September vote in the International 
        Atomic Energy Agency (IAEA) that found Iran in noncompliance 
        with its nuclear obligations reflects India's coming of age as 
        a responsible state in the global nonproliferation mainstream.
  <bullet> Environmental Benefits: Nuclear energy is one of the few 
        proven sources of energy that does not emit greenhouse gases, 
        and thus can help India modernize in an environmentally 
        friendly manner that does not damage our common atmosphere and 
        contribute to global warming.
  <bullet> Commercial Benefits: As a result of our involvement in 
        India's civil nuclear industry, United States companies will be 
        able to enter India's lucrative and growing energy market, 
        potentially providing jobs for thousands of Americans.
  <bullet> Energy Benefits: India's expertise in basic science and 
        applied engineering will add significant resources and 
        substantial talent in the development of fusion as a cheap 
        energy source if India can participate in the International 
        Thermonuclear Experimental Reactor (ITER) program and help make 
        the next generation of reactors safer, more efficient and more 
        proliferation-resistant as a member of the Generation IV Forum 
        (GIF).

                        THE BROADER RELATIONSHIP

    Although our civil nuclear initiative has garnered the most 
attention, it is only part of a much broader and deeper strategic 
partnership with India, something that has not really been possible 
until now.
    In late June, Defense Minister Pranab Mukherjee and Secretary of 
Defense Donald Rumsfeld signed a New Defense Framework that will guide 
our defense relations for the next decade. We're planning to enlarge 
defense trade, improve cooperation between our Armed Forces, and 
coproduce military hardware. The brilliant cooperation of our two 
militaries during the response to the tsunami disaster last December 
was a remarkable testament to how far we have come, and the great 
potential we have for the future.
    A strong, democratic India is an important partner for the United 
States. We anticipate that India will play an increasingly important 
leadership role in 21st century Asia, working with us to promote 
democracy, respect for human rights, economic growth, stability and 
peace in that vital region. By cooperating with India now, we 
accelerate the arrival of the benefits that India's rise brings to the 
region and the world. By fostering ever-closer bilateral ties, we also 
eliminate the possibility that our two nations might overlook their 
natural affinities and enter into another period of unproductive 
estrangement as was so often the case during the cold war period. By 
challenging India today, with a full measure of respect for its ancient 
civilization, traditions, and accomplishments, we can help it realize 
its full potential as a natural partner in the struggle against the 
security challenges of the coming generation, and the global threats 
that are flowing over, under, and through our respective national 
borders.
    I visited New Delhi 2 weeks ago and held an extensive series of 
discussions with senior Indian officials on the range of our foreign 
policy interests. While there, I had broad-ranging discussions on many 
issues, everything from HIV/AIDS to the situation in Nepal to our 
concerns about Iran. The July 18 Joint Statement calls for government-
to-government joint cooperation in many areas, including civil nuclear 
cooperation; a United States-India Global Democracy Initiative; an 
expanded United States-India Economic Dialogue focusing on trade, 
finance, the environment, and commerce; continued cooperation in 
science and technology; an Energy Dialogue to strengthen energy 
security and promote stable energy markets, an Agricultural Knowledge 
Initiative, an Information and Communications Technology Working Group; 
Space Cooperation; a United States-India Disaster Response Initiative; 
and the United States-India HIV/AIDS Partnership. Foreign Secretary 
Saran and I have already begun working on the joint ventures that the 
President and Prime Minister Singh had asked us to undertake and plan 
to further our cooperation in the fields of education, in agriculture, 
in science and technology, and in space. We very much would like to 
welcome an Indian astronaut to fly on the space shuttle. I think it is 
clear that our interests converge on all these issues. With this 
ambitious agenda, our two countries are becoming, in effect, global 
partners.
    Cooperation in several of these areas has already begun and is 
yielding results. Just last month, the United States-India Treaty on 
Mutual Legal Assistance in Criminal Matters entered into force, 
providing for enhanced, streamlined and more effective law enforcement 
cooperation between our two countries. On October 17, Secretary Rice 
and Indian Science and Technology Minister Sibal signed an umbrella 
Science and Technology Agreement that will strengthen United States and 
Indian capabilities and expand relations between the extensive 
scientific and technological communities of both countries. This 
agreement includes a substantive Intellectual Property Rights (IPR) 
provision--another indication of India's increasing recognition of the 
need to respect intellectual property.

                         THE CHALLENGES WE FACE

    We have accomplished much, but we have just scratched the surface 
of our partnership with India. Ambassador Mulford and his outstanding 
team in New Delhi, aided by frequent high-level visitors to the 
subcontinent over the next several months, will continue to pursue this 
expanding agenda.
    We want the United States and India to work together more 
effectively than we have in the past to become more effective global 
partners. Let me provide a few examples. On the political side of the 
ledger, we will be seeking early tangible progress with India toward:

  <bullet> Creating a closer United States-India partnership to help 
        build democratic institutions in the region and worldwide. 
        During the Prime Minister's visit to Washington, our two 
        leaders agreed for the first time to work together to promote 
        democracy worldwide. Both countries have contributed to the 
        U.N.'s Democracy Fund. We will seek ways to work together in 
        strengthening democratic institutions and practices in specific 
        countries. India's experiment in democracy has been a success 
        for over half a century, and its 2004 national polls were the 
        largest exercise in electoral democracy the world has ever 
        seen. We share a belief that democracy and development are 
        linked, that effective democratic governance is a precondition 
        to healthy economic development. In this regard, we hope India 
        will share its democratic experience with central Asian 
        nations, which are having a difficult time making the 
        transition from authoritarianism to democracy, and assist them 
        in building institutions necessary to the success of democracy 
        and the advancement of human rights.
  <bullet> Advancing our shared interest in reform at the United 
        Nations. Members of this committee know well the President's 
        deep desire to promote reform at the United Nations. This is a 
        top priority for this administration, and India as well. We 
        want a far more vigorous Indian engagement with us in the 
        ongoing process of reforming the United Nations into an 
        organization that serves the interests of its members. I think 
        both our countries would agree that this process should neither 
        be politicized nor subjected to the sort of country bloc 
        calculations that prevailed during the cold war. India has much 
        to offer in moving reform efforts ahead.
  <bullet> Indian participation in the Proliferation Security 
        Initiative. India boasts one of the world's largest commercial 
        maritime fleets and a navy that demonstrated its rapidly 
        growing expeditionary capacity in responding to the December 
        tsunami. Indian support for the multinational Proliferation 
        Security Initiative (PSI) would be a boon to the participating 
        nations' goal of tracking and interdicting dangerous terrorist 
        and weapons of mass destruction (WMD) cargoes worldwide. We 
        hope India will choose to join PSI.
  <bullet> United States-India cooperation for regional peace and 
        stability. India is one of the largest international donors to 
        Afghanistan's reconstruction and works closely with us in the 
        areas of road construction, public health, education, 
        telecommunications, and human resource development. India and 
        the United States share the goal of a return to democracy in 
        Nepal and a defeat of the Maoist insurgency. In Sri Lanka, we 
        both support the government's efforts to recover from the 
        tsunami and return to the peace process. We should do more to 
        promote human rights and democracy in autocratic Burma. Our two 
        countries should work more closely to promote peace and 
        stability in Asia.
  <bullet> Convincing Iran to return to negotiations. India and the 
        United States have found an increasingly positive dialog on 
        Iran. We are both dedicated to the goal of an Iran that lives 
        in harmony in its region, ends support of terrorist groups and 
        does not seek nuclear weapons. We welcomed India's vote with us 
        at the IAEA in September to find Iran in noncompliance with its 
        international obligations. We appreciate India's belief that 
        Iran should not acquire a nuclear weapons capability, and 
        India's continuing cooperation with the United States and 
        Europe is essential to convince Iran to return to negotiations.

    We and India also need to focus on a number of important economic 
challenges, both bilateral and global. Since the early 1990s, India has 
progressed far in liberalizing its tariff regime and investment 
environment, and these major changes have fueled the growth and 
increased prosperity of recent years. Any quick survey of India's 
economic landscape provides thousands of examples of innovation and 
excellence. India is increasingly a global competitor in knowledge-
based industries such as information and communications technology and 
biotechnology research and development.
    Despite its impressive record of economic growth during the last 
decade, India still struggles with many of the persistent challenges 
faced by developing countries: Insufficient and underdeveloped 
infrastructure, inefficient markets for goods and services, and minimal 
access of credit and capital among the urban and rural poor. In 
addition, India also suffers from a shortage of foreign capital and 
investment, which can bring in key, new technologies, create jobs, and 
modernize industries.
    In this new partnership, the United States and India have a great 
opportunity to work together to overcome these challenges, toward the 
continued prosperity of our peoples, and to play a positive role in 
shaping the world's economic future. The ongoing negotiations in the 
World Trade Organization (WTO) in the Doha Development Round offer the 
perfect opportunity to work on our shared goals of trade, development, 
and prosperity.
    Both India and the United States stand to gain from the increasing 
liberalization of trade in goods and services, and in convincing our 
trading partners to do the same. There is no reason why India and the 
United States should not be partners in this forum, whose success is so 
crucial to our common future. We plan to work closely with India on 
proposals that can translate the promise of the WTO's mission--and the 
new era of United States-India relations--into reality. This effort 
will take hard work on both sides, and we look forward to this 
opportunity to engage India seriously, to the economic betterment of 
both our people.
    As we build closer economic relations, we look forward to India's 
agreement to purchase American civil and military aircraft and to open 
its doors further to trade with our country.

BUILDING PEOPLE-TO-PEOPLE AND PRIVATE SECTOR COOPERATION BETWEEN INDIA 
                         AND THE UNITED STATES

    The new United States-India partnership is not and cannot be just 
between governments. We have seen an equally powerful expansion of our 
people-to-people ties and business growth. The immense power of the 
India-United States people-to-people network goes deeper than anyone 
could have ever imagined. We find thousands of Americans in Delhi, in 
Mumbai and Bangalore, and even more Indians in New York, Washington, 
and Los Angeles. Over 85,000 Americans are living in India, lured by 
its growing economy and the richness of its culture. There are 2 
million persons of Indian origin in the United States, citizens and 
legal permanent residents. They are operating businesses in our 
country, running for political office, and building bridges back to 
India. There are more Indian students in the United States today than 
from any other country in the world--80,000.
    We have, in essence, the development of a true, comprehensive, 
across-the-board engagement between India and the United States, our 
governments, our societies, and our peoples. This engagement by 
individuals and businesses will propel and sustain the formal ties 
between our governments.

                               CONCLUSION

    I am pleased to have had the opportunity to share with you the many 
elements of this strategic transformation that we are witnessing in the 
United States-India relationship. Both President Bush and Prime 
Minister Singh have shown the confidence and vision to pursue a common 
vision for the world together. We hope the Congress will help us make 
that vision a reality.

    The Chairman. Well, thank you very much, Secretary Burns, 
for your very comprehensive testimony. We appreciate that.
    Secretary Joseph, would you proceed?

 STATEMENT OF HON. ROBERT G. JOSEPH, UNDER SECRETARY FOR ARMS 
   CONTROL AND INTERNATIONAL SECURITY, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Joseph. Mr. Chairman, Senator Biden, Senator Hagel, it 
is an honor to appear before you today to discuss the 
President's policy on India and to address the very legitimate 
and very important questions that have been raised.
    I, also, will not read my prepared remarks, but will submit 
them for the record. But I would like to make three 
introductory points.
    First, working toward full civil nuclear cooperation with 
India is not a case of strategic interests or power politics 
trumping nonproliferation principles. The agreement, reached by 
President Bush and Prime Minister Singh in July, seeks to 
develop full civil nuclear cooperation as a component of our 
broader relationship with India, while, at the same time, 
strengthening the nuclear nonproliferation regime. In other 
words, this is not a zero-sum tradeoff whereby gains in the 
strategic partnership with India result in nonproliferation 
losses. Countering proliferation is a core national security 
objective of this administration. We believe that it's in our 
interest to establish a broad strategic partnership with India, 
and nonproliferation is a key objective we intend to advance in 
the context of that enhanced relationship. So, our two goals 
are not in conflict, but, rather, are reenforcing.
    With the Joint Statement, India has agreed to take on key 
commitments that align it more firmly with the nuclear 
nonproliferation mainstream than at any previous time. The 
commitments that India takes on in the Joint Statement, as you 
have outlined, Mr. Chairman, are meaningful. And India's 
implementation of these commitments will, on balance, enhance 
our global nonproliferation efforts and strengthen the nuclear 
nonproliferation regime.
    Since his first days in office, the President has made non- 
and counter-proliferation top national security priorities. 
This has not, and this will not, change. One characteristic of 
this administration's approach to preventing and protecting 
against WMD proliferation is the willingness and the 
determination to pursue new and pragmatic approaches that 
address real-world problems. There is no viable cookie-cutter 
approach to nonproliferation. We need to be both creative and 
determined. We need to adjust our approaches to take into 
account the conditions that exist, so that we can effectively 
combat weapons of mass destruction. It is this determination, 
it is this willingness, to undertake the task of non- and 
counter-proliferation differently that has produced such 
results as the G-8 Global Partnership, U.N. Security Council 
Resolution 1540, and the Proliferation Security Initiative.
    In the case of India, we must pursue approaches that 
recognize India as a growing 21st century power, one that 
shares our democratic values, has substantial and growing 
energy needs, and has long possessed nuclear weapons outside of 
the NPT. Status-quo approaches neither acknowledge these 
pragmatic considerations, nor have they achieved the positive 
outcome of integrating India into the international nuclear 
nonproliferation mainstream.
    As the Joint Statement is implemented, I believe it will 
prove to be a win for our bilateral strategic relationship, a 
win for our energy security, and a win for our nonproliferation 
objectives.
    Based on our consultations to date with the Nuclear 
Suppliers Group, which met in mid-October, this prospect is 
generally understood. Some states, such as Sweden and 
Switzerland, have expressed severe reservations, for fear of 
undermining the NPT. Others, such as the United Kingdom and 
France, have expressed strong support, arguing that this is the 
right move at the right time. Most have adopted a wait-and-see 
approach, recognizing the need to come to terms with India and 
not allowing it to remain outside the international 
nonproliferation system. They welcome the steps that India has 
agreed to take in the context of the Joint Statement. At the 
same time, they have made very clear that their support will 
depend on the scope, and on the pace, of India's actions.
    Second, the key to success is India's timely and effective 
implementation of its agreed commitments. I would underscore 
that implementing the Joint Statement will, in some cases, 
prove very challenging and will take time to realize fully. For 
example, developing an appropriate civil-military separation 
will be complex and time consuming. India has not yet presented 
a plan, and we have underscored that the nature and 
completeness of this plan will be critical in building support 
within the Nuclear Suppliers Group and here in Washington. The 
separation of civil and military facilities must be both 
credible and transparent.
    We have encouraged India to make a comprehensive 
declaration of its civil infrastructure, and have discussed 
some straightforward principles. For example, a credible plan 
must ensure that we, and other potential suppliers, can meet 
our obligations under the Non-Proliferation Treaty, so 
safeguards must be applied in perpetuity. Moreover, any 
separation plan must ensure, and the safeguards must confirm, 
that cooperation does not in any way assist in the development 
or production of nuclear weapons. Nuclear materials in the 
civil sector simply must remain in the civil sector.
    Many of our international partners have expressed strong 
views that India's separation plan be meaningful and have noted 
the importance of IAEA safeguards being applied to India's 
civil facilities. Several states have argued that it is 
integral to maintaining the integrity of the global regime that 
India not be granted de jure or de facto status as a nuclear 
weapon state. For this reason, many have indicated that a so-
called ``voluntary offer arrangement,'' of the type that is in 
place with the five nuclear weapon states, would not be 
acceptable for India. Neither would we view such an arrangement 
as defensible from a nonproliferation standpoint.
    Third, Mr. Chairman, we would urge both Congress and our 
international partners to avoid the temptation to renegotiate 
the deal. Some observers, both in the United States and abroad, 
have argued that the United States-India agreement does not 
represent the maximum gain we might have achieved. According to 
this view, we, presumably the United States Congress, should 
condition approval of the agreement on additional Indian steps, 
such as implementing a moratorium on fissile material 
production, ratifying the Comprehensive Test Ban Treaty, and/or 
joining the NPT as a nonnuclear weapon state. Based on our 
interactions with the Indian Government, we believe that such 
additional conditions would likely prove to be deal-breakers.
    This is a case where the perfect is the enemy of the good, 
and we must resist the temptation to pile on conditions that 
will prejudice our ability to realize the important 
nonproliferation objectives that are already embedded in the 
Joint Statement.
    In our view, it would be better to lock in this agreement 
and then seek to achieve further results in our continuing 
nonproliferation dialog with India. We are much better off with 
India undertaking the commitments it has now agreed to, rather 
than allowing status-quo stalemates to prevail.
    We believe that this is a sound arrangement, and one that 
should be supported, because the commitments India has made 
will, when they are implemented, bring it into greater 
alignment with international nuclear nonproliferation standards 
and practices, and, as such, will strengthen the global 
nonproliferation regime.
    The NPT is not a perfect instrument, as we have seen with 
North Korea and with Iran. As an administration, we are 
endeavoring to strengthen the regime, including principal 
components such as the IAEA and the Nuclear Suppliers Group, 
through the types of proposals that the President made in 
February 2004, including advancement of the Additional 
Protocol, the creation of a special IAEA Committee on 
Verification, and the end to the transfer of sensitive 
enrichment and reprocessing technologies to states that do not 
have a fully functioning capability.
    Bringing India closer to the regime, in terms of its 
actions, will contribute to this goal. This was demonstrated, I 
believe, at the IAEA Board of Governors meeting in September, 
when Delhi took the important step of voting with the majority 
to find Iran in formal noncompliance.
    In conclusion, we look forward to working with you over the 
months ahead to bring this important objective to a timely and 
successful outcome. As Under Secretary Burns noted, we do not 
intend to ask Congress to take legislative action until the 
Indian Government takes certain implementation steps. We 
welcome your partnership as we embark on this effort, and we 
look forward to working with your committee, together with your 
House counterparts, as we jointly consider the best way forward 
in this legislative area.
    Thank you very much.
    [The prepared statement of Mr. Joseph follows:]

 Prepared Statement of Hon. Robert G. Joseph, Under Secretary for Arms 
  Control and International Security, State Department, Washington, DC

    Chairman Lugar, Senator Biden, distinguished members of the 
committee, it is an honor to appear before you today to discuss the 
President's policy toward India with respect to civil nuclear 
cooperation. I look forward to working with you over the months ahead 
to bring this important objective to a timely and successful outcome.
          toward united states-india civil nuclear cooperation
    We believe it is in our national security interest to establish a 
broad strategic partnership with India that encourages India's 
emergence as a positive force on the world scene. Our desire to 
transform relations with India is founded upon a contemporary and 
forward-looking strategic vision. India is a rising global power and an 
important democratic partner for the United States. Today, for the 
first time, the United States and India are bound together by a strong 
congruence of interests and values. We seek to work with India to win 
the global War on Terrorism, to prevent the spread of weapons of mass 
destruction and the missiles that could deliver them, to enhance peace 
and stability in Asia, and to advance the spread of democracy. India 
and the United States are on the same side of these critical strategic 
objectives. Our challenge is to translate our converging interests into 
shared goals and compatible strategies designed to achieve these aims.
    In the context of this growing partnership, the United States and 
India reached a landmark agreement in July to work toward full civil 
nuclear cooperation while at the same time strengthening the nuclear 
nonproliferation regime. The Joint Statement agreed to by President 
Bush and Prime Minister Singh is not--as some have argued--a triumph of 
power politics over nonproliferation principles. This is not a zero-sum 
trade-off, whereby improvement in our bilateral strategic relationship 
results in nonproliferation losses. Rather, as the broadly constituted 
Joint Statement is implemented, it will prove a win for our strategic 
relations, a win for energy security, and a win for nonproliferation.
    India believes, and our administration agrees, that it needs 
nuclear power to sustain dynamic economic growth and to address its 
growing energy requirements in an affordable and environmentally 
responsible manner. Our goal--in the context of the Joint Statement--is 
to provide India access to the technology it needs to build a safe, 
modern and efficient infrastructure that will provide clean, peaceful 
nuclear energy.
    At the same time, India has clearly demonstrated over the past 
several years its desire to work with the United States and the 
international community to fight the spread of sensitive nuclear 
technologies. As part of an effort launched with India during the 
administration's first term--the Next Steps in Strategic Partnership--
India took a number of significant steps to strengthen export controls 
and to ensure that Indian companies would not be a source of future 
proliferation. Not only did India pledge to bring its export control 
laws, regulations, and enforcement practices in line with modern export 
control standards, but also passed an extensive export control law and 
issued an upgraded national control list that will help it achieve this 
goal. In addition, India has become a party to the Convention on the 
Physical Protection of Nuclear Material and has taken significant steps 
toward meeting its obligations under UNSCR 1540.
    The additional nonproliferation commitments India made as part of 
the Joint Statement go even further and, once implemented, will bring 
it into closer conformity with international nuclear nonproliferation 
standards and practices. This is a very important move for India and 
for the nonproliferation community. While we will continue to work with 
India and to encourage it to do more over time, India's implementation 
of its commitments will, on balance, enhance our global 
nonproliferation efforts. We expect the international nuclear 
nonproliferation regime will emerge stronger as a result.
    As evidence of this expectation, we note with satisfaction India's 
positive IAEA Board of Governors vote in September on Iranian 
noncompliance, and look forward to further cooperative action on this 
critical international security issue.

                         NONPROLIFERATION GAINS

    Through the Joint Statement, India has publicly committed to a 
number of important nonproliferation steps. It will now:

  <bullet> Identify and separate civilian and military nuclear 
        facilities and programs and file a declaration with the 
        International Atomic Energy Agency (IAEA) regarding its 
        civilian facilities;
  <bullet> Place voluntarily its civilian nuclear facilities under IAEA 
        safeguards;
  <bullet> Sign and adhere to an Additional Protocol with respect to 
        civilian nuclear facilities;
  <bullet> Continue its unilateral moratorium on nuclear testing;
  <bullet> Work with the United States for the conclusion of a 
        multilateral Fissile Material Cut-Off Treaty (FMCT) to halt 
        production of fissile material for nuclear weapons;
  <bullet> Refrain from the transfer of enrichment and reprocessing 
        technologies to states that do not have them and support 
        efforts to limit their spread; and
  <bullet> Secure nuclear and missile materials and technologies 
        through comprehensive export control legislation and adherence 
        to the Missile Technology Control Regime (MTCR) and Nuclear 
        Suppliers Group (NSG).

    India's commitment to separate its civil and military facilities 
and place its civil facilities and activities under IAEA safeguards 
demonstrates its willingness to assume full responsibility for 
preventing proliferation from its civil nuclear program. It will also 
help protect against diversion of nuclear material and technologies to 
India's weapons program.
    By adopting an Additional Protocol with the IAEA, India will commit 
to reporting to the IAEA on exports of all NSG Trigger List items. This 
will help the IAEA track potential proliferation elsewhere, and bolster 
our efforts to encourage all states to adopt an Additional Protocol as 
a condition of supply.
    By committing to adopt strong and effective export controls, 
including adherence to NSG and MTCR Guidelines, India will help ensure 
that its companies do not transfer sensitive weapons of mass 
destruction and missile-related technologies to countries of concern. 
In July, India took an important step by harmonizing its national 
control list with the NSG Guidelines and by adding many items that 
appear on the MTCR Annex.
    India has also committed to work with the United States toward the 
conclusion of a multilateral FMCT, which, if successfully negotiated 
and ratified, will ban the production of fissile material for use in 
nuclear weapons or other nuclear explosive devices.
    India's pledge to maintain its nuclear testing moratorium 
contributes to nonproliferation efforts by making its ending of nuclear 
explosive tests one of the conditions of full civil nuclear 
cooperation. Since to date Pakistan has test-exploded nuclear weapons 
only in response to Indian nuclear tests, this commitment will help 
diminish the prospects for future nuclear testing in South Asia.
    By committing not to export enrichment and reprocessing technology 
to states that do not already have such fully functioning capabilities, 
India will help us achieve the goals laid out by President Bush in 
February 2004, designed to prevent the further spread of such 
proliferation sensitive equipment and technology. This will help close 
what is widely recognized as the most significant loophole in the 
Nuclear Non-Proliferation Treaty regime--a loophole that has clearly 
been exploited by countries such as North Korea and Iran and could be 
manipulated by others in the future.
    Each of these activities is significant. Together, they constitute 
a substantial shift in moving India into closer conformity with 
international nonproliferation standards and practices. Their 
successful implementation will help to strengthen the global 
nonproliferation regime.
    As befits a major, responsible nation, and in keeping with its 
commitment to play a leading role in international efforts to prevent 
WMD proliferation, we hope that India will also take additional 
nonproliferation-related actions beyond those specifically outlined in 
the Joint Statement. We view this as a key component of the developing 
United States-India strategic partnership and look forward to working 
with the Indian Government, as well as the international community more 
broadly, to further strengthen nonproliferation efforts globally.
    Through our ongoing bilateral dialog we have already discussed with 
India such steps as endorsing the Proliferation Security Initiative 
Statement of Principles, bringing an early end to the production of 
fissile material for weapons, and harmonizing its control lists with 
those of the Australia Group and the Wassenaar Arrangement.

               U.S. COMMITMENTS UNDER THE JOINT STATEMENT

    On a reciprocal basis with India's commitments, the United States 
has committed to work to achieve full civil nuclear cooperation with 
India. In this context, President Bush told Prime Minister Singh that 
he would:

  <bullet> Seek agreement from Congress to adjust U.S. laws and 
        policies;
  <bullet> Work with friends and allies to adjust international regimes 
        to enable full civil nuclear energy cooperation and trade with 
        India; and
  <bullet> Consult with partners on India's participation in the fusion 
        energy International Thermonuclear Experimental Reactor (ITER) 
        consortium and the Generation IV International Forum, the work 
        of which relates to advanced nuclear energy systems.

    To implement effectively the steps under the Joint Statement, we 
will need the active support of Congress and that of our international 
partners. We expect--and have told the Indian Government--that India's 
follow-through on its commitments is essential to success. We believe 
that the Government of India understands this completely and we expect 
them to begin taking concrete steps in the weeks ahead.

                    INTERNATIONAL RESPONSES TO DATE

    Mr. Chairman, since the July statement, we have actively engaged 
with our international partners--both bilaterally and in such 
multilateral fora as the G-8 and the Nuclear Suppliers Group. I have 
met directly with my counterparts from many different countries. 
Secretary Rice and other senior U.S. officials discussed the initiative 
with states at the recent U.N. General Assembly and at IAEA General 
Conference meetings. Assistant Secretaries Stephen Rademaker and 
Christina Rocca both traveled to Vienna to make presentations to the 
NSG Consultative Group. And, of course, many of our Embassies have been 
actively engaged on this front.
    While some countries, such as Sweden, have expressed substantial 
doubts about the initiative for fear of inadvertent damage to the 
nuclear nonproliferation regime, others have expressed strong support. 
For example, the United Kingdom has ``warmly welcome(d)'' this 
initiative and indicated that on the basis of the Joint Statement it 
was ``ready to discuss with our international partners the basis for 
cooperation in civil nuclear matters with India.'' Similarly, France 
has underscored the ``need for full international civilian nuclear 
cooperation with India.'' The Director General of the IAEA has also 
welcomed India's decision to place its civil nuclear facilities under 
safeguards and to sign and implement the Additional Protocol as 
``concrete and practical steps toward the universal application of IAEA 
safeguards.''
    To date, many other countries have adopted a ``wait-and-see'' 
approach. Most recognize the need to come to terms with India and not 
to allow it to remain completely outside the international 
nonproliferation system. They welcome the nonproliferation steps India 
has committed to take in the context of the Joint Statement. At the 
same time, they have made clear that their ultimate support will depend 
on the scope and pace of India's actions.
    Some have understandably questioned how this complex initiative 
comports with the NPT and our efforts to combat WMD proliferation. 
Others have asked whether the provision of civil nuclear technology to 
India would be consistent with their obligations under the NPT not to 
contribute to India's nuclear weapons program. Still others have asked 
why a cap on India's production of fissile material for weapons was not 
part of the deal.
    We have sought to clarify that the United States does not and will 
not support India's nuclear weapons program. As it is for other states, 
this is a ``red line'' for us. We are obligated under the NPT not to 
assist India's nuclear weapons program. Our initiative with India does 
not recognize India as a nuclear weapon state, and we will not seek to 
renegotiate the NPT, whether to change the treaty definition of a 
nuclear weapon state or in any other way. We remain cognizant of, and 
will fully uphold, all of our obligations under the Nuclear Non-
Proliferation Treaty, and we remain committed in principle to universal 
NPT adherence.
    But we also recognize that India is in a unique situation and has 
shown to be responsible in not proliferating its nuclear technologies 
and materials. With its decision to take the steps announced in the 
Joint Statement, India will now take on new nonproliferation 
responsibilities that will strengthen global nonproliferation efforts 
that serve the fundamental purpose of the NPT.
    India has informed us that it has no intention of relinquishing its 
nuclear weapons or of becoming a party to the NPT as a nonnuclear 
weapon state, the only way it could adhere under the current terms of 
the treaty. Despite this, it is important to seize this opportunity to 
assist India in becoming a more constructive partner in our global 
nonproliferation efforts. Indian commitments to be undertaken in the 
context of the Joint Statement will align Delhi more closely with the 
nuclear nonproliferation regime than at any time previously. India has 
said it wants to be a partner and is willing to take important steps to 
this end. We should encourage such steps.
    In this context, it is important to note that the NPT does not ban 
civil nuclear cooperation with safeguarded facilities in India, nor 
does it require full scope safeguards as a condition of supply. In 
fact, under the ``grandfather'' provision of the NSG Guidelines, Russia 
today is building two nuclear reactors in India.
    The NPT does preclude any cooperation that would ``in any way 
assist'' India's nuclear weapons program. For that reason, we have made 
clear that, under our proposal, supplier states will only be able to 
engage in cooperation with safeguarded facilities. Moreover, the more 
civil facilities India places under safeguards, the more confident we 
can be that any cooperative arrangements will not further any military 
purposes. We expect--and have indicated to the Government of India--
that India's separation of its civil and military nuclear 
infrastructure must be conducted in a credible and transparent manner, 
and be defensible from a nonproliferation standpoint. In other words, 
the separation and the resultant safeguards must contribute to our 
nonproliferation goals. Many of our international partners have 
similarly indicated that they view this as a necessary precondition, 
and will not be able to support civil nuclear cooperation with India 
otherwise. We believe that the Indian Government understands this.
    With respect to the cessation of fissile material production, we 
continue to encourage India, as well as Pakistan, to move in this 
direction as part of our strategic dialogs with both governments. But 
we think it would be unwise to hold up the nonproliferation gains that 
can be obtained from the civil nuclear cooperation initiative for an 
Indian fissile material cap. Moreover, in the context of the Joint 
Statement, we jointly committed to work toward the completion of an 
effective Fissile Material Cut-Off Treaty. As we have indicated 
previously, the United States also stands willing to explore other 
intermediate options that also might serve this objective.
    As India completes the significant actions that it has committed to 
undertake in the Joint Statement, we are convinced that the 
nonproliferation regime will emerge stronger. Separately, we will 
continue to encourage additional steps, such as India's acceptance of a 
fissile material production moratorium or cap, but we will not insist 
on it for the purposes of the civil nuclear cooperation initiative 
announced by the President and Prime Minister. Even absent such a cap, 
the initiative represents a net gain for nonproliferation.

                             KEY CHALLENGES

    Five key challenges face the successful achievement of Joint 
Statement implementation. These include: Developing a meaningful civil/
military separation; negotiating the appropriate safeguards 
arrangement; building support within the NSG; avoiding the temptation 
to renegotiate the deal; and securing domestic legal reform.
    Developing a meaningful civil/military separation: We have 
indicated that the separation of civil and military facilities must be 
both credible and transparent, as well as defensible from a 
nonproliferation standpoint. We have engaged in initial discussions 
with the Government of India, and look forward to further discussion of 
a mutually acceptable approach. While India has not yet presented a 
formal separation plan, we are encouraged by Foreign Secretary Saran's 
public acknowledgements both that ``it is legitimate for our partners 
to expect that such cooperation will not provide any advantage to our 
strategic programme,'' and that ``it makes no sense for India to 
deliberately keep some of its civilian facilities out of its 
declaration for safeguards purposes, if it really is interested in 
obtaining international cooperation on as wide a scale as possible.''
    In our discussions to date, and in particular during Under 
Secretary Burns' recent talks in Delhi, we have discussed some 
straightforward principles. I will not enumerate them fully here since 
the negotiations remain ongoing, but would like to underscore just a 
couple of these. For example, to ensure that the United States and 
other potential suppliers can confidently supply to India and meet our 
obligations under the NPT, safeguards must be applied in perpetuity. 
Further, the separation plan must ensure--and the safeguards must 
confirm--that cooperation does not ``in any way assist'' in the 
development or production of nuclear weapons. In this context, nuclear 
materials in the civil sector should not be transferred out of the 
civil sector.
    Negotiating the appropriate safeguards arrangement: India's 
voluntary commitment to allow IAEA safeguards on its civil facilities 
is both a substantial nonproliferation gain and a key enabler for 
nuclear energy cooperation. A critical bellwether of Indian intentions 
will be how it handles the separation and safeguarding of its civil 
nuclear infrastructure. In our discussions with key international 
partners, both in the NSG context and otherwise, many have expressed 
strong views that India's separation plan be transparent and have noted 
the importance of IAEA safeguards being applied to its civil 
facilities.
    In this context, several countries have argued that it is integral 
to maintaining the integrity of the global regime that India not be 
granted de jure or de facto status as a nuclear weapon state under the 
NPT. For this reason, many have indicated that a ``voluntary offer'' 
arrangement of the type in place in the five internationally recognized 
nuclear weapon states would not be acceptable for India. We indicated 
at the recent G-8 and NSG meetings that we would not view a voluntary 
offer arrangement as defensible from a nonproliferation standpoint or 
consistent with the Joint Statement, and therefore do not believe that 
it would constitute an acceptable safeguards arrangement. Such a course 
of action would in all likelihood preclude NSG support. Conversely, 
should India put forward a credible and defensible plan, we anticipate 
that many states will become more steadfast in their support.
    Building support within the NSG: At the recent NSG Consultative 
Group meeting in Vienna, the United States discussed the initiative 
with regime members. We stressed our desire that the NSG maintain its 
effectiveness, and emphasized that we do not intend to undercut this 
important nonproliferation policy tool. For this reason, the U.S. 
proposal neither seeks to alter the decisionmaking procedures of the 
NSG nor amend the current full-scope safeguards requirement in the NSG 
Guidelines. Rather, the United States proposes that the NSG take a 
policy decision to treat India as an exceptional case, given its energy 
needs, its nuclear nonproliferation record, and the nonproliferation 
commitments it has now undertaken. We do not advocate similar treatment 
for others outside the NPT regime.
    In our view, once India makes demonstrable progress in implementing 
key Joint Statement commitments--with a credible, transparent, and 
defensible separation plan foremost on the list--we will be ready to 
engage with our NSG partners in developing a formal proposal to allow 
the shipment of Trigger List items and related technology to India. 
Obviously, the number of facilities and activities that India places 
under IAEA safeguards, and the method and speed with which it does so, 
will directly affect the degree to which we will be able to build 
support for full civil nuclear cooperation. We look forward to 
discussing this more fully with NSG members at the Consultative Group 
meeting in early 2006 and at the plenary session that follows.
    Avoiding the temptation to renegotiate the deal: Some observers--
both in the United States and abroad--have argued that the United 
States-India arrangement as negotiated by the President and the Prime 
Minister does not constitute a net gain for nonproliferation, or at 
least does not reflect the maximum gain we might in theory have 
achieved. According to this view, the United States, presumably the 
United States Congress, should condition United States nuclear 
cooperation under the Joint Statement on additional Indian steps, such 
as implementing a moratorium on fissile material production, ratifying 
the Comprehensive Test Ban Treaty, and/or joining the NPT as a 
nonnuclear weapon state. Based on our interactions with the Indian 
Government, we believe that such additional conditions would likely be 
deal-breakers.
    This is a case where the ``perfect'' is the enemy of the ``good,'' 
and we must resist the temptation to pile on conditions that will 
prejudice our ability to realize the important and long-standing 
nonproliferation objectives embodied in the Joint Statement. We are 
better off with India undertaking the commitments it has now agreed to 
rather than allowing the status quo to prevail.
    The Joint Statement reached by President Bush and Prime Minister 
Singh is good both for India and for the United States, and offers a 
net gain for global nonproliferation efforts. Rather than layer on 
additional conditions or seek to renegotiate the Joint Statement, it 
would be better to lock in this deal and then seek to achieve further 
results in subsequent nonproliferation discussions. We believe that 
this is a sound arrangement that should be supported because the 
commitments India has made will, when implemented, bring it into closer 
alignment with international nuclear nonproliferation standards and 
practices and, as such, strengthen the global nonproliferation regime.
    Securing domestic legal reform: The President promised in the Joint 
Statement that the administration would seek agreement from Congress to 
adjust U.S. laws and policies. We recognize that the pace and scope of 
civil nuclear cooperation requires close consultations between the 
executive and legislative branches. In our own ongoing review, we have 
identified a number of options for modifying and/or waiving provisions 
of the Atomic Energy Act that currently prohibit the United States from 
engaging in such cooperation with India.
    As Under Secretary Burns noted, we do not intend to ask Congress to 
take legislative action until the Indian Government takes certain 
important steps. We welcome your partnership as we embark on this 
effort, and look forward to working with your committee, together with 
your House counterparts, as we jointly consider the best way forward in 
the legislative area.

                BOTTOM LINE: ADVANCING NONPROLIFERATION

    We must recognize that there is today no viable cookie-cutter 
approach to nonproliferation; we need tailored approaches that solve 
real-world problems. We need to be creative and adjust our approaches 
to take into account the conditions that exist, so that we can achieve 
our nonproliferation objectives. This has been a premise of 
administration policy since the outset of President Bush's first term, 
in which he established non- and counterproliferation as top national 
security priorities. He put in place the first comprehensive strategy 
at the national level for combating this preeminent threat to our 
security, and he embarked on changing how we as a nation, and how the 
international community more broadly, design and expand our collective 
efforts to defeat this complex and dangerous challenge.
    Indeed, recognizing that traditional nonproliferation measures were 
essential but no longer sufficient, the President has established new 
concepts and new capabilities for countering WMD proliferation by 
hostile states and terrorists.

  <bullet> He sought increased national resources to prevent 
        proliferation through Nunn-Lugar type nonproliferation 
        assistance programs and, through the G-8 Global Partnership, 
        successfully enlarged the contributions from other countries to 
        this essential task.
  <bullet> He launched the Proliferation Security Initiative to disrupt 
        the trade in proliferation-related materials. This initiative 
        has achieved the support of more than 70 other countries who 
        are working together to share information and develop 
        operational capabilities to interdict shipments at sea, in the 
        air, and on land.
  <bullet> He initiated the effort resulting in the unanimous adoption 
        of U.N. Security Council Resolution 1540, which requires all 
        states to enact both legislation criminalizing proliferation 
        activities under their jurisdiction and effective export 
        controls to help protect the sensitive materials and 
        technologies on their territories.

    These efforts in effective multilateralism, coupled with the 
strengthening of our own counterproliferation capabilities, have 
produced concrete successes such as the unraveling of the A.Q. Khan 
network and the decision by Libya to abandon its nuclear, chemical, and 
long-range missile programs.
    Similarly, we must pursue approaches with respect to India that 
recognize the reality that it is a growing 21st century power, shares 
our democratic values, has substantial and growing energy needs, and 
has long possessed nuclear weapons outside the NPT. Status quo 
approaches have not acknowledged these pragmatic considerations, nor 
have they achieved the positive outcome of progressively integrating 
India into the international nuclear nonproliferation mainstream.
    We have begun consultations with our international partners; have 
conducted a number of introductory discussions with you, your 
colleagues, and your staff; and look forward to working further with 
you on the steps necessary to realize the benefits of the July Joint 
Statement.
    Thank you.

    The Chairman. Well, thank you very much, Secretary Joseph.
    Let me just suggest, for our first round of questioning, 
maybe 8 minutes. We have four distinguished witnesses on the 
second panel, and we'll want to question them. If there are 
compelling questions, we'll go beyond that time, as always.
    Let me start the questioning by noting, Secretary Joseph, 
that you've pointed out that we should not make the perfect the 
enemy of the good by piling on additional amendments and 
qualifications. And that may be sound advice. Yet, as I 
listened to your testimony, as well as what has been occurring 
in the world even since the meeting at the summit, I have noted 
that significant sanctioning of two Indian scientists occurred 
on September 23, 2004. Let me just ask, for a second: Is that 
correct?
    Mr. Joseph. I believe it was the previous year, sir.
    The Chairman. What was the reaction of the Government of 
India to those sanctions at that time? In other words, as these 
activities occur, whether they are Indian scientists or whether 
they are votes in the IAEA or the United Nations, these are 
events that occur in the world, outside of our relationship, 
which is tested. I'm eager for your feeling of this.
    I add, just anecdotally, reports that there are pressures 
on the Prime Minister from opposition party members in India, 
who feel that he has been too concessionary and that India's 
negotiations with the United States are going too far. It's not 
really clear how things are shaping up in their Parliament as 
this proceeds. You have suggested that until significant 
progress is made in meeting the requirements of the summit, you 
would not submit legislation to us. Yet, at the same time, we 
all acknowledge that amendments to our laws have to occur in 
order for this to be perfected.
    Now, there are so many moving parts of this, I'm finding it 
awfully hard to respond to questioners who have the sort of 
broad question, ``What do you think of all of this?'' You know, 
I think our overall thought is that it's a great idea, that 
India and the United States should be much closer. Furthermore, 
this is only a part, as you pointed out, of a large agreement 
that concerns defense and trade and various other items that 
are helpful. But, at the same time, the nonproliferation part 
is extremely important, for obvious reasons, including our 
negotiations in Iran now, the Six-Party Talks in North Korea, 
and general activity in the nonproliferation area.
    So, what are your guidelines for this? Is the idea, 
perhaps, that we just, sort of, stay in touch? In other words, 
you have certainly offered a lot of consultation, but I'm not 
certain that I perceive the action steps that you're looking 
for.
    Mr. Joseph. Well, Senator, you're quite right about the 
political dynamics in Delhi. I know they're both complex and 
crosscutting. And Under Secretary Burns can probably do a 
better job addressing that than I can.
    There are many moving parts--in Delhi, here in Washington, 
in our bilateral context, but also in the context of the 
Nuclear Suppliers Group and in other international fora that 
deal with nonproliferation. And we are trying to bring these 
activities together in such a way that we will move forward 
with the commitments that the President has made in the July 
statement, following the delivery of certain actions by India, 
including the presentation of a plan for the separation of 
military and civilian facilities that is both credible and 
defensible, from a nonproliferation perspective. And they're--
--
    The Chairman. And that's a very----
    Mr. Joseph [continuing]. Beginning----
    The Chairman [continuing]. Critical thing right there, 
isn't it? And how are they coming along on that?
    Mr. Joseph. Well, again, Nick was just in New Delhi and 
addressed that issue in the context of the bilateral Working 
Group, so I will let him address that. In terms of North Korea 
and Iran, if you would like, I can take that on now, or we----
    The Chairman. Yes.
    Mr. Joseph [continuing]. Can return to that.
    The Chairman. Go ahead.
    Mr. Joseph. It is my sense that the interactions that we've 
had with India since July have had a very positive effect on 
our efforts with regard to Iran, and both Nick and I have 
pointed out the positive move that India took at the IAEA board 
meeting in September to support the resolution of 
noncompliance. I think that's very significant, and I think it 
is attributable to the fact that the July statement, and the 
agreement that is embodied in that statement, is a very 
positive step for India. I think that they will benefit 
significantly from this arrangement. And they know it. But they 
also know that they have to become much better partners in 
nonproliferation. And, again, I think their action on Iran is 
indicative of the fact that they're moving in that direction, 
even though that wasn't formally part of the July agreement.
    In terms of North Korea, I don't think that the July 
arrangement, or the changes that are envisioned in that 
arrangement, will have any impact on North Korea. North Korea, 
of course, is different from India, in the sense that North 
Korea has violated the NPT. North Korea doesn't have a peaceful 
nuclear energy program. In fact, my understanding is that all 
aspects of its nuclear program are weapons related. We have, in 
the context of the Six-Party Talks that followed the July 
announcement, the round in September, achieved the commitment 
from North Korea to undertake complete denuclearization, to 
abandon all of its nuclear programs. And I think that is 
significant. It's still a long way before we achieve that 
commitment, but I think it's important that we've made that 
first step.
    The Chairman. Secretary, just following up, a moment, on 
the vote of the Security Council, I think we all agree that was 
very significant. But, as I understand, the Indians stated they 
voted that way because the resolution did not report Iran to 
the Security Council. Now, it's been, generally, the policy of 
our administration to report Iran to the Security Council. What 
happens when the day comes and that vote comes up? This is 
coupled with rumors that India is forging strategic 
relationships with Iran because of oil needs, energy needs. 
It's no secret that Indians, people from China, and people from 
the United States are all over the Middle East, all over 
Africa, pinning down the last acre now. What sort of feel do 
you have for continuing fealty to the prospect of the two of us 
staying together?
    Mr. Joseph. Senator, I think that goes to your observation 
about the complexity of the political dynamics in India. And 
there are many crosscutting pressures, as there are elsewhere.
    In terms of the vote that was taken in Vienna in September 
at the Board of Governors meeting, it is our view that that 
vote requires a report to the Security Council. The issue is: 
When will that report be made, and what will be the nature of 
that report? And I think those questions will only be answered 
in the context of Iran's activities.
    The Chairman. Thank you.
    Senator----
    Mr. Burns. Mr. Chairman, if I----
    The Chairman. Yes, go ahead.
    Mr. Burns [continuing]. If I could, with your permission, I 
just wanted to add to what Under Secretary Joseph said. The 
Indian Government has made it clear to us they do not wish Iran 
to become a nuclear weapons power. They do not wish Iran to 
have the capability to enrich or reprocess. And the Indian 
Government joined us--after a lot of discussion and thought in 
Delhi--they joined us in this vote on September 23. And so, we 
think that they've given a fairly clear answer as to----
    The Chairman. That's a very----
    Mr. Burns [continuing]. As to where they stand.
    The Chairman [continuing]. Declaration.
    Mr. Burns. If I could also say--you asked a question about 
sequencing--and, very briefly, after July 18 the big dilemma we 
had with the Indians was: How do we implement this agreement, 
because there are corresponding actions on both sides? And we 
said that we would introduce the idea into the Nuclear 
Suppliers Group, that we would help to make India a part of 
both ITER and Generation IV, but that they had an obligation, 
too, a series of them, and the most critical was the separation 
of the civil and military nuclear programs. They are simply not 
in a position yet to give us a plan. And until they do, we 
think it's best to hold off asking Congress to act. I've told 
the Indians that once they have a plan that's credible and 
that's transparent, we would want to share that plan with the 
Congress, with Members and staffs, so that you could look at it 
before we ask you to take action. They understand that, and 
they know that's going to be part of this arrangement.
    The Chairman. Thank you.
    Senator Biden.
    Senator Biden. Thank you, Mr. Chairman.
    Fellows, this is a gamble, under any circumstance. To try 
to square the circle to say that the action being proposed with 
regard to India is somehow not fundamentally inconsistent with 
the NPT is, I think, impossible to do. But there is the art of 
the practical, and the strategic benefits that could flow from 
this relationship might trump the problem of having to argue 
that somehow this fits our nonproliferation policy.
    One of the great benefits of having men of your caliber 
here, and the witness list that's to follow, is that, although 
this forum doesn't lend itself to it, what I would like to do 
is sit you all in the room at one time and have an open 
discussion among all of you, because I have such regard for 
each of you, in terms of your background, intellect, and 
experience.
    This is a way of apologizing ahead of time to Ash Carter. I 
want to ask you a question from the end of his testimony, 
because you're not going to be here, in all probability, to 
hear his testimony, although I'm sure you will read his 
statement. And I think he puts it, as he always does, extremely 
well. He goes through, in the first five pages of his 
testimony, laying out and acknowledging all the potential 
benefits that could flow from this new and emerging 
relationship, and he says, ``The list above is a very 
substantial, even breathtaking, set of potential benefits to 
the United States of a strategic partnership with India.'' Then 
he asks what I think is a $64 question, ``How realistic is 
it?''
    So, it's one thing to take an action which I think is 
totally inconsistent with what we've had in place as a 
rationale to keep other countries from going nuclear, the NPT, 
but it may be worth the risk if the benefits are realistic. 
And, again, asking for anticipatory absolution here, going on 
to read, in one of the concluding paragraphs, Ash says, ``Most 
of the items on the list are also hypothetical and lie in the 
future that neither side can predict. This is certainly the 
case with regard to China counterweight and Pakistan 
contingency items. Other items on the list, like Iran's nuclear 
program, will unfold sooner.''
    Then, going to the end, he says, ``India, as befits a great 
nation on its way to global leadership, will have its own 
opinions about this list. Some American proponents of the India 
deal--have compared it to Nixon's opening to China, a bold move 
based on a firm foundation of mutual interest, but more a leap 
of trust than a shrewd bargain. Mao and Nixon, however, had a 
clear and present common enemy, the Soviet Union, not a 
hypothetical set of possible future opponents. But the real 
difference between the Nixon-Kissinger deal and the Indian deal 
is that India, unlike Mao's China, is a democracy. No 
government in Delhi can turn decades of Indian policy on a 
dime, or commit to a broad set of actions in support of United 
States interests. Only a profound and probably slow change in 
the views of India's elites can do this. India's bureaucracies 
and diplomats are fabled for their stubborn adherence to the 
independent position regarding the world order, economic 
development, and nuclear security.''
    I have a lot of questions my staff prepared, but nothing, 
it seems to me, says it as succinctly and lays out the choice 
as starkly as what I've just read.
    So, how confident are you regarding the benefits of this 
bargain between two unorderly democracies like ours and theirs? 
Some have suggested, as did the author of the paper I just read 
from, that the India deal just may be premature. What you guys 
are saying is, you're not coming to us yet, until you see what 
happens in the first step. Are they going to make these kinds 
of front-end changes? And that's going to be an indication of 
what's likely to come.
    This is not, as I said, a slam-dunk. This is a difficult 
decision. You've bet on the future here. What are some of the 
broader indicators that make you think that that bet is a sound 
bet? That's my question.
    Mr. Burns. Senator, thank you. I had a similar experience. 
I was riding over here. I took a sneak preview at Ash's 
testimony--my friend Ash's testimony--and I, too, noticed the 
back part of it and was intrigued by how he formulated the--one 
of the strategic benefits.
    I'll take a stab at answering your question in the 
following manner. We're very different countries. And there's 
no question, if you look back all the way to 1947, when 
President Truman and Prime Minister Nehru began to think about 
our United States-India relationship. It's never--this 
relationship has never achieved its promise. I think we have to 
give credit to President Clinton for having made the first 
strategic step a decade ago to try to reach out to India and to 
define a strategic relationship. President Bush, I would say, 
has doubled that effort.
    And here is how we view the relationship. It is going to 
take some time before we develop the kind of strategic 
partnership with India that we have, say, with Australia or the 
United Kingdom or France or Germany or different countries. But 
India increasingly sees its role in the world as a global 
country. And we find that on the issues that are important to 
us, the transnational problems--whether it's global climate 
change or trafficking in women and children, or terrorism, or 
WMD, international crime, democracy promotion--we tend to think 
alike with the Indians, and we tend to adopt the same 
strategies and positions on those transnational problems. On 
the--that's the first.
    Second, both of us are Asia-Pacific powers. Both of us have 
a stake in the stability of Asia in the next 25 or 50 years. 
Both of us are democratic. Both want to see democratic 
countries protected. And we want to see a regional architecture 
in APEC, in the ASEAN Regional Forum, develop that would 
solidify security and peace in Asia. India is part of the 
strategic balance in Asia.
    Third, I think one of the great changes I've seen since 
I've come back to Washington is the new emphasis on South 
Asia--the American national interest in stability in 
Afghanistan; a stable, productive relationship with Pakistan; 
to see Pakistan and India reduce their problems; and to see, in 
Nepal, Burma, and Bangladesh, hopefully, the growth of 
democracy. India is fundamental to all of those issues that are 
central to the United States. And I've spoken of democracy 
promotion, and both of us have spoken about India's principal 
position on Iran. And India is in a position to have some 
influence on Iran, to dissuade it from seeking a nuclear path.
    So, for all those reasons, we think there are the 
beginnings of a strategic partnership. I don't want to oversell 
this and equate it to what we've got with our NATO allies. But 
I would say this, as a career diplomat, there is the 
possibility that, in 5 to 10 or 15 years, we might count India 
among the four or five most important countries to the United 
States in the world, if we can develop this partnership. The 
civil nuclear initiative is a big part of this, both 
psychologically, in separating ourselves from the past 50 
years, and also in terms of responding to both of our interests 
in nonproliferation.
    Senator Biden. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. Gentlemen, welcome.
    Secretary Burns, you've just mentioned Pakistan, and I'd be 
interested in you developing that a little more as to what 
consequences there might be regarding the Pakistani nuclear 
weapons program if this deal is consummated, as well as how 
might this affect the Pakistani-Indian relationship?
    Mr. Burns. Thank you, Senator.
    Well, Senator, as you know, we have a critically important 
relationship with Pakistan on counterterrorism, and we find 
Pakistan to be a good partner to the United States. But we are 
not contemplating offering the same type of civil nuclear 
energy cooperation to Pakistan as we are now hoping to offer to 
India, with congressional consent, for a variety of reasons. 
And I'd be happy to go into those.
    Second, it's our view that, as Secretary Rice has pointed 
out, we need to dehyphenate--it's not a very elegant phrase--
dehyphenate our policy in South Asia. For a long, long time, 
successive American administrations have looked at South Asia 
as a zero-sum region, where we try to balance everything we do 
with Pakistan and what we do with India. And we, frankly, think 
it's time to separate the two and to develop a full-bore 
successful relationship with Pakistan, based, of course, on the 
critical imperative of effective counterterrorism, but also to 
develop with India this wide strategic framework of joint 
initiatives that we have described this afternoon. And we think 
that we can have a good relationship with both countries. And 
this civil nuclear energy deal should not have a negative 
impact on our relations with Pakistan.
    Finally, I would say, in answer to your question, the 
United States does not see itself as a mediator between 
Pakistan and India. Kashmir is a fairly complex problem. There 
has been an attempt by Prime Minister Singh and President 
Musharraf over the last year or so to meet more often. You can 
see, in the wake of the earthquake, they decided to open the 
line of control in many different places on November 7. The 
Indians have extended earthquake assistance to Pakistan. This 
is very slow, a very slow rapprochement, and there are a 
considerable number of problems ahead, but they're off to a 
good start. And if we can help that process, we will. And we're 
trying to do that, behind the scenes. But the civil nuclear 
energy deal should not upset that process, of India-Pakistan 
relations, and certainly should not have a negative effect on 
the United States-Pakistan relationship, in our judgment.
    Senator Hagel. Have we consulted with the Pakistani 
Government on this?
    Mr. Burns. We have--yes, we have described--after July 18, 
we sat with the Pakistani Government, described the outlines of 
what we're trying to do with the Indians in all the fields that 
I enumerated, not just the civil nuclear field. And I know that 
Secretary Rice had a chance to talk to President Musharraf 
about it in September when they were together at the United 
Nations. And I wouldn't be a good diplomat if I described the 
Pakistani reaction, but, except to say, very businesslike. 
They're focused on the United States-Pakistan relationship. 
They're not trying to judge us, at least in our conversations, 
with what we're doing with the Indians.
    Senator Hagel. So, they do not object to this.
    Mr. Burns. Well, I don't want to speak for them. I can't 
say--I can't say that there haven't been Pakistani officials 
who have--not President Musharraf, but others--who have, maybe, 
been unhappy about this. I know that Pakistani officials have 
said, from time to time since July 18, ``We'd like to have the 
same kind of nuclear arrangement with the United States that 
India has.'' And I think you've heard today, and in previous 
statements, we've said that this is a unique arrangement; 
unique to India.
    Senator Hagel. What about the 44 members of the Nuclear 
Suppliers Group? We've consulted with them. What reactions have 
we received?
    Mr. Joseph. We did begin the consultations with the members 
of the Nuclear Suppliers Group last month.
    Senator Biden. You must have said something wrong. 
[Laughter.]
    Thank you all very much.
    Senator Hagel. Well, this is a----
    [Laughter.]
    Senator Hagel [continuing]. This will give you more of an 
opportunity----
    Mr. Joseph. Yeah.
    Senator Hagel [continuing]. To think clearly. [Laughter.]
    Please continue, Secretary Joseph.
    Mr. Joseph. The reactions were mixed, as I mentioned in my 
introductory comments. Some states did express significant 
reservations about moving forward, in the sense that they 
believe that there will be severe risks to the NPT regime. I 
mentioned two: Sweden and Switzerland. Other states were very 
supportive. The United Kingdom was supportive, France was 
supportive. Both of those governments have made very positive 
comments about the need to move forward with India in this 
context.
    I think the majority of those who spoke raised questions, 
but did not express support or opposition; rather, they made 
very clear that they were taking a wait-and-see approach to 
this. And one of the main factors that will affect their 
judgment, their assessment, is the question of the separation 
of civilian and military facilities and the application of IAEA 
safeguards on the civilian side, as well as how India deals 
with the commitment that it has made with regard to adherence 
to an Additional Protocol.
    So, like us, those countries are in a waiting posture to 
see what the Indian plan is, and, perhaps like us, they will 
wait until they begin to see the implementation of that plan.
    Senator Hagel. What was the reaction of other countries 
with major civil nuclear programs--Brazil, Japan, Germany?
    Mr. Joseph. Again, of the countries that you mentioned, it 
has been mixed. Japan, in the context of my discussion in the 
G-8, raised a number of significant questions and concerns 
about moving forward, but, at the same time, did not express 
support or opposition. I think they, like most of the others, 
are waiting to see what develops out from this.
    Other countries with large civilian nuclear 
infrastructures, of course, I've mentioned France and Russia 
has been very positive with regard to moving forward with India 
in the context of the July agreed framework. Also, Russia has 
been very clear to emphasize that they believe that, in the 
Nuclear Suppliers Group context, as well as in others, we 
should treat India as a unique case that provides the best 
protection for moving forward without damage to the NPT regime.
    Senator Hagel. May I follow up on a question that Senator 
Biden had asked at the beginning in his opening comments? That 
is regarding the precedent that we would set with other 
countries that could be picked up, countries like Russia or 
China, in relationship to Iran, that they would use such a 
precedent to make their own side deals with Iran, something 
obviously we've thought through. And how do we respond to that?
    Mr. Burns. I would just--maybe both of us could take a stab 
at this, Senator.
    Senator Hagel. Sure.
    Mr. Burns. I know, from--we can't speak for the Russian 
Government, obviously--but I know from our discussions with the 
Russian Government pertaining to Iran, the Russians don't want 
to see Iran enrich and reprocess, and have stated publicly they 
do not wish Iran to acquire nuclear weapons. So, I wouldn't 
think that Russia would be in a position to make the argument 
that somehow what the United States is doing with India on the 
civil nuclear side would give Russia a license to somehow be 
softer on the big issue that we face with Iran--that is, 
denying it a nuclear weapons capability.
    Senator Hagel. North Korea, I would include in that, by the 
way, as well. So--go ahead, I'm sorry.
    Secretary Joseph.
    Mr. Joseph. With regard to Russian provision of technology 
to Iran, of course they're already building the Bushehr power 
reactor in Iran and they're very interested in building 
additional power reactors in Iran. We believe that we have, 
working with the Russians and with others, made the case that 
the sensitive technologies, particularly enrichment and 
reprocessing, should not be provided to Iran. Iran should 
resuspend its conversion activities and not move forward with 
enrichment.
    But going to your fundamental question, Senator, I think 
that there is a risk. There is a risk that, as we move forward 
with this type of arrangement with India, other countries 
could, very cynically, use it as an excuse to provide 
technologies that would present a proliferation risk. We need 
to deal with those on a case-by-case basis. We need, I think, 
to prevail in our argument that India is a unique case. We are 
there with Russia, but we need to make that argument with 
others, and I think we can sustain that argument, because India 
does have unique energy requirements. India has a nuclear 
nonproliferation record that is quite solid. And the other 
countries that I think would be on the list that you or I or 
others would develop as particularly risky do not have that 
same nonproliferation record.
    Senator Hagel. Thank you.
    Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman. Welcome, 
gentlemen.
    How much domestic energy does India have now, either 
through coal, gas, oil, hydro?
    Mr. Burns. Senator, India is a country with enormous energy 
needs. It cannot produce all the energy it needs. And, as you 
know, it's got a rapidly expanding population. Before you came 
in, I think, I mentioned, at the start of my testimony, it will 
soon overtake China as the world's most populous nation. And 
one of the major----
    Senator Chafee. They don't have any domestic energy sources 
to speak of, anything significant?
    Mr. Burns. No, and that's one of the major issues in Indian 
foreign policy. They do have some domestic sources of energy, 
of course, but they need to look outside their country for a 
lot of their future energy needs. And that's--they're focused 
on developing their civil nuclear sector--in part, for that 
reason.
    Mr. Joseph. Senator, I think they do have a significant 
amount of hydro energy. They also have, of course, a lot of 
coal. But the coal is not environmentally friendly, in the 
sense that it's the dirtier type of coal. That is one reason, 
quite frankly, that we believe nuclear energy is an attractive 
option for India.
    Senator Chafee. And, presently, they have 14 reactors that 
generate 2,500 megawatts of power, and, if this agreement goes 
through, anticipate increasing that tenfold, to 20,000 
megawatts over 10 to 15 years. So, for the sake of argument, if 
the agreement does not occur, where would that gap be made up, 
your best guess, I guess would be my question?
    Mr. Burns. Our best guess is that India would have to go in 
search of foreign oil and gas contracts. That would be one of 
their first initiatives. As you know, they've--there have been 
some discussions between Iran and India about a future gas and 
oil contract. They have not yet made an agreement. Our--it is 
our hope that they will not make an agreement with Iran. Of 
course, it's up to India to decide this, but that would be our 
hope. And part of the rationale here, for this particular 
initiative by the United States, is to help India cope with its 
future energy needs.
    Senator Chafee. And, again, for the sake of argument, if 
they were to contract with Iran, how would they get that 
supply? Pipelines or shipping?
    Mr. Burns. I'm not an expert on the Iran--a prospective--or 
a hypothetical, I should say, Iran-India oil and gas deal, but 
I believe that they've talked about the development of a 
pipeline system. A lot of people think that would be 
prohibitively expensive.
    Senator Chafee. It would have to cross Afghanistan and 
Pakistan, obviously, or--now, Secretary Burns, you said you 
were in New Delhi 2 weeks ago, and the--from my information 
here, the Prime Minister received some domestic criticism from 
political parties on the left and right for voting with the 
United States on the Iran nuclear issue, the IAEA, on September 
24, and both the right-wing BJP and the leftist party, from the 
ruling Congress, rely on to maintain power accused the Prime 
Minister of buckling under to United States pressure. What's 
the--having just come back from there, what is the sentiment 
toward the United States there--on the street, if you will?
    Mr. Burns. Thank you very much. Well, the Prime Minister 
heads a very large coalition of--that contains a variety of 
different political parties inside the coalition. And some of 
those coalition partners have been critical of the Government 
for the July 18 agreement, as well as for the civil nuclear 
energy deal, which is one of its principal components. The 
Government, in Delhi, has defended the agreement, saying that 
it's in India's best national interest.
    In general, the United States is well thought of in India. 
If you look at the public opinion polls in India, itself, the 
United States consistently has high ratings, in terms of being 
perceived as a friend to India. This is a great change from 
general Indian--and, indeed, American attitudes toward India--
of the past, of the cold-war period. It's positive, it's very 
hopeful, but it's not universally shared. There is a Communist 
Party of India that doesn't think much of the United States. We 
traditionally have had very good relations with the dominant 
parties, both the Congress Party, which is the major party in 
the current coalition, as well as BJP, the leading opposition 
party, formerly the government party--the governing party. And 
we've made a great effort to try to expand our relationship 
with India to build on the broad measure of public support that 
the Indian Government--the Indian population gives to relations 
with us.
    Senator Chafee. How do you analyze, then, the Prime 
Minister's own political party criticizing him for this deal? 
What was their--what was their point? What--why criticize it?
    Mr. Burns. Senator, I'm not an expert in every facet of 
what's been said and what kind of barbs have been exchanged in 
Indian politics over the deal, but I do know that the Congress 
Party supports the deal, the Prime--the majority party, but 
that there are some other members of the coalition that do not. 
I thought that, based on my conversations in New Delhi 2 weeks 
ago, that this agreement, on balance, has strong support in 
India. The civil nuclear agreement, as well as the opening to 
the United States, that it's being hotly debated, because, for 
decades, India was the personification of a nonaligned country. 
We were perceived differently by the Indian public, and by 
politicians. And that is what's changing. And we see a 
confluence of interests between our two countries, and we see 
now the opportunity to have the kind of strategic political 
relationship that was just not possible 20 or 30 or 40 years 
ago between our countries. So, it will be controversial in some 
parts of India. It's controversial in some parts of the United 
States. But we think it's--on balance, this is a good deal for 
the United States to pursue this civil nuclear energy 
agreement.
    Senator Chafee. Would there be politicians in New Delhi 
that would argue they draw--they get the energy from Iran?
    Mr. Burns. I met with two groups of Parliamentarians when I 
was in Delhi. Large groups. And I--Secretary Rice and I met 
with another group of Parliamentarians last week, a visiting 
group from India. And they represented, in all three of these 
engagements, all the different political parties--I think, with 
the exception of the Communist Party--in the Indian spectrum. 
And, for the most part, what I heard--and, I know, as Secretary 
Rice heard last week--was strong support from these Indian--
various Indian political parties for a strategic engagement 
with the United States, for a closer relationship, and for 
civil nuclear energy cooperation. So, it's not universal, but 
it's fairly broad--broad-based.
    Senator Chafee. It seems to me that if you are going to 
criticize the deal, the only option is, as you said earlier, 
that's where the energy would have to come from.
    Mr. Burns. Yeah.
    Senator Chafee. Following up on Senator Hagel's questioning 
about: You're not going to--and you said this in your prepared 
statement--``we do not plan to offer such cooperation to any 
other country,'' who might feel aggrieved in this around the 
world? Why--what other country might take exception to this 
favoritism?
    Mr. Joseph. The most likely candidate on that list, of 
course, would be Pakistan. It's only India, Pakistan, and 
Israel that have not signed the NPT. Israel has not expressed 
any desire to have this same sort of cooperation. And that is, 
I think, directly attributable to the fact that Israel doesn't 
have the same sort of energy requirements that India does.
    Senator Chafee. Great. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Let me ask just one final question on my part. How will 
this civil nuclear agreement impact India-Pakistan nuclear 
confidence-building? For example, how might increased 
transparency on the Indian civilian nuclear facilities impact 
on Pakistani policies regarding its nuclear arsenal?
    Mr. Burns. Senator, we believe that the increased 
transparency, the opening up of India's civil nuclear program 
for the first time in 30 years, to international inspection and 
supervision and oversight is going to give confidence to the 
Pakistani Government. And should. And so, while it's not the 
major factor in the relationship between Pakistan and India, it 
is a--it is an important one. And we hope that it will 
contribute to what we would like to see, and that is a gradual 
improvement of relations between the two countries, both of 
them friends of the United States.
    The Chairman. Thank you.
    Senator Hagel, Senator Chafee, do you have additional 
questions?
    We thank both of you for very comprehensive testimony, and 
very thoughtful arguments. We look forward to many more visits 
with you, and we appreciate your coming today.
    Mr. Joseph. Thank you.
    Mr. Burns. Thank you very much.
    The Chairman. I would like to call now on our second panel 
of witnesses. As I mentioned earlier, they are the Honorable 
Ronald Lehman, the Honorable Ashton Carter, Mr. Henry Sokolski, 
and Mr. Michael Krepon.
    [Pause.]
    The Chairman. Gentlemen, we welcome all of you. As was 
indicated earlier, your statements will all be made a part of 
the record, so you need not ask for that to happen. And we will 
ask you to proceed in summaries, if you can, so that we will 
have ample time to hear the four statements, and proceed to our 
questioning.
    I will ask you to testify in the order that I introduced 
you, which, first of all, would be Ronald Lehman, Ashton 
Carter, Henry Sokolski, and then Michael Krepon.
    Very good to have you, again, Ron, before the committee. We 
would like for you to proceed with your testimony.

  STATEMENT OF HON. RONALD F. LEHMAN II, DIRECTOR, CENTER FOR 
     GLOBAL SECURITY RESEARCH, LAWRENCE LIVERMORE NATIONAL 
                   LABORATORY, LIVERMORE, CA

    Ambassador Lehman. Thank you very much, Mr. Chairman.
    Since I wear a number of hats, including my association 
with you, let me remind everyone I'm speaking only for myself, 
for whatever that's worth. And a lot of what I would have said 
has already been said. And a lot of what I want to say is about 
to be said. And it's late. So, let me try to go right to 
something of a net assessment that gives the thrust of my 
views.
    The Joint Statement is an historic milestone for 
nonproliferation that creates both great opportunities and 
great risk. It creates an opportunity to strengthen a nuclear 
nonproliferation regime that is suffering from its own internal 
weaknesses. These weaknesses include inadequate enforcement, 
the threat of breakout, and an inability to engage effectively 
nonparties to the Nuclear Non-Proliferation Treaty, which is a 
subset of the more general problem of reconciling the 
application of universal rules to what are often very different 
particular circumstances. Because the terms of the Joint 
Statement, however, also spotlight those weaknesses, 
mishandling of its implementation could have adverse 
consequences for the nonproliferation regime.
    Whether one could have negotiated a somewhat better deal 
is, I think, moot. The Joint Statement is in play, and we all 
have an obligation to ensure that our national security is 
enhanced as a result of the dynamic process now underway. 
Bringing India into a more comprehensive regime of 
nonproliferation and restraint could enhance our ability to 
reduce the dangers associated with weapons of mass destruction. 
India could do much to help within its borders, in South Asia, 
in other troubled regions, and globally. Congress can help 
ensure that this is a sufficiently ambitious agenda.
    If the basic approach contained in the Joint Statement 
collapses, however, we will not return to the status quo ante, 
United States-Indian cooperation will be set back, and the 
weaknesses in the existing regime would be exposed to even 
greater pressure. I would urge the Congress to focus on the 
dynamics of the process and the goals to be achieved as a 
result of the United States-India Joint Statement.
    Much that one might have detailed in the original package 
may be more successfully achieved by driving subsequent 
interactions in the right direction. This can only be done, I 
believe, if nonproliferation is a centerpiece of strategic 
engagement, rather than a tradeoff. It is best achieved by 
retaining a viable nuclear nonproliferation treaty at the core 
of a broader nonproliferation regime that uses more targeted 
embedded engagement to address the fundamental causes and 
conditions of proliferation. In short, widely shared goals 
should guide our actions, but implementation will fail if a 
one-size-fits-all mentality is applied rigidly to different 
circumstances.
    Relations between the United States and India have long 
been far worse than the objective conditions warrant. The 
reasons are too numerous to list. Much has changed, however. 
Strong bipartisan support exists for engaging the emerging 
India. I believe it is the right approach. But we should not 
let our euphoria about the potential relationship cause us to 
undermine our most effective nonproliferation tools. We should 
not assume that great economic and strategic gains would result 
simply from civilian nuclear cooperation. Rather, we should 
fold our flexibility on civil nuclear cooperation into our 
efforts to work with India to strengthen the overall regime to 
counter weapons of mass destruction.
    Many United States and Indian concerns are addressed in the 
Joint Statement, but it's premature to suggest that they will 
be addressed successfully. What is underway is a phased 
process. Neither side will be certain of how much will be 
achieved for some time.
    Over the years, for example, various Indian interlocutors 
have floated the idea of separating civilian from nuclear 
facilities and applying safeguards to them. We have never known 
the scale of the separation or the quality of the safeguards, 
or I might add, the seriousness of the Indian commitment to 
this. If India is serious about nuclear power, then its 
infrastructure should be declared predominantly civilian, with 
permanent IAEA safeguards. A token step would be 
counterproductive.
    India has long had a formal position in favor of a fissile 
material cutoff. The Joint Statement reiterates that support, 
and goes further in trying to align India's responsibilities 
and benefits with those of other responsible states with 
advanced nuclear technology. The definition of ``responsible 
states with advanced nuclear technology'' is not clear, but 
examples might be those that are associated with the ITER 
fusion program and the Gen-IV advanced nuclear reactor 
programs. Nearly all already have de factor or de jure fissile 
material cutoffs, and the rest are committed to such cutoff.
    Because the prospects for a Fissile Material Cutoff Treaty 
seem so poor in the Conference on Disarmament, perhaps an 
interim multilateral approach could be put forth with such 
states with advanced nuclear technology, and other relevant 
states--in part, to enhance nuclear security; in part, as a 
fly-before-buy experiment that might lead ultimately to 
progress on an FMCT in the CD. If India were to join the rest 
of the advanced nuclear community in this regard, it would be a 
major contribution.
    Perhaps the greatest contribution that India could make 
nonproliferation outside its borders would be to end its 
guerrilla war against the Non-Proliferation Treaty and support 
the international community in its efforts to encourage and, as 
necessary, enforce compliance with obligations. The problem is 
that India has strategic and economic objectives in addition to 
whatever nonproliferation goals it may share with the United 
States. Whether it is nonaligned politics or it's strategic 
engagement of Iran, these can create serious problems.
    India cannot be expected to alter its most fundamental 
interests, but, in these areas, we may find a measure of New 
Delhi's actual commitment to real nonproliferation and global 
partnership.
    Within its own borders, the growing concern over nonstate 
and quasi-state actors places a premium on modern physical 
security, export controls, counterterrorism, implementation of 
U.N. Security Council Resolution 1540, and support for measures 
such as the Proliferation Security Initiative. These are areas 
in which the United States and India can work together and 
gauge each other's commitment by our synergy and transparency.
    Mr. Chairman, in summary, the Joint Statement creates 
opportunities to strengthen nonproliferation by engaging India 
and reducing some of the stresses on the Nuclear Non-
Proliferation Treaty. A failure by India to step up to its side 
of the bargain fully, and to continue to move in the direction 
of cooperation and restraint, however, could create dangers for 
an NPT-centric regime that is having difficulty because of 
noncompliance, weak enforcement, the spread of WMD capability 
into troubled regions, and the rise of dangerous nonstate or 
quasi-state actors.
    Ultimately, states will remain committed to 
nonproliferation, and members of the Non-Proliferation Treaty 
will remain within the regime, only if it serves their 
interest. Many support the NPT because they get civilian 
nuclear cooperation, but most support the NPT because it 
enhances their security. So long as the NPT serves their 
interests, the emergence of asymmetrical arrangements to deal 
with different circumstances is not only manageable, it is 
absolutely necessary.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Lehman follows:]

 Prepared Statement of Hon. Ronald F. Lehman II, Director, Center for 
   Global Security Research, Lawrence Livermore National Laboratory, 
                             Livermore, CA

    Mr. Chairman, members of the committee, I am pleased to accept your 
invitation to join with this distinguished committee--and with my good 
friends on this panel--to discuss the nonproliferation implications of 
the United States-India civilian nuclear cooperation called for in the 
July 18, 2005, Joint Statement of President George W. Bush and Prime 
Minister Manmohan Singh. Over the years, I have appeared before this 
committee in various capacities, and, Mr. Chairman, I am pleased to 
cochair with Ash Carter your Policy Advisory Group on the future of the 
nonproliferation regime. Nevertheless, I would like to make clear that 
today I am speaking only for myself and the views I express here do not 
necessarily represent those of any administration, organization, or 
group with which I am or have been associated.
    The committee is well aware of the content of the United States-
India Joint Statement: In the context of the broader global partnership 
on the economy, energy and the environment, democracy and development, 
and high-technology and space reflected in the Joint Statement, India 
will receive the benefits of civil nuclear cooperation in exchange for 
enhanced nonproliferation commitments. More specifically, India has 
agreed to separate civilian and military nuclear facilities, place 
those civilian facilities under IAEA safeguards, and implement an IAEA 
Additional Protocol. India will continue its moratorium on nuclear 
weapons testing and work toward a multilateral Fissile Material Cutoff 
Treaty. India will help prevent the spread of enrichment and 
reprocessing technologies to states that do not have them and adhere to 
the Nuclear Suppliers Group (NSG) and Missile Technology Control Regime 
(MTCR) while legislating strong export controls.
    For its part, the United States Government will propose that 
Congress adjust United States law and that relevant international 
bodies adjust their regimes to permit full civilian nuclear energy 
cooperation with India. The United States will also consult with its 
partners on the inclusion of India in certain advanced nuclear energy 
research associated with both fission and fusion energy.
    Before I address the three specific questions the committee has 
asked about the Joint Statement, let me offer a short net assessment. 
The Joint Statement is an historic milestone for nonproliferation that 
creates both great opportunity and great risk. It creates an 
opportunity to strengthen a nuclear nonproliferation regime that is 
suffering from its own internal weaknesses such as inadequate 
enforcement, the threat of breakout once an advanced nuclear capability 
has been achieved, and an inability to engage effectively the 
nonparties to the NPT, Because the terms of the Joint Statement, 
however, also spotlight those weaknesses, mishandling of the 
implementation of its terms can have adverse consequences even when the 
best of intentions are involved. The elements of the package are not 
new, but the suddenness with which the particular mix of elements was 
put together has caught many key players at home and abroad by 
surprise. They need to take the time to think through their positions 
carefully as the governments of India and the United States flesh out 
their phased approach. The executive branch needs also to consult 
closely with the Congress, and within the executive branch, regional 
and functional experts need close, regular, and detailed coordination. 
All of this will serve to improve our ability to work with India and 
other governments to enhance our efforts against all weapons of mass 
destruction.
    Whether one could have negotiated a somewhat better deal is moot. 
The Joint Statement is in play, and we all have an obligation to ensure 
that our national security is enhanced as a result of the dynamic 
process now underway, especially our ability to prevent and counter the 
spread of weapons of mass destruction. If the basic approach contained 
in the Joint Statement collapses, we will not return to the status quo 
ante. United States-Indian cooperation will be set back, but also the 
weaknesses in the existing regime will be exposed to even greater 
pressure. Bringing India into a more comprehensive regime of 
nonproliferation and restraint, however, could significantly enhance 
our ability to reduce the dangers associated with weapons of mass 
destruction. Congress can help insure that this is a sufficiently 
ambitious agenda. India could do much to help within its borders, in 
South Asia, in other troubled regions, and globally.
    Yet India remains a symbol of a glaring challenge to the 
nonproliferation regime; namely reconciling universal principles with 
very different circumstances. Is the same verification system 
appropriate for both Sweden and Iran? Is a democratic India outside the 
NPT really to be considered more of a nuclear pariah than a despotic 
North Korea inside the Treaty? Measures to deal with specific concerns 
are often inappropriate to apply universally. Yet rules that can be 
applied universally are often too general to address specific concerns, 
sometimes creating an inability to enforce compliance or even encourage 
restraint. In many ways, progress in the NPT centered nonproliferation 
regime has been measured by the success or failure in tailoring 
measures to different circumstances. One sees this in the dealings 
North Korea, Iran, Iraq, Pakistan, Israel, and others over the last 
decade or more. It will remain true with India.
    If the process set in place by the Joint Statement were to continue 
in a positive direction, it could create a more sound, broad-based 
nonproliferation community with the tools necessary to deal with the 
different circumstances of the real world. It could further integrate 
our nonproliferation goals into our national strategy and those of 
others, permitting us to more effectively deal with the increasing 
availability of destructive technology in the global economy and the 
persistence of dangerous actors, both state and nonstate.
    I would urge the Congress to focus on the dynamics of the process 
and the goals to be achieved as a result of the United States-India 
Joint Statement rather than attempting to rearrange the pieces of the 
initial package. Much that one might have detailed in the original 
package may be more successfully achieved by driving subsequent 
interactions in the right direction. This can only be done, I believe, 
if nonproliferation is a centerpiece of strategic engagement rather 
than a tradeoff. It is best achieved by retaining a viable Nuclear Non-
Proliferation Treaty at the core of a broader nonproliferation regime 
that uses more targeted, embedded engagement to address the fundamental 
causes and conditions of proliferation. In short, widely shared goals 
should guide our actions, but implementation will fail if a ``one-size-
fits-all'' mentality is applied rigidly to different circumstances. Let 
me clarify what I mean by addressing the three questions you have 
asked.

    (1) If there is need to draw closer to India for strategic reasons, 
what are those reasons, and why does civil nuclear cooperation weigh so 
heavily among them?

    The NPT was designed to enhance the benefits for membership, but 
for India, a nonsignatory, restrictions on civilian nuclear cooperation 
are deeply resented in India because they are seen as punitive, 
discriminatory, and demeaning. The emotional quotient is high. Yes, 
India's nuclear power infrastructure has suffered from lack of access 
to outside technology and uranium shortages could become a major factor 
in India's nuclear power future, but that future still remains very 
uncertain. India's nuclear elite is divided on what it wants and why. 
One can imagine a major scale-up of India's nuclear power, but it is 
not clear private investment will be there. Even smaller public 
investment may be unwise if it continues the weaknesses of the current 
programs. Neuralgia over the nuclear issue is intense primarily because 
it triggers deeper seated resentments.
    Relations between the United States and India have long been far 
worse than the objective conditions warrant. The reasons are too 
numerous to list. Again, they are not primarily about nuclear 
cooperation. South Asia was a backwater of United States diplomacy 
during the cold war, and cooperation was made difficult by India's 
socialist orientation, nonaligned tactics that often tilted toward the 
Soviet Union, and a related testiness toward the West as a result of 
its colonial experience. In the United States, there were many ``Years 
of India,'' none of which seemed to last even that long. Indian 
nonproliferation policy was draped in grandiose disarmament rhetoric 
that provided moral top cover for the nuclear weapons program that gave 
its population much satisfaction. Thus, India has often been unwilling 
to take ``Yes'' for an answer. Long a leading advocate of a 
Comprehensive Test Ban, it backed away when rapid negotiations 
threatened options to demonstrate its nuclear prowess. One of the 
godfathers of the Fissile Material Cut-Off, India has been satisfied to 
see it buried in a moribund Conference on Disarmament. In short, India 
has serious security concerns, but its behavior is often driven by 
concerns about status.
    What has changed? Much. The end of the ``Permit Raj'' and the 
opening up of the Indian economy has emboldened a huge, highly educated 
middle class. The new demographics are also compelling. It is not just 
that India will have the world's largest population in 2030. It will be 
experiencing the so-called ``demographic dividend,'' as the falling 
fertility rates and improved health increase the ratio of workers to 
dependents in ways that have historically driven economic growth. A 
global, high technology Indian diaspora is now networked and returning 
skills and investments to India. India is proud of its information 
technology and seeks to do the same in biotechnology. And if messy 
domestic politics is a signature of democracy, then India is clearly a 
democracy. This too can provide a basis for a new relationship with an 
India that may be more able to look more self-confidently to its real 
interests and leave the politics of resentment behind.
    As an economic, cultural, and strategic partner, India could offer 
much in the years ahead, especially if adverse geostrategic 
developments in the Islamic world or Eurasia create economic or 
security dangers, but a grand strategic partnership is not inevitable. 
It needs to be groomed. Indian domestic and regional politics are 
volatile because of economic, class, and ethnic divisions. For all of 
its tradition of business and trade, South Asia remains a region in 
which the win-win often seems alien. Spoilers abound domestically and 
around the region. As Indian power and influence grows, both its 
ability to help and its ability to do harm will grow. Positive steps 
will be accompanied by negative steps and vice versa. Most Indians are 
proud of having tested nuclear weapons, but having made this 
demonstration, many Indians are now more willing to reach out and to 
show restraint. We will not always have overlapping interests, but we 
can achieve a relationship that is at least as good as the common 
interests we develop, something we have often failed to achieve in the 
past.
    Strong bipartisan support exists for engaging the emerging India, 
much of it overly optimistic about near-term possibilities and long-
term probabilities. Still, I believe it is the right approach, but we 
should not let our euphoria cause us to undermine our most effective 
nonproliferation tools. We should not assume that great economic and 
strategic gains that would not otherwise be possible would result 
simply from civilian nuclear cooperation. Rather we should fold our 
flexibility on civil nuclear cooperation into our efforts to work with 
India to strengthen the overall nonproliferation regime including 
improvements in strategic relationships and the international security 
architecture.

    (2) The July 18 Joint Statement addresses many long-standing Indian 
concerns about the NPT, the Nuclear Suppliers Group (NSG) and United 
States law, but what United States concerns about India's past and 
current nonproliferation policies and laws are addressed by the Joint 
Statement? Please enumerate these concerns and indicate specifcally how 
they are addressed in the Joint Statement.

    Many United States and Indian concerns are addressed in the Joint 
Statement, but it is premature to suggest that they will be addressed 
successfully. What is underway is a phased process. Neither side will 
be certain of how much will be achieved for some time. Over the years, 
various Indian interlocutors have floated the idea of separating 
civilian from nuclear facilities and applying safeguards to them. We 
have never known the scale of the separation or the quality of the 
safeguards. If India is serious about nuclear power, then its 
infrastructure should be declared predominantly civilian with permanent 
IAEA safeguards. To clarify the separation may take some time, and full 
implementation of IAEA safeguards could take years. A major shift to 
safeguard civilian activity would be a positive step worthy of 
considerable movement on the part of the United States and the 
international community. A token step would be counterproductive.
    India has long had a formal position in favor of a Fissile Material 
Cut-Off. The Joint Statement reiterates that support and goes further 
in trying to align India's responsibilities and benefits with those of 
other ``responsible state[s] with advanced nuclear technology.'' The 
definition of responsible states with advanced nuclear technology is 
not clear, but examples might be those that are associated with the 
ITER fusion program and the GEN IV advanced nuclear reactor programs, 
countries such as the United States, United Kingdom, Switzerland, South 
Korea, South Africa, Japan, France, Canada, Brazil, Argentina, China, 
and Russia. Nearly all already have de facto or de jure fissile 
material cutoffs, and the rest are committed to such a cutoff. Because 
the prospects for a FMCT seem so poor in the Conference on Disarmament, 
perhaps an interim multilateral approach could be put forth with such 
states with advanced nuclear technology and other relevant states, in 
part to enhance nuclear security and in part as a ``fly before buy'' 
experiment that might lead ultimately to progress on an FMCT in the CD. 
If India were to join the rest of the advanced nuclear community in 
this regard, it would be a major contribution.
    Perhaps the greatest contribution that India could make to 
nonproliferation outside its own borders would be to end its guerrilla 
war against the NPT and support the international community in its 
efforts to encourage and, as necessary, enforce compliance with 
obligations. India's stated long-term goals are compatible with those 
of the NPT, but India's insistence that the NPT is a discriminatory 
treaty that singles them out has resulted in a regular campaign to 
undermine support for the NPT. Certainly, it is not too much to expect 
of India that, in the context of renewed civil nuclear cooperation, the 
rhetoric against the treaty could be dispensed with. A polite agreement 
that we have some disagreements should be sufficient. For its part, the 
United States need not walk away from its view that ultimately we would 
like to see universal adherence to the NPT, but we have long ago 
stopped pressing India to join as if the conditions might be near at 
hand. Getting India to support adherence to treaties, including 
treaties they do not belong to, should also not be an issue of 
membership. The greater problem is that India has strategic and 
economic objectives in addition to whatever nonproliferation goals they 
may share with the United States. Whether it is NAM politics or its 
strategic engagement of Iran, these can create serious problems. India 
cannot be expected to alter its most fundamental interests, but in 
these areas, we may find a measure of New Delhi's actual commitment to 
nonproliferation and global partnership.
    Within its own borders, the growing concern over nonstate and 
quasi-state actors places a premium on modem physical security, export 
controls, counterterrorism, implementation of UNSC Resolution 1540, and 
support for measures such as the Proliferation Security Initiative 
(PSI). These are areas in which the United States and India can work 
together and gauge each other's commitment by our synergy. In recent 
years, official Indian policy has been increasingly positive in these 
areas, but the longer history has clouds. Confidence in effective 
implementation would be enhanced by more direct, bilateral engagement.

    (3) The policy adopted in the Joint Statement, if fully 
implemented, will require changes to international nonproliferation 
rules, rules that apply to nations other than India--in particular it 
is not clear how those changes would affect United States policy with 
respect to Iran and North Korea, as well as the nuclear export policies 
of Russia and China. How can the administration and Congress work to 
ensure that if rules are changed for India, those changes will not 
result in other proliferation challenges--and if such consequences are 
not avoidable, should these rules be changed?

    The nonproliferation rules have constantly been changing, becoming 
both more restrictive and less restrictive based upon changed 
circumstances. Perhaps I can illustrate this. In January 1992, at an 
historic summit of the United Nations Security Council, further 
proliferation was declared to be a threat to international security, 
strong words implying strong actions. These world leaders were 
encouraged in their strong statement by many historic developments. The 
cold war was over and United States-Russian cooperation was 
accelerating. Longstanding holdouts who had disparaged the NPT, such as 
France, China, Brazil, Argentina, and others, were now members. 
Historic arms control agreements were in place. The first gulf war had 
imposed on Saddam Hussein's regime an unprecedented, tailored UNSCOM 
inspection regime that ultimately revealed how badly we had 
underestimated the WMD capability in Iraq, both nuclear and biological. 
Just in time, we had learned how difficult it is to assess what really 
goes on in the global world of dual use technology. Enhanced 
nonproliferation initiatives were being expanded. On the Korean 
Peninsula, a North-South denuclearization agreement had been completed, 
and North Korea had finally concluded an IAEA safeguards agreement. The 
two Koreas were also negotiating a North-South bilateral inspection 
regime that would create a stronger NPT plus regime in that troubled 
region. Going beyond the Joint Verification Experiments and the 
laboratory-to-laboratory exchanges, the Nunn-Lugar programs were 
expanding the frontiers of engagement and transparency. Both the 
international norms and the means to engage concretely and in detail on 
their behalf were being enhanced with more hands-on flexibility.
    No sooner had the Security Council Summit spoken, than the 
remaining challenges became clear. Talks between the two Koreas on 
bilateral inspections stalled. Then implementation of the North-South 
denuclearization agreement under which both Koreas agreed to give up 
both reprocessing and enrichment finally collapsed when North Korea was 
revealed to have a covert reprocessing plant. When Pyongyang refused to 
permit an IAEA special inspection and announced it would withdraw from 
the NPT, the international community could not agree that this was a 
matter for the Security Council. Instead, the world turned to the 
United States to solve the problem, with great pressure applied on the 
United States to use carrots rather than sticks. However vital, 
nonproliferation began to loose its urgency. To buy time, an Agreed 
Framework was negotiated with North Korea under which new nuclear 
reactors would be provided Pyongyang as part of a process for resolving 
outstanding issues. Russians complained that the Agreed Framework 
subsidized a noncompliant North Korea even though the United States had 
opposed Russian sales of similar reactors when Pyongyang was thought to 
be compliant. Russia cited the Agreed Framework in rejecting United 
States opposition to reactor sales to Iran, which was then accepting 
IAEA inspections. And of course many Indians noted that reactors that 
were denied India, a democracy that was not party to the NPT, were 
being supplied to a North Korea in open violation of the NPT and still 
threatening to complete its withdrawal from the treaty. Whatever the 
merit of such protestations, they remind us that the difficult cases 
and changed circumstances have resulted in modifications to our basic 
approaches in the past, not always with good results. Sometimes, we 
bowed to the inevitable. We once had very tight limits on computer 
exports, but long ago we decontrolled far more capable machines because 
of foreign availability. Sometimes, we have been able to expand 
restraint. Because of the close association of enrichment and 
reprocessing with nuclear weapons potential, the United States and 
others have pressed for a further narrowing of the access of additional 
states to those technologies. Under the terms of the Joint Statement, 
India has agreed to join in this selective approach as it undertakes 
not to transfer enrichment and reprocessing technologies to those who 
don't have them and to support international efforts to limit their 
spread.
    Once again, we are faced with the challenges of achieving our basic 
goals under different circumstances. Common rules and criteria can be 
useful, but they can also be self limiting and counterproductive if 
they prevent us from developing different rules for different 
circumstances to promote the same goal. Of course, we need to keep in 
mind the real measures of merit. Too often we measure nonproliferation 
only by the number of benign and compliant states that have adhered to 
the treaty rather than by assessing the real state of proliferation 
capability and intent in a world in which much more potential is now 
latent.
    Mr. Chairman. In summary, the Joint Statement creates opportunities 
to strengthen nonproliferation by engaging India and reducing some of 
the stresses on the NPT that result from India's pariah status on 
civilian nuclear cooperation. A failure by India to step up to its side 
of the bargain fully and to continue to move in the direction of 
cooperation and restraint, however, could create dangers for an NPT-
centric regime that is having difficulty because of noncompliance, weak 
enforcement, the spread of WMD capability into troubled regions, and 
the rise of dangerous nonstate or quasi-state actors. Ultimately, 
states will remain committed to nonproliferation, and members of the 
NPT will remain within the regime, only if it serves their interest. 
Many support the NPT because they get civilian nuclear cooperation, but 
most support the NPT because it enhances their security. So long as the 
NPT serves their interests, the emergence of asymmetric arrangements to 
deal with different circumstances is manageable and necessary. 
Unfortunately, such arrangements can serve as a pretext for withdrawal 
or nonsupport when the treaty itself no longer serves the interests of 
specific parties. To strengthen the NPT, we need to enforce compliance 
and concentrate on enhancing its value to its members rather than 
focusing on punishment of those who have not yet adhered, all of which 
are nations with which we have friendly, if sometimes difficult, 
relations.

    The Chairman. Thank you very much, Mr. Lehman. We really 
appreciate, once again, your contribution today.
    You mentioned your association with me. Let me explain that 
you and our next testifier, Ash Carter, have been a part of 
this Policy Advisory Group since the time of the Indian Summit, 
and really before. These issues of the Non-Proliferation 
Conference that occurred this year, quite outside the Indian 
agreement, were extremely important in this area. And Senator 
Biden has mentioned his desire for all of us to sit around the 
table for a while. I would simply indicate, we've been sitting 
around the table, and we will be sitting around some more, 
because all of us need the education that comes from the 
expertise of people who have been there for a long time in 
public policy, and you have been.
    With that, I would like to recognize Ash Carter for his 
testimony.

  STATEMENT OF HON. ASHTON B. CARTER, CODIRECTOR, PREVENTIVE 
 DEFENSE PROJECT, BELFER CENTER FOR SCIENCE AND INTERNATIONAL 
           AFFAIRS, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Mr. Carter. Thank you, Mr. Chairman. And it is a privilege 
for me to be here and also to serve you on the Policy Advisory 
Group.
    And I'll just say the same thing Ron Lehman, my friend and 
cochair of that group, said already, which is that though the 
PAG is working on this problem, I am speaking now on my own 
behalf, my own analysis, and not for your advisory group, as a 
whole. And, moreover, that advisory group has been focusing on 
the nuclear aspects of the deal, and I'd like to paint on a 
wider canvas, if I may, and emphasize the need to look at the 
India deal through a wide lens, because most of the discussion 
and controversy associated with the India deal has focused on 
its nuclear aspects. And since preventing nuclear war and 
nuclear terrorism is, I believe--and I know you believe, Mr. 
Chairman, from all you've done for that cause--is the single 
highest priority for American national security policy, now and 
as far into the future as I can see. I have some sympathy with 
this emphasis, but I don't believe this deal can be assessed 
properly within this narrow frame. In fact, when viewed as a 
nuclear-only deal, it's a bad deal for the United States.
    Washington recognized Delhi's nuclear status in return for, 
I would say, little in the way of additional restraints on 
India's nuclear arsenal, or additional help with combating 
nuclear proliferation and terrorism, or at least not additional 
help that India wasn't already committed, or inclined, to give, 
and at appreciable--not grave--but appreciable likely cost to 
our nuclear nonproliferation objectives in other critical 
regions. But it seems clear to me that President Bush did not 
view the India deal through a nuclear-only lens, and neither 
should we.
    The United States, in this view, gave the Indians what 
they've craved for 30 years, which is nuclear recognition in 
return for a strategic partnership between Washington and 
Delhi. Washington gave, on the nuclear front, to get something 
on the nonnuclear front.
    I agree strongly with the administration that a strategic 
partnership with India is in the deep and long-term United 
States security interest. A nuclear-recognition quid for a 
strategic-partnership quo is, therefore, a reasonable framework 
for an India deal. However, as a diplomatic transaction, the 
India deal is quite uneven. First of all, a United States-
Indian strategic partnership would seem to be in India's 
interest, as well as ours. So, why do we have to give them 
something for it? Second, the deal is uneven in its specifics. 
What the United States gives is spelled out quite clearly, but 
what India gives in return is vaguer. And, third, the deal is 
uneven in timing. We gave something big up front, and what we 
stand to get lies further out in the future.
    Should Congress reject the India deal as too uneven? I 
would recommend, instead, trying to improve the diplomacy to 
rebalance the deal. There are two ways this can be done. The 
United States can give less, or it can expect more. My 
statement takes the second approach: Aiming to define a set of 
expectations for specific benefits to the United States from a 
strategic partnership with India.
    It's premature, I would say, to judge whether the 
expectations that I will describe below, and which were 
apparently foreseen by the United States side, are shared by 
India and will, in fact, materialize. And the deal, itself, 
therefore, was premature. And the risk with the poorly prepared 
diplomatic initiative is that disenchantment will set in on 
both sides. That's the risk. But the deal is now an 
accomplished fact, and I think that we and the Indians must do 
our best to build upon it.
    Let me say what India got and then, very briefly, what we 
might hope to get in return.
    India obtained de facto recognition of its nuclear weapons 
status. The United States will behave, and urge others to 
behave, as if India were a nuclear weapons state under the NPT. 
We won't deny it most nuclear technology or commerce, we won't 
require it to put all of its nuclear facilities under IAEA 
safeguards, only those that it declares to be civil.
    Beyond these technicalities, nuclear recognition confers an 
enormous political benefit on India. In effect, it allows India 
to transcend the nuclear box that has for so long defined its 
place in the international order, jettison at last its outdated 
nonaligned movement stances and rhetoric, and occupy a more 
normal and modern place in the diplomatic world. Proponents and 
critics of the deal, alike, agree that this is huge.
    Some other supposed benefits of the deal don't survive 
close scrutiny, and one is energy security, Senator Chafee, an 
issue you raised, which is terribly important to both India and 
the United States. And we want India's huge population, as 
Under Secretary Burns emphasized, to satisfy its energy needs 
without contributing further to the problems of dependence on 
Middle East oil, environmental issues, global warming, and so 
forth. But the arithmetic does not support the case that 
nuclear power will spell the difference for India, though it 
can, and should, play a role.
    For the foreseeable future, electricity generation in India 
will be dominated by coal-burning. That's just a fact. Burning 
coal more cheaply and more cleanly would do more than any 
conceivable expansion of nuclear power to aid India's economy 
and the environment. And nuclear power does nothing to address 
the principal Indian oil-consuming sector, which is cars and 
trucks, since these don't run off the electrical grid, and 
won't for a long time. Moreover, the type of nuclear assistance 
the United States is best positioned to provide, which is 
light-water reactors, is at odds with India's vision of a civil 
nuclear power program based on breeders.
    It's also said that the deal will require India to improve 
its laws and procedures for controlling exports or diversions 
of sensitive nuclear technology, preventing an Indian A.Q. 
Khan, but, to my knowledge, India has a good record of 
controlling nuclear exports, though not always ballistic 
missile exports. India is already bound by the United States-
sponsored U.N. Security Council Resolution 1540, which requires 
such good conduct. So, on paper at least, Delhi has sold the 
same horse a second time in this deal.
    In any event, the United States intends to justify the 
deal's nuclear recognition to other nations around the world on 
the grounds that India's nuclear proliferation behavior is 
already exemplary. So, it will be difficult to argue this point 
both ways at the same time.
    Let me now say what Washington should expect to get from 
this deal, and I'll simply list these items. My testimony 
spells them out more--at greater length.
    First, immediate diplomatic support to curb Iran's nuclear 
program. That's been discussed by others.
    Second, potential counterweight to China. Let me pause on 
this one just a moment. No one wants to see China and the 
United States fall into strategic competition, but neither can 
anyone rule this out. The evolution of United States-China 
relations will depend on the attitudes of China's younger 
generation and new leaders, on Chinese and United States 
policies, and on unpredictable events, like a crisis over 
Taiwan. It is reasonable for the United States to hedge against 
a downturn in relations with China by improving its relations 
with India; and for India to do the same. But, for now, India 
is intent on improving its relations in trade with China, not 
antagonizing China. Neither government will wish to talk 
publicly, let alone take actions now, pursuant to this shared, 
but hypothetical and future, common interest. But it's there. 
It's on the list.
    The third is assistance in a Pakistan contingency. Again, I 
won't elaborate. Governments won't be talking about that, I 
would imagine, but it is an important item.
    Fourth, joint action of the Indian military with the United 
States military in operations outside of the United Nations 
context.
    Fifth, military access and basing. Not now. Sometime in the 
future.
    Sixth, preferential treatment for United States industry in 
India's civil nuclear expansion.
    Seventh, preferential access for United States defense 
industry to the Indian defense market.
    And, eighth, additional contributions to nuclear 
nonproliferation from India's nuclear program, of a kind that 
I'm sure some of my colleagues will spell out here and Robert 
Einhorn has spelled out.
    Let me close by asking: Will we actually get these benefits 
of the India deal? The list above is very substantial, even 
breathtaking. And the question is: How realistic is it?
    Some of the items on this list reflect joint common 
interests of India and the United States. The United States 
might, therefore, have had many of these benefits without 
having to pay the nonproliferation costs associated with 
nuclear recognition for India. Most of the items on the list 
are also hypothetical and lie in a future that neither side can 
predict. This is certainly the case with respect to the China 
counterweight and Pakistan contingency items. Other items on 
the list, like Iran's nuclear program, will unfold sooner.
    The United States can certainly hope that India will behave 
as a true strategic partner in the future across all the items 
on this list, but I believe that we may also find, when we ask 
India to do something they are reluctant to do, that we come to 
regret having played our big diplomatic card, nuclear 
recognition, so early in the process.
    Finally, and I am repeating something that Senator Biden 
was kind enough to quote, but I--it's important enough--to me, 
at least--that I'd like to say it. India, itself, as befits a 
great nation on its way to global leadership, will have its own 
opinions about this list that I just made. Some American 
proponents of the Indian deal have compared it to Nixon's 
opening to China, a bold move based on a firm foundation of 
mutual interests, but more a leap of trust than a shrewd 
bargain.
    Mao and Nixon, however, had a clear and present common 
enemy--the Soviet Union--not a hypothetical set of possible 
future opponents. But the real difference between the Nixon-
Kissinger deal and the India deal is that India, unlike Mao's 
China, is a democracy. No government in Delhi can turn decades 
of Indian policy on a dime or commit it to a broad set of 
actions in support of United States interests. Only a profound, 
and probably slow, change in the views of India's elites can do 
this. India's bureaucracies and diplomats are fabled for their 
stubborn adherence to independent Indian positions regarding 
the world order, economic development, and nuclear security.
    Proponents of the India deal suggest that these positions 
will yield to the grand gesture of nuclear recognition by the 
United States. I believe this expectation is naive.
    Americans view the change of longstanding and principled 
nonproliferation policy to accommodate India as a concession. 
India views it as an acknowledgment of something to which they 
have long been entitled. This is not a durable basis for a 
diplomatic transaction.
    Mr. Chairman, members of the committee, it's, therefore, 
premature to tell whether the United States will achieve 
security benefits from the India deal that outweigh the costs. 
That means the deal itself was premature. At this point, the 
United States, including the Congress, can only do its best to 
ensure that its benefits are fully realized by both parties.
    Thank you.
    [The prepared statement of Mr. Carter follows:]

  Prepared Statement of Hon. Ashton B. Carter, Codirector, Preventive 
  Defense Project, Belfer Center for Science & International Affairs, 
                   Harvard University, Cambridge, MA

    Mr. Chairman and members of the Committee on Foreign Relations, 
thank you for inviting me to testify before you about the benefits and 
costs of the deal between India and the United States reflected in the 
July 18 Joint Statement between President Bush and Prime Minister 
Singh, which for brevity I will refer to simply as the India Deal.
    Chairman Lugar has charged his Policy Advisory Group (PAG), which I 
cochair, with assessing the India Deal and advising him on its pros and 
cons, and with recommending steps the Congress should take to ensure 
that the final version of the Deal best serves U.S. interests. The PAG, 
like the committee itself, has not yet had the opportunity to hear all 
sides of the issue and make its recommendations. My statement today 
therefore reflects my own analysis and does not represent the views of 
the PAG.

         THE NEED TO LOOK AT THE INDIA DEAL THROUGH A WIDE LENS

    Much of the discussion--and controversy--around the India Deal 
focuses on its nuclear aspects. Since preventing nuclear war and 
nuclear terrorism is the single highest priority for American national 
security--now and as far into the future as I can see--I have some 
sympathy with this emphasis. But I believe the Deal cannot be assessed 
within this narrow frame. In fact, when viewed as a nuclear-only deal, 
it is a bad deal for the United States. Washington recognized Delhi's 
nuclear status in return for little in the way of additional restraints 
on India's nuclear arsenal or help with combating nuclear proliferation 
and terrorism (that India was not already inclined or committed to 
give), and at appreciable likely cost to its nuclear nonproliferation 
objectives in other critical regions.
    But it seems clear that President Bush did not view the India Deal 
through a nuclear-only lens, and neither should we. The United States, 
in this view, gave the Indians what they have craved for 30 years--
nuclear recognition--in return for a ``strategic partnership'' between 
Washington and Delhi. Washington gave on the nuclear front to get 
something on the nonnuclear front. I agree strongly with the 
administration that a strategic partnership with India is in the deep 
and long-term United States security interest. A nuclear-recognition 
quid for a strategic-partnership quo is therefore a reasonable 
framework for an India Deal.
    However, as a diplomatic transaction the India Deal is quite 
uneven. First of all, a United States-Indian strategic partnership 
would seem to be in India's interest as well as ours. So why give them 
something for it? Second, the Deal is uneven in its specifics--what the 
United States gives is spelled out quite clearly, but what India gives 
in return is vaguer. Third, the Deal is uneven in timing--we gave 
something big up front, but what we stand to get lies further out in 
the future.
    Should Congress reject the India Deal as too uneven? I would 
recommend instead trying to improve the diplomacy to rebalance the 
Deal. There are two ways this can be done: The United States can give 
less, or it can expect more. My statement takes the second approach--
aiming to define a set of expectations for specific benefits to the 
United States from a ``strategic partnership'' with India.
    My statement is divided into three parts: First, I describe what 
India got. Second, I describe what the United States should aim to get. 
Third, I assess the chances that U.S. expectations will actually be 
met.
    It is premature to judge whether the expectations of this 
partnership as apparently foreseen on the United States side are shared 
by India and will, in fact, materialize. The Deal itself was premature. 
The problem with a poorly prepared diplomatic initiative is that 
disenchantment will set in on both sides. But with the Deal now an 
accomplished fact, we and the Indians must do our best to build upon 
it.

                             WHAT DELHI GOT

    India obtained de-facto recognition of its nuclear weapons status: 
The United States will behave, and urge others to behave, as if India 
were a nuclear weapons state under the NPT. We will not deny it most 
civil nuclear technology or commerce. We will not require it to put all 
of its nuclear facilities under IAEA safeguards--only those it declares 
to be civil. It is worth noting that even if the administration wished 
to make India a formal Nuclear Weapons State under the NPT (which it in 
fact refused to do), it probably could not persuade all the other 
signatories of the NPT to agree to the formal change.
    Beyond these technicalities, nuclear recognition confers an 
enormous political benefit on India. In effect, it allows India to 
transcend the nuclear box that has for so long defined its place in the 
international order, jettison at last its outdated Non-Aligned Movement 
stances and rhetoric, and occupy a more normal and modem place in the 
diplomatic world. Proponents and critics of the Deal alike agree that 
this is huge.
    The Deal has accordingly been popular in India. Criticism from the 
Bharatiya Janata Party (BJP) has been narrow and technical and probably 
reflects regrets that a Prime Minister from the Congress Party and not 
the BJP secured the Deal. The other source of criticism has been 
leftists in the Congress Party. They are wedded to the old politics of 
the Non-Aligned Movement which was overtaken by the end of the cold 
war, but they are unlikely to be able to block the Deal.
    The Joint Statement contains a list of other items--civilian space 
cooperation, agricultural exchanges, HIV/AIDS cooperation, 
``promot[ing] modernization of India's infrastructure,'' and so on--
that comprise Delhi's long-standing list of desires. There is little in 
here for the United States.
    Other supposed benefits of the Deal do not survive close scrutiny. 
Energy security, for example, is terribly important to both India and 
the United States. We want India's huge population to satisfy its 
energy needs without contributing further to the problems of dependence 
on Middle East oil, pollution, and global warming. But the arithmetic 
does not support the case that nuclear power will spell the difference 
for India, though it can and should play a role. For the foreseeable 
future, electricity generation in India will be dominated by coal 
burning. Burning coal more cheaply and more cleanly will do more than 
any conceivable expansion of nuclear power to aid India's economy and 
the environment. And nuclear power does nothing to address the 
principal Indian oil consuming sector--cars and trucks--since these 
don't run off the electrical grid and won't for a long time. Moreover, 
the type of nuclear assistance the United States is best positioned to 
provide (light water reactors operating on low-enriched uranium fuel) 
is at odds with India's vision of a civil nuclear power program built 
primarily around breeder reactors.
    It is also said that the Deal will require India to improve its 
laws and procedures for controlling exports or diversions of sensitive 
nuclear technology--preventing an Indian A.Q. Khan. But to my knowledge 
India has a good record of controlling nuclear exports (though not 
always ballistic missile exports). India is already bound by the U.S.-
sponsored U.N. Security Council Resolution 1540 which requires such 
good conduct, so on paper at least Dehli has sold the same horse a 
second time in the Deal. In any event, the United States intends to 
justify the Deal's nuclear recognition to other nations around the 
world on the grounds that India's nuclear proliferation behavior is 
already exemplary. It will be difficult to argue this point both ways 
at the same time.
    Missile defense cooperation is also cited in the Joint Statement. 
The United States has had the world's largest and most technically 
proficient missile defense R&D program for many years; it is doubtful 
the United States can learn much from India in this field of military 
science, though India will benefit from United States knowledge. Basing 
United States missile defense radars or interceptors on Indian soil 
would not be of much benefit to the United States (in the way that such 
facilities in Japan, Great Britain, or Poland are useful), since with a 
few exotic exceptions the trajectories of ballistic missiles heading to 
targets of United States interest do not pass close to Indian airspace. 
Finally, it is possible that the administration expects India to 
purchase United States missile defense systems like THAAD to protect 
India from Pakistani and Chinese missile attack. Buying such defense 
systems would benefit United States industry and, through economies of 
scale, subsidize DOD's own purchases of missile defenses . . . but it 
is unlikely that India will make purchases of integrated BMD systems on 
that scale.

                       WHAT WASHINGTON SHOULD GET

    What is it then that the United States might expect from the 
``strategic partnership'' in return for nuclear recognition and other 
items of interest to Delhi in the Joint Statement?
    I would suggest that over the long run the United States would be 
expecting the following strategic benefits from the India Deal:
    Immediate diplomatic support to curb Iran's nuclear program. India 
will need to abandon its long-standing policy of rhetorical support for 
the spread of nuclear fuel-cycle activities and compromise, to some 
extent, its friendly relations with Iran. India's September 24 vote 
with the United States and its European partners in the IAEA Board of 
Governors, finding Iran in noncompliance with its NPT obligations (and 
containing an implicit threat to refer the matter to the United 
National Security Council) was a welcome suggestion that India's 
support in the international struggle to curb Iran's nuclear ambitions 
will be firm. But India's continued firmness in this and other urgent 
counterproliferation efforts will be an early test of the value of 
strategic partnership and its new status.
    Potential counterweight to China. Though no one wants to see China 
and the United States fall into strategic competition, neither can 
anyone rule this out. The evolution of United States-China relations 
will depend on the attitudes of China's younger generation and new 
leaders, on Chinese and United States policies, and on unpredictable 
events like a crisis over Taiwan. It is reasonable for the United 
States to hedge against a downturn in relations with China by improving 
its relations with India, and for India to do the same. But for now 
India is intent on improving its relations and trade with China, not 
antagonizing China. Neither government will wish to talk publicly, let 
alone take actions now, pursuant to this shared--but hypothetical and 
future--common interest.
    Assistance in a Pakistan contingency. Avoiding and responding to 
dangers from Pakistan is another common interest that is awkward for 
either India or the United States to acknowledge. Pakistan, alongside 
Russia, belongs at the center of our urgent concern about nuclear 
terrorism--a concern Chairman Lugar has done so much to address. 
Terrorists cannot make nuclear bombs unless they obtain enriched 
uranium or plutonium from governments who have made these materials. 
The exposure of the A.Q. Khan network in Pakistan makes clear that 
Pakistan has to be regarded as a potential source of vital materials 
for nuclear terrorists--whether by theft, sale, diversion by internal 
radical elements with access to bombs or materials, change of 
government from Musharraf to a radical regime, or some sort of internal 
chaos. Which version of the A.Q. Khan story is more alarming--that the 
government and military of Pakistan was unaware of what he was doing, 
or that they were aware and permitted it? Either way it illustrates a 
serious danger. Were there to be a threat or incident of nuclear 
terrorism originating in Pakistan, the United States would want to act 
in concert with as many regional players as possible, including India.
    The Pakistan contingency is even more difficult for the newly 
minted ``strategic partners'' to acknowledge publicly, let alone to act 
upon. India seems intent on improving its relations with Pakistan--
despite the recent bombings in Delhi and their impact on public 
opinion--and a rapprochement between these long-time antagonists is in 
the U.S. interest. The United States, for its part, has important 
interests at stake with the Musharraf government--among them supporting 
the search for Osama bin Laden and other terrorists on Pakistani 
territory, arresting the growth of radicalism in Pakistan's population, 
and stabilizing Afghanistan--and can ill afford the perception of a 
``tilt toward India.'' For now, therefore, the Pakistan contingency, 
like the China counterweight, remains a hypothetical and future benefit 
of the India Deal.
    Joint action with the U.S. military in operations outside of a U.N. 
context. India has historically refused to join the U.S. military in 
operations outside of the context of a U.N. mandate and command. In the 
future, when the United States needs partners in disaster relief, 
humanitarian intervention, peacekeeping missions, or stability 
operations, the United States can reasonably expect India to cooperate. 
Judging from the evolution of United States security partnerships in 
Asia and Europe (especially NATO's Partnership for Peace), anticipation 
of joint action can lead first to joint military planning, then 
progressively to joint exercises, intelligence sharing and forging of a 
common threat assessment, and finally to joint capabilities. This is 
the path foreseen for a deepening United States-India strategic 
partnership in the defense field.
    Military access and basing. There could be occasions when access 
for and, if needed, basing of United States military forces on Indian 
territory would be desirable. At first this might be limited to port 
access for United States naval vessels transiting the Indian Ocean and 
overflight rights for United States military aircraft, but in time it 
could lead to such steps as use of Indian training facilities for 
United States forces deploying to locations with similar climate (the 
way German training areas were used for forces deploying to the 
Balkans).
    Preferential treatment for United States industry in India's civil 
nuclear expansion. The authors of the India Deal might have anticipated 
preferential treatment for United States industry in construction of 
Indian nuclear reactors and other civil power infrastructure made 
possible by the Deal. But there are two barriers to realization of this 
U.S. benefit. First, the United States must secure preferential access 
for its nuclear industry at the expense of Russian and European 
suppliers who are also seeking access to the Indian market. Second, the 
United States will also need to persuade India to focus its nuclear 
power expansion on light water reactors, not the exotic and 
uneconomical technologies (e.g., fast breeders), that the Indian 
nuclear scientific community favors. This benefit should therefore not 
be exaggerated.
    Preferential access for United States defense industry to the 
Indian market. India is expected to increase the scale and 
sophistication of its military, in part by purchasing weapons systems 
abroad. In view of its concessions in the India Deal, the United States 
can reasonably expect preferential treatment for United States vendors 
relative to Russian or European vendors. Early discussions have 
included the F-16 and F-18 tactical aircraft and the P-3C Orion 
maritime surveillance aircraft.
    Additional contributions to nuclear nonproliferation from India's 
nuclear program. Finally, many commentators and nonproliferation 
experts have recommended that Congress urge the administration to 
pursue Indian agreement to certain additional steps, not spelled out in 
the Bush-Singh Joint Statement, to ``even up'' the nuclear portion of 
the Deal. These proposed additional steps by India include: Agreeing to 
cease production of new fissile material for weapons (as the Nuclear 
Weapons States have done); agreeing to forego indigenous enrichment and 
reprocessing for its civil nuclear power program in favor of the 
international fuel cycle initiative proposed by President Bush in 
February 2004; separating its civil and military nuclear facilities 
permanently and in such a manner that all reactors producing 
electricity are declared ``civil,'' and so forth.

       WILL THE UNITED STATES GET THE BENEFITS OF THE INDIA DEAL?

    The list above is a very substantial--even breathtaking--set of 
potential benefits to the United States of a strategic partnership with 
India. How realistic is it?
    Some of the items on this list reflect joint, common interests of 
India as well as the United States. The United States might therefore 
have had many of these benefits without having to pay the 
nonproliferation costs associated with nuclear recognition for India.
    Most of the items on the list are also hypothetical and lie in a 
future that neither side can predict--this is certainly the case with 
regard to the China counterweight and Pakistan contingency items. Other 
items on the list, like Iran's nuclear program, will unfold sooner. The 
United States can certainly hope that India will behave as a true 
``strategic partner'' in the future across all the items on this list. 
But I believe we may also find, when we ask India to do something they 
are reluctant to do, that we come to regret having played our big 
diplomatic card--nuclear recognition--so early in the process.
    India, as befits a great nation on its way to global leadership, 
will have its own opinions about this list. Some American proponents of 
the India Deal have compared it to Nixon's opening to China--a bold 
move based on a firm foundation of mutual interest, but more a leap of 
trust than a shrewd bargain. Mao and Nixon, however, had a clear and 
present common enemy--the Soviet Union--not a hypothetical set of 
possible future opponents. But the real difference between the Nixon-
Kissinger deal and the India Deal is that India, unlike Mao's China, is 
a democracy. No government in Delhi can turn decades of Indian policy 
on a dime or commit it to a broad set of actions in support of United 
States interests--only a profound and probably slow change in the views 
of India's elites can do this. India's bureaucracies and diplomats are 
fabled for their stubborn adherence to independent positions regarding 
the world order, economic development, and nuclear security. Proponents 
of the India Deal suggest that these positions will yield to the grand 
gesture of nuclear recognition by the United States. I believe this 
expectation is naive. Americans view the change of long-standing and 
principled nonproliferation policy to accommodate India as a 
concession. India views it as acknowledgement of something to which 
they have long been entitled. This is not a durable basis for a 
diplomatic transaction.
    Mr. Chairman and members of the committee, it is therefore 
premature to tell whether the United States will achieve security 
benefits from the India Deal that outweigh the costs. That means the 
Deal itself was premature. At this point, the United States, including 
the Congress, can only do its best to ensure that its benefits are 
fully realized--by both parties.

    The Chairman. Well, thank you very much, Ash Carter. We 
really appreciate that analysis.
    We turn now to Mr. Henry Sokolski and ask for your 
testimony.

      STATEMENT OF HENRY D. SOKOLSKI, EXECUTIVE DIRECTOR, 
    NONPROLIFERATION POLICY EDUCATION CENTER, WASHINGTON, DC

    Mr. Sokolski. Mr. Chairman, I didn't have a chance to read 
that testimony, but, having heard it, I think it's pretty good. 
[Laughter.]
    And I think it's worth rereading. And I think everyone 
should then, as a very subordinate exercise, take a look at 
what I have to say, because I think, actually, there is pretty 
substantial agreement on that analysis, at least in my 
testimony.
    Having worked on the Hill, I was always reminded: Keep it 
simple. So, I have, in the back of my testimony, pictures. I'm 
told they're worth more than the testimony. And I honestly 
believe that if anyone takes 5 minutes--that's all I need, is 5 
minutes for you to look at those viewgraphs and read the 
words--several lights will go on that nothing I can say here 
will help.
    Mr. Chafee, you're on a correct beam when you wonder 
whether nuclear energy is the most leveraged, quickest way to 
take care of energy requirements in India. I think, as Mr. 
Carter pointed out, the answer to that is ``No.'' Now, that 
doesn't mean eventually it may not be important. But no one on 
this committee, on one in this Congress, should be in any rush, 
out of fear, that if we don't get nuclear cooperation going 
immediately with India, somehow you will be choking off the 
economy of India.
    Let me also ask now, before I go through my remarks, that 
two pieces of research, one commissioned by the 
Nonproliferation Policy Education Center, that I direct, on 
India's ICBM program, and one written by an Indian and 
Pakistani expert--they actually coauthored it--on the nuclear 
energy program in India, be entered in the record. I recommend 
that they be read, certainly the second one--it's interesting, 
you don't see too many joint articles on this topic by Indian 
and Pakistani experts, and what they have to say is quite 
telling.
    The Chairman. They will be placed in the record.
    Mr. Sokolski. Thank you. Now to the testimony, itself.
    My recommendation, based not in--a little bit on the kinds 
of thinking you've just heard from Mr. Carter, is that Congress 
needs to recognize that this deal is done, but that the terms 
need to be clarified. I mean, after all, the Executive is 
negotiating to clarify them. They have asked you to legislate. 
Your powers in the Senate and in the House are being asked for 
to be exercised. You have an active role. You do not have to 
wait upon the Executive when it comes to making laws. That is 
entirely your purview. They get to negotiate, but you get to 
legislate.
    In that regard, I would approach what's been dealt in the 
following fashion. And I would clarify things in the following 
way.
    I would not go with country-specific legislation. Too much 
is at stake. My general recommendation is that Congress should 
authorize implementing nuclear cooperation with India only 
after New Delhi commits to the restrictions that it claims it 
wants to adhere to, and that is, they only want to do what 
other responsible advanced nuclear states are doing now. Well, 
they have a way to go. And this is also what we claim the deal 
is about. And, therefore, out team needs to go a little 
further.
    Nothing I'm going to recommend, that follows here, is out 
of bounds from the agreed statement. I want that to be 
understood. This is not additional conditions; it's 
clarification of the conditions already reached, but which are 
vague.
    Congress should accomplish this in a country-neutral 
fashion by amending the Atomic Energy Act to allow U.S. nuclear 
cooperation with non-NPT states. That would include Pakistan 
and Israel, if needs be. In other words, if those countries can 
do the following five minimal conditions, then maybe we should 
consider giving nuclear cooperation with them, as well.
    First, non-NPT states who seek U.S. and international 
civilian nuclear cooperation have to foreswear producing 
fissile materials for military purposes. Every other nuclear 
weapons state that's an NPT state does this. The full meaning 
of ``full safeguards'' or ``safeguarding as much as possible'' 
would be, essentially, to have a cap on their program. So, if 
you push that condition in the agreement to its logical 
conclusion, it comes to this. Now, the administration doesn't 
want to ask for that outright, because the Indians don't want 
to give it outright, at least not immediately. And yet, there 
it is. I mean, that is the whole point of the safeguarding. 
And, indeed, if you don't go all the way with the safeguarding, 
you're not getting very much at all--and I'll explain that in a 
moment--because they can continue to make weapons.
    If they have a nuclear arsenal, foreswearing an increase in 
the net number of nuclear weapons in their arsenal--this is, 
again, what everyone but China has agreed to--such states would 
also have to pledge eventually to dismantle their nuclear 
arsenals, as have all other nuclear NPT weapons states.
    Second, they must identify all reactors supplying 
electricity, all research reactors claimed to be for peaceful 
purposes, all spent fuel these reactors have produced, and all 
fuel-making plants supplying these reactors as being civilian 
and, therefore, subject to routine compulsory international 
inspections.
    They must publicly adopt the principles of the 
Proliferation Security Initiative. And it was quite interesting 
to hear the administration witnesses' discomfort on that point. 
They're obviously pushing on that one. So, Congress can help.
    Fifth, they must be free of any U.S. nuclear or nuclear-
capable missile sanctions for at least 2 years. This is your 
own rule. A briefing, for sure, needs to be had, privately, on 
what sanctionable activities has India engaged in since it was 
last sanctioned. You need to get that briefing from the 
intelligence community. You want it to be ``nothing.'' If 
there's anything there, you want to pay attention.
    In addition, Congress should seek a briefing on what it 
would cost the IAEA, beyond its current budget, to safeguard 
all of India's stockpiled spent fuel and weaponized--
nonweaponized direct-use materials, reactors and fuelmaking 
plants. It's my understanding that this is an issue right now, 
because the IAEA may not be able to even safeguard additional 
heavy water reactors. You may, as Congress, want to put money 
in a bill aside for this purpose in support of implementing 
this deal. In other words, no one should use the excuse that 
the IAEA can't do the inspections as a reason for not listing 
as many facilities as possible to get inspected.
    Finally, and something which I don't think anyone has 
spoken to, is: How does the administration intend to keep its 
space launch vehicle assistance from helping India's ICBM 
program? That is what this paper is about.
    Four weeks after our announcement that we would do space 
launch assistance, the Indians announced they were going ahead 
with an ICBM program. The ICBM program is based on their space 
launch vehicle program. The last time anything was written on 
this program, Indian officials claimed it was targeted against 
Europe and the United States. We want to get fully briefed on 
what this is about and where it stands and how, in fact, space 
launch vehicle assistance is going to be kept from helping this 
program. This will only complicate our relations; it will not 
make it easier. Of course, those in a hurry to seal the nuclear 
and space deals may chafe at these kinds of conditions. But I 
think insisting on them is critical. I think they're, in fact, 
minimal to make sure that we do not, in fact, indirectly assist 
their nuclear weapons program.
    Both the paper that I asked be entered in the record and 
this first viewgraph make very clear, if you send lightly 
enriched uranium from any country, including the United States, 
just to run the two light-water reactors that we have operating 
there--they're called the Tarapur, Units 1 and 2--it's 
equivalent to freeing up enough enrichment capacity for India 
to make 12 more additional bombs a year and/or 75 plutonium 
bombs if they were to run what's called mixed-oxide fuel as a 
substitute for the normal kind of fuel that would go in these 
plants. That is fairly direct assistance to their weapons 
program. If you don't get them to foreswear making weapons, or 
making more material for weapons, that is what the U.S. 
Congress will be endorsing.
    Similarly, with the ICBM program, if we go ahead with space 
launch assistance that isn't properly curtailed--that is, I see 
nothing wrong in helping the Indians launch satellites on other 
countries' launchers. I see nothing wrong with giving them data 
to help us on cosmological questions. They have some of the 
world's leading cosmotol--cosmo--excuse me--experts on the 
universe. I'll escape from that one. But once you assist a 
program with satellite-dispensing technology and satellite 
integration, you end up doing what we did with China. And we 
were all embarrassed by that. And China is not an enemy, but we 
still didn't want to do it. The similar point goes here. Those 
are fairly direct ways in which if we're not careful, this 
space and nuclear set of deals could literally and politically 
explode in ways we don't want it to.
    Given the time, I think I'd better wrap up. I do want to 
make one comment, though, about China.
    I think the last thing anyone would want to do, and is the 
last thing that's in anybody's interest, is to help India 
compete against China with nuclear arms. I mean, I--this is 
really the last thing that anyone should be doing. China has 5 
to 10 times the number of deployed nuclear weapons as India, 
and hundreds more advanced long-range rockets. Although China 
no longer makes fissile materials for weapons, it has 
stockpiled thousands of additional weapons' worth of highly 
enriched uranium and separated plutonium. It has shied from 
converting all of these into bombs, for fear of sparking a 
rivalry with Japan, who could go nuclear by bolting the NPT 
itself. It's something which people on the edge of my community 
worry about. I mean, it's not the first thing, but Japan has 
thousands of weapons' worth of separated plutonium, both in 
Europe and in Japan, sitting. And nobody understands what it's 
for.
    To be sure, the current government may not be interested in 
ramping up their nuclear ICBM production, but the BJP and its 
opponents clearly are. If they were to return to power, and we 
were not to cap, in any way, India's nuclear weapons effort, 
more Indian weapons would likely be built, which, in turn, 
would provoke China into a self-defeating nuclear arms rivalry, 
and this rivalry would not only--also would spark a rivalry 
with India and Pakistan; and, finally, between China, Japan, 
and the United States. This is just not a good idea.
    Therefore, in conclusion, I hope that Congress actually 
starts saying, now, through letters, maybe draft experimental 
senses of the Senate, perhaps bills of any sort, what it thinks 
the minimal requirements of cooperation should be. I'll tell 
you why. You will shape those negotiations if you do. If you 
don't, you will be faced with a fait accompli, and it will be 
very discomforting to deal with. I think you, by exercising 
your constitutional authority, can actually help make sure that 
this deal gets properly implemented.
    Thank you.
    [The prepared statement and viewgraphs of Mr. Sokolski 
follow:]

     Prepared Statement of Henry D. Sokolski, Executive Director, 
        Nonproliferation Policy Education Center, Washington, DC

    Mr. Chairman, members of the committee, I want to thank you for 
asking me to testify on the nonproliferation impact of the U.S.-India 
nuclear and space cooperation deals announced July 18, 2005. Unlike the 
many other mutually favorable deals announced July 18, 2005, these two, 
if not properly clarified by Congress, are fraught with danger. 
Improperly implementing them in their current form could not only 
encourage India to make intercontinental-range ballistic missiles and 
more nuclear weapons, it could devastate any firm reading of the 
current nuclear rules, whether they be the Nuclear Nonproliferation 
Treaty (NPT), the Nuclear Suppliers Group (NSG) or America's own 
Proliferation Security Initiative (PSI).
    My general recommendation to you today is that Congress should 
authorize implementing these agreements only after India commits to the 
limits other responsible, advanced nuclear states have. This should be 
done in a country-neutral fashion by amending the Atomic Energy Act of 
1954 to allow U.S. nuclear cooperation with advanced, responsible 
nuclear states that are not members of the Nuclear Nonproliferation 
Treaty (NPT) if, and only if, they meet five minimal conditions.
    First, they must forswear producing fissile materials for military 
purposes and, if they have a nuclear arsenal, forswear increasing the 
net number of nuclear weapons in their arsenal. Such states would also 
have to pledge eventually to dismantle their nuclear arsenals as have 
all other NPT weapons states.
    Second, they must identify all reactors supplying electricity, all 
research reactors claimed to be for peaceful purposes, all spent fuel 
these reactors have produced, and all fuel making plants supplying 
these reactors as being civilian and, therefore, subject to routine, 
compulsory international inspections.
    Third, they must uphold all previous bilateral nuclear 
nonproliferation obligations they might have had with the United States 
and other countries.
    Fourth, they must publicly adopt the principles of the 
Proliferation Security Initiative.
    Fifth, they must be free of any U.S. nuclear or nuclear-capable 
missile sanctions for at least 2 years and have cleared up any 
outstanding sanctionable actions before U.S. cooperation is formalized.
    To be sure, insisting on these requirements will displease those in 
a hurry to seal the nuclear and space deals with India. Yet, insisting 
on such conditions in no way moves the goal posts or raises the bar on 
the U.S.-India Joint Statement announced July 18, 2005. At the time, 
both the United States insisted that it does not regard India as a 
nuclear weapons state under the NPT. As such, it should have been 
understood that IAEA inspections of India's civilian nuclear facilities 
might well be tighter than the unique, voluntary spot inspections, that 
NPT weapons states' facilities are given.
    Also, at the time, both United States and Indian officials agreed 
that India would assume all those restraints that ``advanced, 
responsible nuclear states'' had assumed. Among the most important of 
these is forswearing the expansion of one's nuclear arsenal by 
renouncing the further production of fissile material for military 
purposes and capping the net number of nuclear weapons one has. Under 
these conditions, one could possess nuclear weapons, modernize them, or 
(as the United States, Russia, United Kingdom, and France, have done) 
dismantle them, but that would be it.
    It should be noted that demanding that these conditions is more 
than merely desirable. They must be met if, as the deal's backers have 
claimed repeatedly, the nuclear and space deals are to enhance the 
cause of global nonproliferation and U.S. security. Certainly, the 
credibility and success of United States and allied efforts to curb 
proliferation in Iraq, Iran, and North Korea has depended heavily on a 
firm reading of the nuclear rules. The NPT bargain of giving up nuclear 
weapons to secure international civilian nuclear cooperation also was 
critical to securing Libya's agreement to give up its nuclear 
activities, and to South Africa's and the Ukraine's surrender of their 
nuclear arms. Finally, the United States has an interest in making 
India behave as the United Kingdom and Japan do, not merely as China or 
Iran. Indeed, only by insisting on better behavior here will the United 
States, India, and other responsible nuclear nations have the moral 
authority required to pressure Iran to limit its unnecessary and 
dangerous nuclear fuel making and China to stop its expansion of its 
nuclear weapons arsenal.
    Unfortunately, India has yet to express interest in meeting these 
conditions. Nor has the Bush administration pushed very hard to secure 
them. This all might be acceptable to Congress. If so, Congress need 
only endorse the loose nuclear inspections arrangements India and the 
executive branch are currently negotiating and approve legislation to 
relax U.S. Atomic Energy Act and missile technology controls in the 
sole case of India. But Congress should understand that if it does 
this, it will put the United States in the dubious position of:
    1. Helping India expand its nuclear weapons arsenal by freeing up a 
nuclear fuel making capacity that otherwise would be needed to supply 
civilian reactors, such as those at Tarapur, with lightly enriched 
uranium (see viewgraph I).
    2. Lending technical support to India's intercontinental ballistic 
missile (ICBM) project, the Surya, an incredibly massive, inherently 
vulnerable, first-strike missile derived directly from its civilian 
satellite launch system (the Polar Space Launch Vehicle). India already 
has a medium-range missile, the Agni, which it is upgrading to reach 
all of China and can be made road and rail-mobile. Indian officials, 
meanwhile, claim India's ICBM is intended to deter Europe and the 
United States (see attached viewgraphs and 3 and NPEC's newly released 
study, ``India's ICBM: On a Glide Path to Trouble?'' by Dr. Richard 
Speier).
    3. Undermining United States and international efforts to restrict 
nuclear and missile technology exports to states such as North Korea 
and Iran by giving such help to a state that has not yet signed the 
NPT, capped its nuclear weapons program, rectified proliferation 
transactions that are sanctionable under United States law, endorsed 
the Proliferation Security Initiative's principles, or placed all of 
its nuclear activities under compulsory IAEA nuclear inspections as all 
responsible, advanced nuclear states have.
    For most people, avoiding these pitfalls would be worth 
considerable effort. Yet, more than a few of the deals' backers 
cynically believe that encouraging these developments is necessary to 
enhance United States security against a hostile China or Iran. This, 
however, reflects an unwarranted, defeatism that is unworthy of the 
United States. More important, it is strategically misguided on at 
least three critical counts:
    1. India's Foreign Secretary and Prime Ministers insist India's 
July 18 understandings with the United States are not ``directed 
against any third country.'' In fact, India struck a strategic 
agreement with Iran in January 2003 known as the New Delhi Declaration, 
not only to help develop Iranian oil and gas fields, but to assure 
continued cooperation with Iran against the Taliban in Afghanistan, 
many of whom threaten the peace in Kashmir. Indian officials also are 
insistent that India's vote on Iranian IAEA noncompliance was cast 
primarily to help prevent referral to the United Nations and did not 
mean that India thought Iran was actually in noncompliance. As for 
China, the current Indian Government sees economic cooperation with 
Beijing as a key to India's future development.
    2. The last thing in anyone's security interest is to help India 
compete against China with nuclear arms. China has 5 to 10 times the 
number of deployed nuclear weapons as India and hundreds more advanced 
long-range ballistic missiles. Although it no longer makes fissile 
materials for weapons, it has stockpiled thousands of additional 
weapons' worth of highly enriched uranium and separated plutonium. It 
has shied from converting all of this material into bombs for fear of 
sparking an arms rivalry with Japan, who could go nuclear by bolting 
the NPT and militarizing its own massive, growing stockpile of 
separated civilian plutonium. To be sure, the current Indian Government 
is not interested in dramatically ramping up Indian nuclear weapons 
production. Its main opponents, the BJP, however, clearly are. If they 
were to return to power and no cap had been placed on India's nuclear 
weapons efforts, more Indian weapons would likely be built, which, in 
turn, could provoke China--prompting a nuclear arms rivalry, not only 
between it and India (and, consequently, revving up even more nuclear 
competition between India and Pakistan), but with Japan and the United 
States.
    3. Every rupee India invests in developing nuclear weapons, ICBMs, 
and missile defense is one less that will otherwise be available to 
enhance security cooperation with the United States in the imperative 
areas of antiterrorism, intelligence sharing, and maritime cooperation 
in and near the Indian Ocean. India's entire annual military budget of 
about $20 billion (which supports a military of over 1.3 million active 
duty soldiers) is roughly what the United States spends on its nuclear 
arsenal and missile defenses alone. Encouraging India to spend in these 
areas could easily hollow out its conventional military and undermine 
the very areas most promising for United States-Indian cooperation.
    This then brings us to the weakest and least credible arguments for 
pushing nuclear and space cooperation on an urgent basis; that is that 
India must have substantial United States cooperation in these fields 
immediately to sustain its economic growth. In fact, for the near term 
just the reverse is the case: Investing in the expansion of nuclear 
power in India for the next decade is the very least leveraged way to 
address India's growing need for more and cleaner energy. Instead, one 
should focus first on increasing efficiencies in India's consumption, 
distribution, and generation of energy (including but not limited to 
its electrical sector). This would entail transitioning to cleaner uses 
of coal and restructuring India's coal industry to meet demand; 
introducing market mechanisms and curbing massive energy theft and 
subsidies; and expanding the use of renewable energy, e.g., biomass, 
small hydro, wind, etc. (both connected and unconnected to the grid). 
So long as the Indian nuclear sector continues to be preoccupied with 
extremely complicated thorium-fuel cycle systems and breeder reactors 
and relies on dysfunctional state secrecy and monopoly-style 
management, investing in this energy sector will be self-defeating. 
Instead, the United States and others should encourage India's nuclear 
sector to acquire a more reasonable set of goals and open itself up to 
foreign ownership and management. This will take time (for more 
details, see attached viewgraphs, 4 through 7).
    As for space cooperation in the space launch area, by far the 
safest, most cost-effective form of cooperation would be to make 
affordable United States launch capabilities more accessible to India. 
Certainly, the recent announcement that the United States intends to 
include Indian astronauts in upcoming United States space shuttle 
missions is the proper path to take. Transferring satellite integration 
and space launch technology to India, on the other hand, is a sure-fire 
way to repeat the frightening development that Loral and Hughes 
produced in the 1990s with China when their satellite launch 
integration assistance literally boosted China's ICBM modernization 
efforts.
    For this and all the other reasons noted above, Congress should 
exercise due diligence in sorting out the specifics of United States-
Indian nuclear and space cooperation. Your committee is to be commended 
for taking the initiative in requesting that any enabling legislation 
to implement United States-India space and nuclear cooperation be 
referred to the appropriate committees rather than on any legislative 
spending vehicle. Congress and the appropriate committees also should 
make their own views known on what legislative conditions they believe 
the proper implementation of nuclear and space cooperation with India 
and similar non-NPT states require. Under no circumstances, should 
Congress allow itself to be rushed.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Chairman. Well, thank you very much for those 
thoughtful suggestions, as well as the pictures and the 
additions that you have asked to be part of the record. We 
appreciate that.
    Mr. Krepon, would you please proceed?

STATEMENT OF MICHAEL KREPON, COFOUNDER AND PRESIDENT EMERITUS, 
            HENRY L. STIMSON CENTER, WASHINGTON, DC

    Mr. Krepon. I'll condense my testimony quite a bit.
    How do we deconflict, as much as we can, two objectives 
that we all care so much about: Improving ties with India and 
strengthening our nonproliferation policy? We can't deconflict 
them entirely. And I regret to say, Ash, I'm doubtful that the 
strategic benefits that you've laid out are likely to be 
realized, at least in major part.
    To help the process of deconfliction, I would urge you to 
work with the administration to affirm a set of first 
principles that would guide the administration in its 
negotiations, and that would guide the Congress in considering 
the end result.
    What first principles do I have in mind? I think the first 
``first principle'' is that nonproliferation norms are 
absolutely essential against dangerous weapons in the most 
dangerous hands, and that country-specific exceptions to these 
norms are absolutely corrosive. They're the worst kind of 
exceptions. Later on I'm going to urge you to consider 
conditional exceptions rather than country-specific exceptions.
    Why are country-specific exceptions so corrosive? It's 
true, as the administration says, that there are good countries 
and then there are really problematic countries out there. But 
if we try to change public law on the basis of good countries 
versus bad countries, we're in trouble, and we're especially in 
trouble internationally, because one country's friend may be 
another country's foe. And if we seek an exception for country 
A, somebody else is going to seek an exception for country B. 
Thus, friends and adversaries or problem states, are not clear-
cut categories. We have a friend that's also a problem state in 
this area, next door to India. And sometimes friends become 
problem states, and sometimes vice versa. I really think this 
good-guy/bad-guy approach that the administration is drawn to 
is very corrosive to the norms that have to be the bedrock of 
our policy.
    So, my first principle, my first ``first principle,'' is 
that norms have to be strengthened a whole lot more than 
loopholes have to be opened.
    Public law for nonproliferation isn't sacrosanct. Our 
Constitution has been amended. The Congress has been known to 
amend laws. I don't have a doctrinaire position on our 
nonproliferation laws. I'm prepared to amend law. But my second 
``first principle'' is that the net effect of any changes in 
public law should be to strengthen nonproliferation. If we're 
going to relax laws, then we need to find compensatory steps 
that strengthen nonproliferation.
    My third ``first principle'' is that no changes in public 
law should assist the recipient to either enlarge or enhance 
its nuclear arsenal. That's pretty straightforward. And hearing 
Bob Joseph today, it seems to me that you're not going to get 
an argument on this matter if, indeed, you do decide to enter 
into discussions with the executive branch, or if you decide to 
do this on your own and attach guiding principles to some 
legislative vehicle.
    My fourth ``first principle'' is the principle of 
proportionality, which is to say that some changes in public 
law could have modest effects, but other changes in public law, 
like that proposed by the executive branch, are quite 
substantial. Since not all changes in public law are equal, I 
would propose that you consider laying out a set of conditions 
attached to different types of changes in public law. The more 
substantial the change in public law, the greater the remedy we 
would need to shore up our nonproliferation policies.
    I'm talking about conditional exemptions, not country 
exemptions. I would rather that the U.S. Government talk to the 
Nuclear Suppliers Group and the IAEA on a set of conditions 
that we would expect others to sign up to in order to engage in 
nuclear commerce with us. That's a much better approach, in my 
view, than for us to declare, ``I want an exception for this 
country,'' and then China says, ``I want an exception for 
Pakistan,'' and then Russia says, ``Well, I want an exception 
for Iran.''
    We could engage in a long meeting about what the different 
conditions might be. Many conditions have already been 
presented to you and to your counterpart committee on the House 
side. But I think I've left enough--we've all left enough on 
the table.
    [The prepared statement of Mr. Krepon follows:]

Prepared Statement of Michael Krepon, Cofounder and President Emeritus, 
                Henry L. Stimson Center, Washington, DC

    The debate now unfolding on the Bush administration's nuclear 
cooperation initiative is not about isolating and penalizing India. 
India is already the beneficiary of significant changes in U.S. 
Government policy. The real issue at hand is how to greatly improve 
bilateral ties without greatly weakening rules against proliferation.
    Many ardent admirers of India and staunch defenders of the Non-
Proliferation Treaty are conscientiously struggling with this dilemma. 
The NPT faces a number of problems more severe than India's nuclear 
program. But these problems can be compounded by how we handle India. 
The rules we change on India's behalf can also weaken the rules we want 
other nations to abide by.
    We can't sidestep this dilemma by distinguishing, as advocates 
within the administration do, between friendly states and problem 
states. Such distinctions are rarely permanent or clear cut. We all 
know that friendly states can also be problem states, that yesterday's 
friend can become tomorrow's adversary, and vice versa.
    Another significant problem with making U.S. nonproliferation 
policy dependent on country-specific distinctions between good and bad 
states is that this approach will seriously damage domestic laws and 
international treaties that set norms against proliferation. Domestic 
traffic laws don't allow some people to speed, but not others. Nor do 
international treaties distinguish between friends and foes, since one 
nation's friend can be another's foe. Instead, the rule of law applies 
to all. It allows us to distinguish between those who abide by the law 
and those who break it. Laws still get broken, but that doesn't 
diminish the importance of rules. Having rules, laws, and international 
norms provides the basis for prosecution, coalition building, and 
enforcement.
    I will describe below four fundamental principles that I hope will 
serve as guideposts for your deliberations:

  <bullet> Strengthen nonproliferation norms more than you widen 
        loopholes. Country-specific exemptions are bad for norms;
  <bullet> The net effect of any changes in public law should make 
        proliferation harder, not easier;
  <bullet> Follow the guideline of proportionally: Link conditions to 
        changes in public law. The greater the exemption sought, the 
        greater the need for compensatory steps against proliferation;
  <bullet> No exemption should assist the recipient to enhance or 
        enlarge its nuclear arsenal

    My first principle is that country-specific exemptions are 
corrosive to nonproliferation norms. If the United States were to 
champion a country-specific exemption, there is a strong likelihood 
that other nuclear suppliers would seek other exemptions, and that the 
United States would lose leverage to prevent such transactions.
    Thus, if after thoughtful deliberation, you conclude that some 
relaxation of our laws is advisable, I strongly urge you not to do this 
on a country-specific basis. Instead, I urge you to establish 
conditions under which the relaxation of public law would apply to any 
state seeking an exemption that meets congressional conditions. In this 
way, exemptions would be granted on the basis of performance, not on 
the basis of a particular country.
    A second general principle that I would propose for your 
consideration is that the net effect of changing public law should be 
to make proliferation harder, not easier. Put another way, the 
strengthening effects of the conditions established by the Congress 
should outweigh the weakening effects of the exemptions granted.
    Not all proposed relaxations of public law are equal. Since some 
kinds of U.S. nuclear assistance would have minimal negative impact on 
global nonproliferation norms, the conditions set by the Congress to 
allow for such transactions might also be modest. Conversely, other 
types of U.S. nuclear assistance could potentially have larger adverse 
impacts on nonproliferation norms and treaties. In such instances, the 
Congress might set very stringent conditions--or prohibit such 
transactions altogether.
    To address the fact that there are widely disparate gradations of 
nuclear commerce, I would propose that the Congress consider a third 
principle when considering changes to public law--the principle of 
proportionality. If the Congress deems it advisable to establish 
conditions associated with U.S. nuclear assistance, different types of 
assistance might be conditioned on different strengthening measures 
against proliferation. Minor adjustments in existing law would 
therefore be possible when modest conditions are met; major adjustments 
would be possible when significant conditions are met.
    The first two principles would mesh with the third: When applying 
the principle of proportionality, a relaxation of public law should be 
accompanied by conditions that, in all cases, result in a net 
strengthening of the global norm of nonproliferation. Moreover, these 
conditions should not be country specific. Instead, these 
considerations should apply to every applicant meeting congressional 
standards.
    The fourth fundamental principle that I would urge for your 
consideration is that the relaxation of U.S. nuclear assistance must 
not assist the recipient to enhance or enlarge its arsenal of nuclear 
weapons. If U.S. nuclear commerce were to result in more and more 
capable nuclear weapons on the part of any recipient, global 
nonproliferation norms would be dealt a severe blow. The reassertion by 
Congress of this fundamental objective and purpose of public law is 
essential because the July 18 Joint Statement by President Bush and 
Prime Minister Manmohan Singh could lead to this negative result, 
depending on how it is implemented.
    How might these four general principles be applied in the proposed 
U.S.-India agreement? Let's take a look at both ends of the spectrum 
reflected in this initiative, and at two cases in between.
    The most troubling kinds of nuclear commerce--aside from the 
outright sale of bombmaking material and bombs--have to do with 
enrichment and reprocessing. This kind of nuclear commerce offers 
nations very costly ways to produce electricity, but essential means to 
produce nuclear weapons, regardless of cost. Given the negative 
proliferation consequences of commercial trafficking in enrichment and 
reprocessing technologies, President Bush spelled out his 
administration's opposition to this practice in a speech delivered at 
the National Defense University on February 11, 2004:

          The world must create a safe, orderly system to field 
        civilian nuclear plants without adding to the danger of weapons 
        proliferation. The world's leading nuclear exporters should 
        ensure that states have reliable access at reasonable cost to 
        fuel for civilian reactors, so long as those states renounce 
        enrichment and reprocessing. Enrichment and reprocessing are 
        not necessary for nations seeking to harness nuclear energy for 
        peaceful purposes.

    In the July 18, 2005, Joint Statement, President Bush endorsed a 
very different formulation. He promised to ``work to achieve full civil 
nuclear energy cooperation with India'' and to ``seek agreement from 
Congress [and to] work with friends and allies to adjust international 
regimes to enable full civil nuclear energy cooperation and trade with 
India.''
    President Bush's February 2004 statement is consistent with a 
principled position to strengthen nonproliferation norms, much like the 
one I am asking you to consider. His July 2005 promise appears to carve 
out an exception to this principled position. A rules- and norms-based 
system would seek to set the highest barriers against transfers that 
could do the most proliferation damage--without exception.
    On the other end of the spectrum, the July 18 Joint Statement 
discusses bringing India into international research efforts related to 
advanced development concepts for civil nuclear power generation. While 
the particulars of such engagement matter--since some research and 
development initiatives could have more utility for nuclear weapon 
programs than others--in general this type of engagement would be 
consistent with the general principles advocated here.
    Two cases in between these poles are not so easy. One is providing 
fuel for safeguarded facilities at Tarapur. The other is selling new 
nuclear power plants to India. Providing commercial assistance to 
Tarapur, which the Government of India seeks in the near term, would be 
of far narrower scope than signing contracts for new nuclear power 
plants, but both steps would be contrary to the ``full-scope 
safeguards'' standard that the United States has long insisted that 
other nuclear suppliers live up to.
    In these intermediate cases, the fundamental principles enumerated 
above ought to apply: Norms should be strengthened, rather than 
exceptions; the net effect of any changes in public law linked to 
conditions should strengthen, not weaken, these norms; the principle of 
proportionality should apply; and no assistance should be given with 
respect to the military nuclear capabilities of the recipient state. 
The last of these fundamental principles would mandate that any 
relaxation of nuclear commerce for particular facilities be linked to 
the requirement that such facilities be safeguarded in perpetuity. But 
this still begs the question of what to do about the full scope 
safeguards requirement that U.S. administrations have finally succeeded 
in establishing as an international norm.
    A key formulation embedded in the July 2004 Joint Statement 
suggests one way to proceed. Prime Minister Manmohan Singh has stated 
that his government is ``ready to assume the same responsibilities and 
practices and acquire the same benefits and advantages as other leading 
countries with advanced nuclear technologies.'' This passage suggests 
that India would be treated in the same way--and would behave in the 
same way--as the nuclear weapon states recognized under the Non-
Proliferation Treaty.
    The ``equal benefits for equal responsibilities'' formulation has 
some merit. But what would it mean in actual practice? In actual 
practice, the five nuclear weapon states recognized under the NPT have 
stopped producing fissile material for nuclear weapons. India has not. 
In actual practice, the five nuclear weapon states recognized under the 
NPT have signed the Comprehensive Test Ban Treaty. Three of the five 
have ratified the treaty. The Senate of the United States has not 
consented to ratification. But under international law, all five are 
equally obligated not to undermine the objectives and purposes of this 
treaty, pending its entry into force. India has not signed the CTBT. 
Government officials have affirmed, using the present tense, the 
absence of current plans to test. These statements do not carry equal 
weight, nor do they impose equal responsibility, to the obligations 
accepted by the 176 states that have signed the CTBT.
    If India were serious about the ``equal benefits for equal 
responsibilities'' formulation, then New Delhi would be well advised to 
favorably consider a moratorium on the production of fissile material 
for nuclear weapons, and to sign the CTBT. Such steps would clarify 
that India seeks commercial nuclear transfers to fuel its economic 
growth and not to increase or enhance its nuclear arsenal. These steps 
would also clarify that the net effect of the changes Congress is being 
asked to consider would strengthen, not weaken, global nonproliferation 
norms. Under the principle of proportionality proposed above, such 
steps by the Government of India would open up a much wider range of 
cooperative nuclear endeavors.
    While I endorse this structure for handling the dilemmas posed by 
the Bush administration's nuclear cooperation initiative with India, I 
most emphatically do not recommend that the Congress direct the 
Government of India to take such steps. Any such directive would be 
counterproductive and deeply offensive to most Indian citizens. India 
is a proud, sovereign state facing vexing security problems. It will 
not take dictation from a nation with many thousands of nuclear weapons 
and large stocks of fissile material that has tested nuclear weapons 
over 1,000 times.
    Decisions regarding a moratorium on fissile material production and 
nuclear testing are India's to make. India will make these decisions in 
light of its perceived security requirements, and not as a result of 
foreign pressure. We must respect New Delhi's decisions, which could 
facilitate or impede nuclear cooperation. Either way, these are New 
Delhi's decisions to make. My preferred approach respects New Delhi's 
powers of decision, while reinforcing a principled stance by the United 
States against proliferation.
    By laying out a set of fundamental principles associated with 
changes in public law, and by establishing conditions for different 
levels of relaxation, the Congress could provide consistency and 
clarity that are lacking in the July 2005 Joint Statement, while 
strengthening global norms against proliferation. Improved bilateral 
ties with India will continue to proceed on many fronts, including 
trade, investment, nonnuclear energy, agriculture, defense cooperation, 
and public health issues. There is no compelling reason why improved 
relations should come at a great cost to the nonproliferation norms 
that have buttressed national and international security. Working out 
the particulars associated with a statement of principles and 
conditions will not be easy. But, in my judgment, this approach could 
substantially strengthen bilateral relations and nonproliferation 
norms, rather than pitting one against the other.

    The Chairman. Thank you very much for those additions to 
our understanding, and for your suggestions for our activity.
    Let's have another 8-minute round of questioning to this 
panel.
    And let me begin by indicating that the administration has 
come forward with what they have described as a strategic plan 
for an enhanced relationship. They've discussed the history of 
our relationship with India, and unsatisfactory elements, and 
how it's improved, but this is designed to be, as I understand, 
a giant leap forward. It's very country-specific.
    Now, I appreciate the legislative suggestions that at least 
two of you have made that this should not be country-specific, 
and that, in fact, whatever the administration has done with 
the summit conference, with the Indian officials here, with 
visits by our Secretaries to India and so forth, that we ought 
to stand back and try to perfect the rules of the game with 
regard to nonproliferation, to try to strengthen that regime. 
This really is a benefit to India, and to us, and to others. At 
the same time, Secretary Carter has suggested that, in fact, 
this is not necessarily a done deal. Still, we're far down the 
trail. Therefore, leaving aside nonproliferation, there are 
some broad foreign-policy objectives with regard to our 
alliance with India, our performance with regard to other 
countries, or problems that we have in the world that ought to 
be a part of that. It's a rather daunting list, as he admitted. 
The Indians might not cede readily, or might not like the list 
at all. But, nevertheless, there would be benefit to our 
country.
    As I was discussing with the administration witnesses, 
there are a lot of moving parts. The administration said they 
would not really approach this with legislative language until 
this separation of the civilian and the military aspects 
progressed. This has not occurred as yet, and it's not really 
clear exactly when that might occur, nor how far it might 
occur, nor how satisfactorily we all feel that that happened.
    So, there is always a work-in-process aspect about what has 
been perceived and celebrated as a historic new arrangement. I 
think we ought to be, on this committee, loathe to simply pour 
rain on the parade, and indicate that this is not all that 
important. It may have seemed that way for people who were 
negotiating it. But, all things considered, here are all these 
things lying out there. I don't really want to take that 
attitude, personally. I think there are possibilities for our 
country, for India, for the world, for this thing to progress. 
On the other hand, it's not clear to me how it's going to.
    Mr. Sokolski suggested, before we wait for the 
administration--that probably won't be interminable, but it's 
been suggested that it might be into next year----
    [Laughter.]
    The Chairman [continuing]. February, March, even some think 
April--before this progress in India is really identifiable, 
and all sorts of other things may be happening in the world in 
the meantime. That's a long time, given the other issues that 
are in play. So, he has suggested, helpfully, that we propose 
legislation on our own, to begin with that we don't wait around 
for this draft; or, absent that, that we offer resolutions, 
that we make statements on the floor, maybe that we do various 
things that try to help frame the issues and inform the 
administration of what seems to have some support here; and 
maybe that we inform the Indians, in the process, of how 
sentiment is going at this stage. And that may be possible. 
This is a daunting process, all by itself. It may be a good 
idea. Maybe, independently, the distinguished ranking member 
and I ought to say something, or others should be invited from 
time to time. But the dangers of this are obvious, too. You 
have a good number of voices, all spouting off, so to speak, 
and this may be confusing to Indians and the Indian press, the 
free press. There has been a lot of democratic discussion over 
there, as it tries to interpret what in the world is going on 
here, quite apart from what our counterparts in the House of 
Representatives may have already said, or may say.
    Let me just ask this general question of you. How do we 
proceed in a responsible way? You've all been involved, in one 
way or another, in the legislative or administrative procedures 
of our Government. Thinking of this constructively, as opposed 
to ``gaming'' the thing between the committee and the 
administration or the House or so forth, just outline--if you 
were in my position, or that of the distinguished ranking 
member, what would you advise this committee to do? Mr. 
Sokolski already had a go at that. I don't want to exempt you 
from answering the question, even after hearing all of this 
again, but give us some advice regarding the grounding that 
I've just explained. Would you start, Ron, with your thoughts 
about this?
    Ambassador Lehman. Well, that is the big question. In my 
prepared statement, while I alluded to a lot of things you may 
want to consider, I actually think the most important point I 
made was: Be careful. Because although none of these issues are 
new and almost all the players have been working these issues 
for some period of time, I think there's actually a lot of 
confusion out there. And I thought your recommendation that we 
lock ourselves in a room and get our acts together is really a 
good idea.
    And let me use some specific examples from our testimony 
today, where, you know, we have tremendous amount of agreement, 
and our body language is often the same, and yet we're already 
getting into some trouble. And let me explain what I mean.
    I don't want to assert what my colleagues at this panel, or 
the previous panel, have said, but let me, sort of, use some 
strawmen, and those who feel offended can speak up for 
themselves.
    Have we recognized India as a nuclear weapons state? Well, 
in one sense, of course, they're a nuclear weapons state. They 
have nuclear weapons. But the only way you could really have 
the relationship with them that you have with a nuclear weapons 
state would be either to leave the NPT or amend the NPT. And I 
think the Indians know that whatever the details are of all of 
the relationship on the civilian cooperation, the 
administration, and no administration, is prepared to do with 
India what it would do with an official nuclear weapons state. 
OK, we can argue over, ``Well, how much do we want to talk 
about one aspect--they've got 'em--and the other, which is 
their legal status and what it means in terms of what we can 
do?'' But I think we--those are important distinctions. They 
matter.
    The second is a tactical point I want to make, which is the 
heart of my prepared statement, which is, there are a lot of 
people running around, euphoric, about this new strategic 
relationship, and they want to justify what they've done on 
civilian nuclear cooperation----
    Is that me? Should I shut up?
    The Chairman. No. [Laughter.]
    With the forebearance of my colleague, why, you--please go 
ahead.
    Ambassador Lehman [continuing]. That there's this great 
strategic relationship which fully justifies any concessions we 
make on civil nuclear cooperation. I actually think that most 
of the positive, and some of the negative, things in the 
strategic relationship are going to continue, no matter what 
you do on civil nuclear cooperation. That's why my point is 
that, to the degree that you play out civil nuclear 
cooperation, you really ought to keep it focused primarily--not 
totally, but primarily--on the nonproliferation area. That's 
where you need to play it.
    The next point is over whether or not disagreement is 
premature. I would argue it's overdue. You know, I've been 
through so many years of India. And, of course, as everyone has 
pointed out, they almost never last that long. India has long 
been the country that can't take yes for an answer. We know how 
difficult it is to deal with their domestic politics and with 
their regional problems. Having said that, I would argue that 
this deal, in some form, is long overdue.
    Now, let me join with almost all of the colleagues in this 
panel, and none of the colleagues in the previous panel, and 
say: Would I have wanted to do it exactly this way? Probably 
not. Could I have done better? How do I know? But, clearly, I 
think the more important point is, it's underway, and it is a 
process.
    Now, you can argue over who pays what when, but, in fact, 
the bad news, or good news, depending on your perspective, is, 
that's not resolved. And so, the Congress still has a chance to 
shape what's going to happen.
    But I thought a very important point was made today, which 
is that, right now, having gone to the--come to the Congress 
and said, ``We're not ready--going to be ready yet, til the 
Indians act,'' and having gone to the NSG and said, ``We're--
you know, we've still got to--work from the Indians,'' the ball 
is in the Indian court. They are going to have to pony up on 
the whole question of civil-military separation. And let me 
tell you something, that's going to tell a lot about whether 
this is going anywhere. And so, I think India needs to 
understand that. This will be a big symbol as to whether or not 
there's a ``there'' there.
    Finally, on this question of country-specific versus 
criteria, or norms versus bad-guy lists, it's an old issue, and 
some of my friends are for the criteria and some norms, and 
some of my friends are for the lists, and I, of course, am for 
my friends. The--but I think it's something you can't really 
understand until you try to work it specifically. But I will 
argue that the--one of the fundamental weaknesses in the 
nonproliferation regime today is that we try to apply general 
universal principles to very different particular cases, and we 
get into all kinds of trouble. And we've got to find a way to 
have what is a norm, the norm; what are guidelines, guidelines. 
And when you have to go down and engage on specific problems, 
how do you tailor them to the problem? And so, in this case, I 
think that we're not talking about a lot of cases. We're 
talking India, Pakistan, and Israel. And I think we can start--
ask, ``Well, are there criteria that apply to all, or are there 
enough differences, or are there ways to capture what it is 
that's different?''
    So, I've gone on at length, but what I wanted to do was, 
kind of, energize the discussion and say, we've got a lot of 
agreement here, but I think we also have a lot of smoke.
    The Chairman. Well, that's a terrific response. You have 
energized all of us.
    Now, let me ask Senator Biden for his questions.
    Senator Biden. No, if anyone else wishes to----
    The Chairman. Would anyone like to enter into this?
    Yes, Mr. Sokolski.
    Mr. Sokolski. Just briefly. By the way, if you spout off, 
it's a good thing, even if it--any time. I mean, the idea that 
you're going to be reckless, I just think is very harsh and 
unfair to yourself. [Laughter.]
    So, first thing----
    Senator Biden. But it would be nice to see. [Laughter.]
    Mr. Sokolski. You might----
    Senator Biden. I haven't seen it yet.
    Mr. Sokolski [continuing]. You might surprise us all. 
[Laughter.]
    So, don't worry about that. I think you overcompensated. 
[Laughter.]
    Second of all, if you are worried about that, or you think 
some of your colleagues will spout off and you're worried about 
that, how about just asking questions? You have an oversight 
role, and this hearing--I can tell you, a lot of people got 
spun up trying to get their charts ready and trying to figure 
out how to shape what the message is. The more, the better. 
This is your legitimate constitutional role. So, when I said 
``get briefings,'' if you don't like those questions, come up 
with others, but that is your role, and there are plenty of 
questions here.
    Finally, last point, I cannot imagine the relations between 
our country and India being anything but better and better and 
better--dare I say it?--almost irrespective of what our two 
governments do. And if you have any doubt about that, fill out 
your tax forms with TurboTax. [Laughter.]
    Because if you've got a question, you know who's going to 
answer it?
    The Chairman. Bangalore. [Laughter.]
    Mr. Sokolski. You've got that one right. And if you have 
any American students that are studying, and they have 
questions on their Web site education, when it has to do with 
natural science or math, it's Bangalore again. And it seems to 
me that if you go to our universities, you'll see a lot of 
Indian students. That isn't going to change. That's going to 
just become more and more the case. And the two more neuralgic 
topics, according to my former boss, Harry Rowen--if you want 
to get into a really difficult conversation with an Indian--is 
to talk about nuclear weapons and ICBMs and space launch 
vehicles and civil nuclear power. The rest of the deals--and 
there are a lot of them in that July 18 gathering--were pretty 
darn sound. And I would focus on them. And you will not do 
anything but improve our relations if you do.
    The Chairman. Thank you. I would just say, anecdotally, I 
had spent the noon hour listening to Tom Friedman and his 
discussion of ``The World is Flat'' again. He pointed out that 
there are, of course, not only Indian students here, but a lot 
of Americans interning at Indian firms, a horde of them, on the 
anticipation that they will be involved in the management of 
businesses there, quite irrespective of what we're talking 
about today. The rush is on. But that's a different field 
altogether.
    Mr. Sokolski. If you go to Silicon Valley, every one of the 
units working on anything that's making money is one-third 
Asian, one-third Caucasian, one-third Indian.
    The Chairman. Yeah. Yeah.
    Ash.
    Mr. Carter. Yeah, I'll be very brief. But, just to respond 
directly to your question, I think that your question is 
exactly the one that I have posed to myself, and that is: ``How 
do we be constructive at this point?'' I made it clear I 
wouldn't necessarily have chosen this moment to make this deal. 
Our President has. We are where we are, and we ought to try to 
make the best of it. And it seems to me, that has two 
dimensions to it. One is to make it as clear as we can to India 
what our expectations are for the upside, why we're willing to 
take this leap and this risk. And that's what my list 
represents, the things that we would hope, over time, develop 
in the way of benefits to us. And the second is that we've paid 
a price; there is some damage--I wouldn't call it ``grievous''; 
I called it ``appreciable'' in my statement--to the 
nonproliferation system, and we ought to try to be softening 
that downside, minimizing that damage.
    So, maximizing the upside benefits, making clear what we 
hope to get out of it, and trying to get as much momentum going 
as possible so we realize those benefits, though I understand 
Michael's skepticism that we will fully realize them; and then, 
second, recognizing that we're making an exception here that 
necessarily entails some damage, and being up front about 
limiting that damage. And if we can spell both of those steps 
out, the actions pursuant to both of those steps, that's how I 
think we capitalize on the promise here and soften the 
downside.
    The Chairman. Michael.
    Mr. Krepon. Mr. Chairman, you're already making headway. 
The State Department's testimony today is far more specific 
than it has been. It's more forthcoming. It lays down markers. 
So, you're making progress. And I--the more you and Senator 
Biden and others work on this, I think, the more progress 
you're going to make.
    Ash, your list of expectations is going to be explosive in 
India. It's going to be viewed as yet more evidence that the 
United States intends to have India on a leash on issues that 
matter more to the United States than India. And that's 
poisonous for this deal. So, just a warning flag on that.
    The Chairman. Well, the whole hearing may be seen as 
provocative. [Laughter.]
    Now, isn't it time for Senator Biden to speak and temper 
this whole thing? [Laughter.]
    Senator Biden. Oh, there's nothing--everything's perfectly 
clear. [Laughter.]
    Your advice is consistent and totally contradictory. 
[Laughter.]
    The goals are clear. I'm just not sure how to get from here 
to there. As I think you said, Mr. Lehman, the bottom line of 
all this is, unless there is an amendment or a change of some 
kind in the NPT, we're never going to be at the point where we 
say that India is treated the same as other states, no matter 
how we dance around it.
    You know, I think the most frustrating part of sitting on 
this committee during the tenure of seven different Presidents 
has been the reality that many times we're left with only 
Hobson's choices. We don't get to make foreign policy. We 
impact on it. We slow it up. We help it detour. Let's assume 
the House or the Senate derails this agreement. I think there 
would be consequences. The President has already put this in 
motion; notwithstanding the fact that India is a democracy and 
understands how we work and that you need the Congress for this 
kind of thing, I don't know. The agreement's a pretty powerful 
tool in India. And I know you've all spoken to that, to some 
degree. You know, you have to take into account some of that. 
And you have to factor it in how we proceed from here.
    And I agree with you, Michael, that laying out, explicitly, 
and codifying in this agreement our expectations--I know you're 
suggesting we codify them, but codifying the expectations, that 
is pretty explosive stuff in India. But the flip side of that 
is, trying to figure out a noncountry-specific approach--
effectively amending the NPT--that, also, is pretty difficult, 
and probably not doable in the near term.
    So, having said all that, I'm not confused, in that I fully 
understand what each of you said, but perplexed as to which 
avenue to choose. Your point about our responsibility to 
exercise this oversight, set conditions, if we think they're 
appropriate, that's a lot easier to say than to do.
    I've just arrived at two general conclusions, Mr. Chairman. 
One, this is a train that's left the station, and stopping it 
will have consequences. How serious the consequences are is 
debatable. Trying to catch up and add more cars to the train, 
I'm not so sure what that does. And--to keep this ridiculous 
metaphor going--instructing the engineer which track to turn 
onto, because you expect that of them, that's also pretty hard. 
So, I guess what we'll do is, we'll, kind of, muddle through 
here. What I'm going to do is try to digest and try to combine 
the advice we've gotten here, just to figure out what we do 
from here.
    And, by the way, I apologize for not being here for your 
testimony. One of the few benefits of not being the chairman is 
that I was able to leave and go to a memorial service for 
Gaylord Nelson. I know you wanted to be there, Mr. Chairman. 
You couldn't do that. But I had the luxury of being able to 
meet that obligation and not be here. So, I apologize for not 
being here for your statements.
    One additional complicating feature is the implications of 
India's emphasis upon breeder reactors for civil nuclear power 
production. Does that--because it gives a potential breakout 
capacity--does that complicate matters?
    Mr. Sokolski. Two comments. First, you get to legislate. 
You don't have to change the NPT. It's the Atomic Energy Act, 
which is your baby. You get direct referral. That's the reason 
why all----
    Senator Biden. Well, no, I'm not suggesting we don't have 
the authority to do this.
    Mr. Sokolski. Oh, no, no, no.
    Senator Biden. I'm not talking about that.
    Mr. Sokolski. No, no. You--if you do not do anything, and 
you let the administration--which, by the way, came here for a 
reason; they want you to change the law, or to do a Brownback 
amendment, maybe, where you, kind of, do a sleight of hand, 
which deflects the Atomic Energy Act in this one case. They 
need something from you. They will either get it, or they'll 
get something different. That is for sure. Those are your 
options. So, you're going to be forced to act, one way or the 
other, but there are consequences.
    My hunch is this. The pace and importance of the nuclear 
and space portions of what is a much larger set of deals is 
something you can dictate; and you need to, with regard to the 
other cases that you're afraid be affected if you don't do the 
right thing. And the Atomic Energy Act is something the Nuclear 
Suppliers Group is watching--they're looking to see what this 
committee and the House committee and the Energy committees do. 
When they see you move forward, they'll move forward. And, by 
the way, I'd bet you'll move forward when you see them move 
forward. You're going to be watching one another.
    So, you're very important. You're very important. And this 
deal, and its majority characteristics, will go forward, with 
or without the space and nuclear portion, immediately. I don't 
think you have to worry about that. They would like to get the 
space and nuclear deals done, but maybe they come later. You 
remember the Chinese experience. Thirteen years it took before 
they got their U.S. nuclear cooperative deal. Things didn't 
fall apart over that. And it was a good period of time to wait 
to get the Chinese to behave a little bit better.
    Now, with regard to breeders, it is very important that you 
understand that their nuclear program--and that matter about 
breeder reactors is discussed in length in this paper--is one 
of the reasons why the nuclear energy program in India is so 
impractical even to help. They have to drop the breeder reactor 
thorium fuel-cycle approach that they've got if we're to even 
begin to help them dig their way out with any kind of expansion 
of nuclear power. And it will take a long time. That's the 
reason why this is the least leveraged of the things you can do 
to help their energy needs or to clean up their energy 
consumption. It's a very long and distant pole in the tent. And 
one of the reasons is the breeder reactor program.
    Mr. Carter. Senator, may I address your concerns?
    I accept that the statement of the list of expectations 
that I named as a statement of American expectations, ``By God, 
we expect it next year,'' would be inflammatory in Delhi. 
Still, in all, that really is what we're expecting of a 
strategic partnership from India. And I think it's fair, and in 
the spirit of the strategic partnership, for us to be clear 
about that. That's not the same as putting a ring in the nose 
of another nation or establishing benchmarks. But that is the 
American expectation, and, I think, phrased in that way, can 
and will be shared, over time--or at least that's the promise 
of this agreement. And I don't think you ought to be shy--or we 
ought to be shy, collectively--about saying that.
    Second, there's another kind of death for this agreement 
that's not the death of the Congress deciding that this was a 
mistake and it's not going to play ball--which I do not 
recommend, and I know you were not stating that as your view, 
either--and that's the death of a thousand cuts. For us to get 
into a protracted negotiation with the Indians about the 
nuclear details of this is to recapitulate the whole problem of 
the relationship that this deal is supposed to transcend.
    And so, I would say that the witnesses here--they've not 
confused me. These panelists, and those that have--I've read 
elsewhere, have been broadly consistent. There are a few things 
that the administration seems willing to add to its negotiation 
with the Indians, which will go a long way toward softening the 
downside of making this deal. They're very clear. And I think 
that, provided the Indians don't haggle over them, and we don't 
unnecessarily haggle over them, we can get through this. But 
for us to, again, look at this as a nuclear deal, and we put 
our nuclear doctors and they--but I say this with great respect 
as a physicist, myself--but put the two parties that have had 
the greatest difficulty surmounting the nuclear issue for 30 
years in a room and ask them to work out the details, that's a 
formula for a death of a thousand cuts. And I think that we 
need to be cleaner than that.
    You have before you some recommendations--there are several 
different flavors here, but they're all the same product--for 
clarifying and softening the downside of the nuclear exception, 
which is unquestionably being offered to India here. Let's pick 
one and move on.
    Senator Biden. Thank you.
    The Chairman. Gentlemen, we thank you very, very much for 
not only your testimony, but, likewise, for your good counsel, 
which we have been seeking, obviously, in these questions, 
because it is important that we act responsibly and in a timely 
manner. This is the purpose of the hearing, to gain insights 
from the administration as they're proceeding, but, likewise, 
to have the benefit of the views of each of you, as experienced 
veterans of the trail.
    We thank you for your testimony and your responses to our 
questions. The hearing is adjourned.
    [Whereupon, at 5:34 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Senator Russell D. Feingold, U.S. Senator From 
                               Wisconsin

    Mr. Chairman, today's hearing on potential United States-Indian 
nuclear energy cooperation and its security and nonproliferation 
implications is extremely important and I am pleased that this 
committee will be taking a close look at this complex issue today. I 
was troubled by the July 18, 2005, Joint Statement made by President 
Bush and Indian Prime Minister Singh that included a promise of 
increased nuclear cooperation. The President's promise will require 
Congress to take legislative action, changing laws and policies that 
are decades old and that are key to our national security. Did the 
President bother to consult with Congress before negotiating changes in 
U.S. legislation with a foreign country? The answer, unfortunately, is 
``No.'' In what has become a well-established pattern, this 
administration has acted unilaterally to reverse well-established 
policies, completely ignoring the elected representatives of the 
American people in the legislative branch.
    In ignoring Congress and making a promise of increased nuclear 
cooperation, a promise he was not in a position to make, the President 
has put this committee and the Congress in a difficult position. He has 
raised great expectations within India, a nation of growing importance 
to the United States. If Congress is perceived as not living up to the 
President's promise, an effort to bolster United States-India relations 
could backfire badly. However, with an issue as important as nuclear 
cooperation, it would be irresponsible for Congress to endorse the 
President's proposal without taking a close look at it. The difficult 
position in which we find ourselves could have been entirely avoided, 
of course, if the President had simply respected the constitutional 
role of this body.
    Mr. Chairman, it is our duty to thoroughly explore the broad 
implications of nuclear cooperation with India and carefully weigh our 
options before we change well-established national security policy. 
This hearing is a key first step. I look forward to today's testimony 
and to this committee's continued work on this important foreign policy 
matter.
                                 ______
                                 

Statement of Stephen G. Rademaker, Acting Assistant Secretary of State 
  for International Security and Nonproliferation, State Department, 
 Washington, DC, Before the NSG Consultative Group, October 18-19, 2005

    Mr. Chairman, I'm pleased to be here to outline the United States 
proposal for civil nuclear cooperation with India and address any 
questions you may have. You have just heard Assistant Secretary Rocca 
place the initiative in the broader context of United States-India 
relations, including our dialog and cooperation on future energy 
resources. I would now like to take a few minutes to address more 
specifically the nonproliferation aspects of the initiative. For more 
detailed information on the initiative and on our proposed approach to 
the NSG you can reference the paper just distributed,
    As Assistant Secretary Rocca has stated, the United States has 
worked to establish a strategic partnership with India that encourages 
India's continued emergence as a positive force on the world scene. An 
important component of this partnership is a landmark agreement with 
India to work toward full cooperation in the civil application of 
nuclear energy--while strengthening the nuclear nonproliferation 
regime. This includes our commitment to work with our other friends and 
allies to enable such cooperation.
    Let me first say a word or two about what this initiative is not. 
It is not about nuclear weapons, and the United States has no intention 
to support India's weapons program. Neither do we intend to recognize 
India as a nuclear weapon state under the nuclear Nonproliferation 
Treaty, or renegotiate the treaty itself. Nor do we have any intention 
of undercutting the Nuclear Suppliers Group, an important 
nonproliferation policy tool. We view India as a special case, and have 
no plans to extend similar cooperation to other states.
    Rather, the initiative calls for concrete steps by India that 
clearly further international nonproliferation goals--key 
nonproliferation commitments that will bring India for the first time 
into the mainstream of the international nuclear nonproliferation 
community. These include commitments to:

  <bullet> Identify and separate civilian and military nuclear 
        facilities and programs and file a declaration with the 
        International Atomic Energy Agency (IAEA) regarding its 
        civilian facilities;
  <bullet> Place voluntarily its civilian nuclear facilities under IAEA 
        safeguards;
  <bullet> Sign and adhere to an Additional Protocol with respect to 
        civilian nuclear facilities;
  <bullet> Continue its unilateral moratorium on nuclear testing;
  <bullet> Work with the United States for the conclusion of a 
        multilateral Fissile Material Cut Off Treaty (FMCT) to halt 
        production of fissile material for nuclear weapons;
  <bullet> Refrain from the transfer of enrichment and reprocessing 
        technologies to states that do not have them and support 
        efforts to limit their spread; and
  <bullet> Secure nuclear and missile materials and technologies 
        through comprehensive export control legislation and adherence 
        to the Missile Technology Control Regime (MTCR) and Nuclear 
        Suppliers Group (NSG).

    India's commitment to separate its civil and military facilities 
and place its civil facilities and activities under IAEA safeguards 
will help protect against diversion of nuclear material and 
technologies either to India's weapons program or to the weapons 
programs of other countries.
    By adopting an Additional Protocol with the IAEA, India will commit 
to reporting to the IAEA on exports of all Trigger List items. This 
will help the IAEA track potential proliferation elsewhere.
    By committing to adopt strong and effective export controls, 
including adherence to NSG and MTCR Guidelines, India will help ensure 
that its companies do not transfer sensitive weapons of mass 
destruction (WMD) and missile-related technologies to countries of 
concern.
    By themselves, India's commitments are significant. Collectively, 
and when implemented, they will constitute a net gain for 
nonproliferation. Of course the initiative is not without challenges. 
India's separation of its civil and military facilities must be 
credible and defensible from a nonproliferation standpoint. It must 
strengthen the nuclear nonproliferation regime and provide strong 
assurances to supplier states and the IAEA that materials and equipment 
provided as part of civil nuclear cooperation will not be diverted for 
military purposes. And, of course, we intend to work with NSG partners 
to devise a strategy to permit such cooperation in ways that will not 
undermine the effectiveness of the NSG regime itself.
    This is a challenging undertaking, but one that will, in the end, 
produce rewarding nonproliferation dividends. So, over the months ahead 
the United States looks forward to working with our partners in the 
Nuclear Suppliers Group to accomplish our objective. In our initial 
discussions, several states have indicated their agreement on the need 
to come to terms with India--a state which developed nuclear weapons 
outside the nonproliferation regime and which faces extraordinary 
energy needs ahead. We have already received several expressions of 
support for this effort to date, including by the Director General of 
the IAEA and states such as the United Kingdom, France, Australia, and 
Russia.
    We believe that India's implementation of its commitments under 
this initiative will, on balance, enhance global nonproliferation 
efforts. The international nuclear nonproliferation regime will emerge 
stronger as a result. Obviously much depends on the progress that India 
makes. We continue to work with them to move the process forward.
    Thank you.
                                 ______
                                 

       Letter to Senator Richard G. Lugar From Robert J. Einhorn

                                                  October 28, 2005.
Hon. Richard G. Lugar,
Chairman, Senate Foreign Relations Committee,
Washington, DC.
    Dear Senator Lugar: I'm sorry that, because of a long-standing 
commitment to be in Moscow next week, I will not be able to attend the 
Nonproliferation PAG meeting or appear as a witness at the SFRC's 
hearing. I would nonetheless like to convey to you and members of the 
PAG my thoughts on the issues you will be discussing.
    Please find below answers to the questions posed to us by Tom 
Moore. I am also attaching a one-page summary of my recommendations for 
modifying U.S. law and the Nuclear Suppliers Group guidelines as well 
as my prepared statement for a hearing held by the House International 
Relations Committee this past Wednesday, October 26. I would appreciate 
it if these papers could be circulated to PAG members.
1. Why does civil nuclear cooperation weigh so heavily in U.S.-Indian 
        relations?
    A key reason is the huge expansion of Indian energy needs in coming 
decades. Although the role that nuclear power can realistically play in 
meeting those needs is exaggerated by India's influential nuclear 
lobby, it is clear that nuclear will be an increasing share of India's 
future energy mix. Moreover, given India's limited domestic supplies of 
natural uranium, its ability to import yellowcake--which it cannot do 
under current Nuclear Suppliers Group restrictions--has become a 
critical requirement if India's nuclear energy program is to expand.
    But there is also a political reason why the nuclear issue weighs 
so heavily. Civilian nuclear cooperation with the United States and 
other NSG members has been the forbidden fruit that Indian political 
elites crave. More than anything else, U.S. willingness to set aside 
NPT-related rules to engage in nuclear cooperation with India has been 
sought by Indians as both a validation of their status as a nuclear 
weapon state and as a litmus test of the U.S. desire to transform the 
bilateral relationship.
2. How does the Joint Statement address U.S. nonproliferation concerns?
    The United States has long urged India to align its policies and 
practices more closely with the international nonproliferation regime 
and, in general, to make its own contribution toward strengthening that 
regime. The Joint Statement brings India a few steps closer to the 
nonproliferation mainstream, but the benefits are limited.
    Most of India's pledges in the Joint Statement are either 
reaffirmations of existing positions (to continue its unilateral 
moratorium on nuclear testing, strengthen its export control system, 
and work toward a fissile material cutoff treaty), codifications of 
current Indian practices (no transfers of enrichment or reprocessing 
technology to states without fuel-cycle facilities), or announcements 
of steps India had already agreed to take in the context of an earlier 
bilateral dialog on technology transfer and export control (adherence 
to the NSG and MTCR guidelines).
    The genuinely new Indian commitment is the pledge to separate 
civilian and military nuclear facilities and to place civilian 
facilities under IAEA safeguards and the Additional Protocol. This has 
the symbolic value of helping reduce the perceived discrimination 
between countries that are obliged to accept safeguards on all their 
facilities and those that are not. But at this stage we don't know how 
complete will be the list of facilities India designates as civilian. 
And regardless of how inclusive or selective the list turns out to be, 
the pledge will not affect India's ability to continue producing 
fissile material for nuclear weapons at facilities not designated as 
eligible for safeguards. Without a halt to such production, the U.S.-
India deal could facilitate an increase in India's stock of bomb-usable 
nuclear material (see my HIRC testimony).
    In a serious omission, the July 18 agreement doesn't call on India 
to play a more active role in helping address today's most acute 
proliferation challenges, especially Iran. India's ``yes'' vote on the 
recent IAEA Board resolution that found Iran in noncompliance with its 
nonproliferation obligations was a welcome step. But since then, the 
Indians have tried to mollify the Iranians, saying that they actually 
oppose the finding of noncompliance and that they had voted for the 
resolution only because that was necessary to get the Europeans to back 
down from pursuing referral to the U.N. Security Council. The key test 
will be whether India makes a sustained and determined effort in the 
months ahead to persuade Iran to forgo its own enrichment capability 
and whether, if it becomes necessary, India votes yes to refer the 
question to the Security Council.
3. What are the risks of the deal and how can they be minimized?
    Following are among the risks if the deal goes forward as it 
currently stands:

  <bullet> By seeking an exception to the rules for India, the deal 
        will make others less inhibited about engaging in risky nuclear 
        cooperation with friends of their own--Iran in the case of 
        Russia, Pakistan in the case of China.
  <bullet> Bush administration initiatives in the NSG to tighten export 
        controls will be harder to achieve if at the same time we're 
        asking the Group to relax the rules for India.
  <bullet> By sending the signal that the United States will eventually 
        accommodate a decision to acquire nuclear weapons, the deal 
        will reduce the perceived costs to states that might in the 
        future consider going nuclear.
  <bullet> It will make it more difficult to address proliferation 
        challenges such as Iran. The Iranians have won some support 
        internationally by asking publicly why they, as an NPT party, 
        should give up their right to an enrichment capability while 
        India, which rejected the NPT and acquired nuclear weapons, is 
        being offered nuclear cooperation.
  <bullet> In general, the deal conveys the message that the United 
        States now gives nonproliferation a back seat to other foreign 
        policy goals--which will give others a green light to assign a 
        higher priority to commercial and political interests relative 
        to nonproliferation.

    Among the ways of minimizing these risks are the following 
recommendations:

  <bullet> Require that India stop producing fissile materials for 
        nuclear weapons, perhaps as part of a multilateral moratorium. 
        This would bring India in line with the practices of the five 
        original nuclear powers, all of whom have already stopped. A 
        multilateral moratorium would help fight nuclear terrorism by 
        capping stocks of bomb-grade material worldwide and thereby 
        making those stocks easier to secure.
  <bullet> Urge India to use its standing with Iran and the NAM to 
        press Iran to give up its enrichment and other fuel-cycle 
        capabilities.
  <bullet> Preserve a semblance of the long-standing ``NPT preference 
        policy'' by maintaining a distinction between India and NPT 
        parties in terms of the nuclear exports they would be eligible 
        to receive. Accordingly, U.S. law and NSG guidelines should be 
        modified to permit nuclear exports to India except equipment, 
        materials, or technology related to enrichment, reprocessing, 
        and heavy water production. This would permit India to acquire 
        uranium, enriched fuel, and nuclear reactors, but not items 
        most closely related to a nuclear weapons program. Moreover, in 
        keeping with U.S. NPT obligations and existing U.S. law, we 
        should allow nuclear exports to India only to facilities that 
        are under IAEA safeguards in perpetuity--not to facilities 
        under voluntary safeguards arrangements that allow countries to 
        withdraw materials or facilities from safeguards for national 
        security reasons.
  <bullet> Pursue changes to U.S. law and NSG guidelines in a country-
        neutral manner--not as a special exception to the rules for 
        India alone. An India-specific approach heightens concerns that 
        the United States is acting selectively and self-servingly on 
        the basis of its own foreign policy interests rather than on 
        the basis of nonproliferation performance. Modified U.S. law 
        and NSG guidelines should therefore permit nuclear cooperation 
        with any state not party to the NPT that meets certain criteria 
        of responsible nuclear behavior. Such criteria can avoid the 
        pitfalls of making a country-specific exception without opening 
        the door to nuclear cooperation in cases where it is clearly 
        not yet merited. (Suggested criteria are contained in the 
        attached one-page paper.)

    I hope these responses to Tom Moore's questions and the attached 
papers can be of some assistance to you next week in your meetings on 
the U.S.-India nuclear deal.
            Yours truly,
                                                    Robert Einhorn.
                                 ______
                                 

        Recommended Modifications of U.S. Law and NSG Guidelines

    Nuclear cooperation--except in the areas of enrichment, 
reprocessing, or heavy water production or with facilities not under 
IAEA safeguards in perpetuity--would be permitted with any state not 
party to the NPT as of January 2002 * that has demonstrated a strong 
commitment to nuclear nonproliferation and has a sustained, consistent 
record as a responsible nuclear power. Such a state will be considered 
a responsible nuclear power if it:

  <bullet> Has provided public assurances that it will not test nuclear 
        weapons;
  <bullet> Is not producing fissile materials for nuclear weapons;
  <bullet> Has placed under IAEA safeguards its civil nuclear 
        facilities, including all nuclear power reactors and R&D 
        facilities related to electricity generation;
  <bullet> Is playing an active and constructive role in helping 
        address acute nuclear proliferation challenges posed by states 
        of proliferation concern;
  <bullet> Has established, and is rigorously implementing, a national 
        export control system that meets the highest international 
        standards, including stringent rules and procedures banning 
        unauthorized contacts and cooperation by personnel with nuclear 
        expertise;
  <bullet> Has provided public assurances that it will not export 
        enrichment or reprocessing equipment or technologies;
  <bullet> Is working actively on its own and in cooperation with other 
        countries in stopping illicit nuclear transactions and 
        eliminating illicit nuclear commercial networks, including by 
        fully sharing the results of any investigations of illicit 
        nuclear activities; and
  <bullet> Is applying physical protection, control, and accountancy 
        measures meeting the highest international standards to any 
        nuclear weapons and to all sensitive nuclear materials and 
        installations, both military and civilian, on its territory.

    Under modified U.S. law, in order to make a nonparty to the NPT 
eligible to receive U.S. nuclear exports, the President would be 
required to certify that the prospective recipient had met these 
criteria. The criteria could also be adopted by the NSG as criteria for 
deciding, by consensus, whether a particular nonparty to the NPT should 
be eligible for nuclear transfers from NSG member states.

    * To avoid creating an incentive for countries to withdraw from the 
NPT, the modified rules should apply only to countries that were 
outside the NPT as of a specified date, which would be chosen to 
exclude North Korea and include only India, Pakistan, and Israel.
                                 ______
                                 

     Prepared Statement of Hon. Robert J. Einhorn, Senior Adviser, 
International Security Program, Center for Strategic and International 
                        Studies, Washington, DC

    Mr. Chairman, thank you for the opportunity to testify before the 
committee on the nonproliferation implications of the recent agreement 
between the United States and India on civil nuclear cooperation.
    The United States has an important national interest in 
strengthening relations with India and making it a strategic partner in 
the 21st century. But efforts to strengthen the United States-Indian 
relationship should not be pursued in a way that undermines a United 
States national interest of equal and arguably greater importance--
preventing the proliferation of nuclear weapons. That is precisely what 
the Bush administration has done in the nuclear deal reached this past 
summer during Prime Minister Manmohan Singh's visit to Washington.
    In the Joint Statement released on July 18, India agreed to take 
several steps to demonstrate its commitment to being a responsible 
nuclear power and a supporter of nonproliferation goals. In exchange, 
the United States administration agreed to seek changes in United 
States law and multilateral commitments to permit exports of nuclear 
equipment and technology to India--a radical departure from 
longstanding legal obligations and policies that precluded nuclear 
cooperation with states not party to the Nonproliferation Treaty (NPT).
    Administration officials have claimed that the deal, by aligning 
India more closely with the policies and practices of the international 
nonproliferation regime, is a net gain for nonproliferation. In his 
testimony before this committee on September 8, Under Secretary of 
State Robert Joseph maintained that ``India's implementation of its 
agreed commitments will, on balance, enhance our global 
nonproliferation efforts, and we believe the international nuclear 
nonproliferation regime will emerge stronger as a result.'' Upon close 
scrutiny, however, it appears that the nonproliferation benefits of the 
July 18 Joint Statement are rather limited.

                   NONPROLIFERATION GAINS ARE MODEST

    Several of the steps pledged by India are simply reaffirmations of 
existing positions, including India's commitments to continue its 
unilateral moratorium on nuclear weapons testing, strengthen its 
national system of export controls, and work toward the conclusion of a 
multilateral fissile material cutoff treaty. In view of unsuccessful 
efforts for over a decade to get negotiations underway on a fissile 
material cut-off treaty and no near-term prospect of removing obstacles 
to beginning negotiations, this last pledge is unlikely in the 
foreseeable future to have any effect on India's ongoing program to 
produce more fissile materials for nuclear weapons.
    Other Indian commitments in the Joint Statement break new ground, 
but their actual nonproliferation gain is modest. For example, the 
pledge to refrain from transferring enrichment and reprocessing 
technologies to countries that do not already possess them is welcome. 
But since India--to its credit--has never transferred those 
technologies and has no plans to do so, it will have little practical 
consequence. Moreover, adherence to the guidelines of the Missile 
Technical Control Regime and the Nuclear Suppliers Group (NSG) is also 
positive; but it is a step New Delhi was already planning to take 
before the July 18 Joint Statement as part of a United States-Indian 
dialog on technology transfer and export control called ``Next Steps in 
the Strategic Partnership.''
    The commitment that has drawn the most criticism within India is 
the pledge to separate civilian and military nuclear facilities and 
place civilian facilities voluntarily under IAEA safeguards and the 
Additional Protocol. Indian critics claim that, because of the 
colocation of civilian and military activities at a number of Indian 
nuclear facilities, implementation of the commitment could be expensive 
and time consuming and could impose unwarranted constraints on military 
programs. In response to these concerns, Indian officials have stressed 
that India alone will decide which facilities are subject to safeguards 
and have suggested that only a relatively small number will be put on 
the civilian list. While recognizing that the designation of civilian 
facilities (i.e., those eligible for safeguards) is an Indian 
prerogative, United States officials have made clear that, to be 
credible, any list should be complete.
    However, regardless of how inclusive or selective the list turns 
out to be, the nonproliferation value of India's commitment to place 
certain nuclear facilities under IAEA safeguards will be rather 
limited. The purpose of IAEA safeguards for non-nuclear weapon states 
party to the NPT is to verify that no nuclear materials are diverted to 
a nuclear weapons progam. But as long as India continues to produce 
fissile materials for nuclear weapons (at facilities not included on 
the safeguards list), its willingness to apply safeguards to facilities 
designated as civilian serves primarily a symbolic function--to reduce 
the perceived discrimination between countries that are obliged to 
accept safeguards on all their facilities and those that are not.Beyond 
this symbolic value, willingness to put civilian facilities under 
safeguards also serves a more practical function. If members of the 
Nuclear Suppliers Group change their rules and permit nuclear 
cooperation with India, they will presumably confine such cooperation 
to safeguarded facilities in India. (NPT Article III(2) obliges them to 
engage in nuclear cooperation only with safeguarded facilities in 
nonweapon states. Since the Bush administration is not seeking to give 
India nuclear weapon state status under the NPT, III(2) will continue 
to apply to India.) The list of safeguarded Indian facilities will 
therefore serve to define the scope of permissible nuclear cooperation. 
For India, the trade-off will be between broadening the list (to expand 
opportunities for cooperation) and narrowing the list (to shield 
facilities from international scrutiny). However it chooses, the 
fundamental shortcoming of India's July 18 safeguards commitment 
remains--it has no effect on India's ability to continue producing 
fissile material for nuclear weapons at facilities not designated as 
eligible for safeguards.

                         DOWNSIDES OF THE DEAL

    Administration officials are right that the various pledges 
contained in the Joint Statement move India closer, both in rhetorical 
and practical terms, to the international nonproliferation mainstream 
it has shunned for over 30 years. Still, the nonproliferation gains of 
the United States-India nuclear deal are meager compared to the major 
damage to nonproliferation goals that would result if the deal goes 
forward as it currently stands.
    The United States-India deal would make it harder to achieve key 
Bush administration nonproliferation initiatives. The United States is 
now asking the 45-nation Nuclear Suppliers Group to permit nuclear 
cooperation only with countries that adhere to the IAEA's Additional 
Protocol and to ban transfers of enrichment and reprocessing 
technologies to states that do not already possess fuel-cycle 
facilities. But getting NSG partners to tighten the rules in ways 
favored by the United States will be an uphill battle if they are also 
being asked to bend one of their cardinal rules (i.e., no nuclear trade 
with nonparties to the NPT) because it no longer suits the United 
States.
    By seeking an exception to the rules to accommodate America's new 
special friendship with India, the deal would reinforce the impression 
internationally that the U.S. approach to nonproliferation has become 
selective and self serving, not consistent and principled. Rules the 
United States initiated and championed would be perceived as less 
binding, more optional. Russia and China would feel less inhibited 
about engaging in nuclear cooperation that the United States might find 
risky and objectionable with special friends of their own--Iran and 
Pakistan, respectively.
    The nuclear deal in its present form has produced resentment on the 
part of close United States friends like Japan, Germany, and Brazil who 
were forced to choose between nuclear weapons and civil nuclear 
cooperation. They chose the latter, giving up the weapons option and 
joining the NPT to realize the benefits of nuclear cooperation. Now 
that India has been offered the opportunity to have its cake and eat it 
too, many non-nuclear NPT parties feel let down. Not wishing to harm 
relations with either India or the United States, they are unlikely to 
make a public fuss over the sudden reversal of U.S. policy (on which 
they were not consulted). But they will be less inclined in the future 
to make additional sacrifices in the name of nonproliferation.
    The United States-India deal could also reduce the perceived costs 
to states that might consider ``going nuclear'' in the future. In 
calculating whether to pursue nuclear weapons, a major factor for most 
countries will be how the United States is likely to react. 
Implementation of the deal would inevitably send the signal, especially 
to countries with good relations with Washington, that the United 
States will tolerate and eventually accommodate to a decision to 
acquire nuclear weapons.
    In the near term, United States plans to engage in nuclear 
cooperation with India will make it more difficult to address 
proliferation challenges such as Iran. Of course, Iran's interest in 
nuclear weapons long predated the India deal. But the deal has 
strengthened the case Iran can make--and is already making--
internationally. Why, Iranian officials ask publicly, should Iran give 
up its right as an NPT party to an enrichment capability when India, a 
nonparty to the NPT, can keep even its nuclear weapons and still 
benefit from nuclear cooperation? It is an argument that resonates well 
with many countries and weakens the pressures that can be brought to 
bear on Tehran.
    In general, the Bush administration's policy shift conveys the 
message that the United States--the country the world has always looked 
to as the leader in the global fight against proliferation--is now de-
emphasizing nonproliferation and giving it a back seat to other foreign 
policy goals. Other countries can be expected to follow suit in 
assigning nonproliferation a lower priority relative to political and 
commercial considerations in their international dealings, and this 
would have negative, long-term consequences for the global 
nonproliferation regime.

                MAKING THE DEAL A NONPROLIFERATION GAIN

    The damage can be minimized--and the deal transformed from a net 
nonproliferation loss to a net nonproliferation gain--if several 
improvements are made in the course of implementing the July 18 Joint 
Statement, either by the Governments of India and the United States 
themselves, by the U.S. Congress in adopting new legislation, by the 
Nuclear Suppliers Group in modifying its guidelines, or by a 
combination of these.
    The most important improvement would be an Indian decision to stop 
producing fissile materials for nuclear weapons. India need not stop 
such production unilaterally, but as part of a multilateral moratorium 
pending completion of an international fissile material cutoff treaty. 
A multilateral production halt would make a major contribution to 
fighting nuclear proliferation and nuclear terrorism by capping stocks 
of bomb-making materials worldwide and thereby making those stocks 
easier to secure against theft or seizure--in India, Pakistan, or 
elsewhere.
    Without a moratorium on fissile material production, the United 
States-India deal could actually facilitate the growth of India's 
nuclear weapons capability. India's indigenous uranium supplies are 
quite limited. Under current nonproliferation rules--with India unable 
to buy natural uranium on the world market--India must use those 
limited supplies for both civil power generation and nuclear weapons, 
and the trade-off will become increasingly painful. Under new rules, 
India could satisfy the needs of the civil program through imports, 
freeing up domestic uranium supplies for the weapons program and 
permitting, if the Indian Government so decided, a continuing and even 
major increase in bomb-making material. A production moratorium would 
preclude such an increase.
    Indian Foreign Secretary Shyam Saran said in July that India ``is 
willing to assume the same responsibilities and practices--no more and 
no less--as other nuclear states.'' It so happens that the five 
original nuclear weapon states (United States, Russia, France, United 
Kingdom, China) have all stopped producing fissile materials for 
nuclear weapons. Applying the ``no more, no less'' standard, it would 
be reasonable to ask India to join the others. India claims that it 
does not have a strategic requirement for parity with the other nuclear 
powers (including China) and that it seeks only a ``credible minimum 
deterrent capability.'' If that is the case, then perhaps it can soon 
decide that it has sufficient plutonium for its deterrence needs and 
can afford to forgo further production.
    Another way to strengthen the July 18 agreement would be for India 
to assume a more active and constructive role in helping the United 
States address today's most acute proliferation challenges, especially 
the challenge posed by Iran. Given its desire to make Iran a long-term 
source of energy supplies, India has been reluctant to press Iran on 
its nuclear program. During a September visit to Tehran, Indian Foreign 
Minister Natwar Singh made public remarks supportive of Iran's position 
on the nuclear issue and critical of the approach taken by the United 
States. The remarks produced a sharp backlash by Members of Congress 
across the political spectrum, including several strong supporters of 
India, who made clear that India's failure to side with the United 
States on the Iran nuclear issue would jeopardize congressional support 
for the legislative changes needed to implement the United States-India 
nuclear deal.
    In response to these congressional warnings and tough messages 
conveyed in person by President Bush and Secretary Rice to their Indian 
counterparts, the Indians on September 24 joined the United States and 
Europeans in voting yes on an International Atomic Energy Agency Board 
resolution finding Iran in noncompliance with its nonproliferation 
obligations but deferring the matter of when and how the Iran question 
would be referred to the United Nations Security Council. This was a 
positive step but not yet an indication that India is prepared to use 
its influence in a sustained and determined way to get Iran to abandon 
its plans for an enrichment facility capable of producing both fuel for 
civil nuclear reactors and fissile material for nuclear bombs. Indeed, 
since the IAEA vote, the Indians have sought to mollify the Iranians, 
stating that they had acted in Iran's interest by persuading the 
Europeans to back down from seeking an immediate referral to the UNSC. 
The key test in the months ahead will be whether India makes a real 
effort to persuade Iran to forgo an enrichment capability and whether 
it eventually supports referral to the Council, which is required by 
the IAEA Statute after a Board finding of noncompliance.
    The risks of the nuclear deal could also be reduced by preserving 
some distinction between NPT parties and nonparties in terms of the 
nuclear exports they would be permitted to receive. A long-standing 
element of the nonproliferation regime has been the ``NPT preference 
policy''--giving NPT parties benefits in the civil nuclear energy area 
not available to those outside the NPT. The Joint Statement undermines 
that policy by calling for ``full'' nuclear cooperation with India. A 
way of maintaining some preferential treatment for NPT parties would be 
to modify U.S. law and the NSG guidelines to permit nuclear-related 
exports to nonparties except equipment, materials, or technologies 
related to sensitive fuel-cycle facilities, including enrichment, 
reprocessing, and heavy water production. Such a distinction would 
permit India to acquire natural uranium, enriched fuel, nuclear 
reactors, and a wide range of other nuclear items, but would retain the 
ban on transfers of those items that are most closely related to a 
nuclear weapons program.
    In addition to precluding any cooperation with India in the area of 
sensitive fuel-cycle capabilities (even under IAEA safeguards), the 
United States should permit cooperation in less sensitive nuclear areas 
only under safeguards. As noted earlier, India will remain a non-
nuclear weapons state (NNWS) as defined by the NPT, and Article III(2) 
allows nuclear exports to NNWSs only under IAEA safeguards. Moreover, 
consistent with existing U.S. law, such exports should only be 
permitted to facilities that are under safeguards in perpetuity (under 
facility-specific, or INFCIRC/Rev.2, safeguards agreements with the 
IAEA)--not to facilities under voluntary safeguards arrangements that 
allow countries to withdraw materials or facilities from safeguards for 
national security reasons. The choice would be up to India. If it 
wished to benefit from nuclear cooperation at a particular facility, it 
would have to put in place a facility specific safeguards agreement at 
that facility.
    Nonproliferation risks could also be reduced by implementing the 
nuclear deal in a country-neutral manner--not as a special exception to 
the rules for India alone. Although the administration has been slow to 
indicate how specifically it would seek to adjust United States law and 
NSG guidelines, it has suggested that one option would be to leave the 
general rules in place but waive their application in the special case 
of India because of its qualifications as ``a responsible state with 
advanced nuclear technology.'' A problem with that option is that it 
would accentuate concerns that the United States is acting selectively 
on the basis of foreign policy considerations rather than on the basis 
of objective factors related to nonproliferation performance. Moreover, 
in the Nuclear Suppliers Group, where changing the guidelines requires 
a consensus, some countries--notably China--might well resist a 
country-specific approach and press for permitting nuclear cooperation 
with other nonparties to the NPT with whom they are friendly (e.g., 
Pakistan).
    To avoid the pitfalls of making a country-specific exception 
without opening the door to nuclear cooperation in cases where it is 
clearly not yet merited, the administration should propose 
modifications of U.S. law and the NSG guidelines that would permit 
nuclear cooperation (except in sensitive parts of the fuel cycle or in 
unsafeguarded facilities) with any state not party to the NPT that 
meets certain criteria of responsible nuclear behavior. To avoid 
creating an incentive for countries to withdraw from the NPT, the 
modified rules should apply only to countries that were outside the NPT 
as of a specified date, which should be chosen to exclude North Korea 
and include only India, Pakistan, and Israel. For such non-NPT states 
to be eligible to receive U.S. nuclear exports under a revised U.S. 
law, the President should be required to certify that the state:

  <bullet> Has provided public assurances that it will not test nuclear 
        weapons;
  <bullet> Has provided public assurances that it will not produce 
        fissile materials for nuclear weapons and is fulfilling that 
        assurance;
  <bullet> Has placed under IAEA safeguards its civil nuclear 
        facilities, including all nuclear power reactors and R&D 
        facilities related to electricity generation;
  <bullet> Is playing an active and constructive role in helping 
        address acute nuclear proliferation challenges posed by states 
        of proliferation concern;
  <bullet> Has established, and is rigorously implementing, a national 
        export control system that meets the highest international 
        standards, including stringent rules and procedures banning 
        unauthorized contacts and cooperation by personnel with nuclear 
        expertise;
  <bullet> Has provided public assurances that it will not export 
        enrichment or reprocessing equipment or technologies and is 
        fulfilling that assurance;
  <bullet> Is working actively on its own and in cooperation with other 
        countries in stopping illicit nuclear transactions and 
        eliminating illicit nuclear commercial networks, including by 
        fully sharing the results of any investigations of illicit 
        nuclear activities; and
  <bullet> Is applying physical protection, control, and accountancy 
        measures meeting the highest international standards to any 
        nuclear weapons and to all sensitive nuclear materials and 
        installations, both military and civilian, on its territory.

    These criteria could be written into U.S. law. They could also be 
adopted by the NSG as criteria for deciding, by consensus, whether a 
particular nonparty to the NPT should be eligible for nuclear transfers 
from NSG member states. While such an approach would be country-
neutral, it would enable both the U.S. Government and NSG members to 
distinguish among the nonparties to the NPT in terms of whether--and 
how soon--they would be eligible for nuclear cooperation.
    Staunch supporters of the NPT can be expected to argue that these 
criteria do not go far enough--and that only NPT adherence should make 
a country eligible for nuclear cooperation. But it is unrealistic to 
expect India or the other nonparties ever to join the NPT, and 
continuing to insist on adherence as a condition for nuclear 
cooperation could forfeit the contribution to nonproliferation that 
steps short of NPT adherence could make.
    Those who strongly favor the July 18 Joint Statement can be 
expected to argue that the criteria are too demanding and could result 
in India's walking away from the nuclear deal. But even the most 
demanding criterion--ending fissile material production--is a step 
India, in principle, supports and says it is willing to take when its 
minimum deterrence needs are satisfied. If India is prepared now to 
stop production, it could readily meet the remaining criteria. If not, 
the door would be open for India to walk through at a time of its own 
choosing.
    The approach suggested here would clearly be less attractive to the 
Indians than the less demanding one that Bush administration was 
prepared to settle for on July 18. But it would be a major change from 
the status quo that has prevailed for decades, in which the door to 
nuclear cooperation for India and the other nonparties has been locked 
as a matter of law and policy.
    In its ardent desire to transform United States-Indian relations, 
the Bush administration has given too little weight to the damaging 
implications of its actions for the nonproliferation regime. The remedy 
should not be to reject the deal struck in July but to require that it 
be pursued in a way that enables the United States to advance its 
strategic goals with India as well as its nonproliferation interests--
not serve one at the expense of the other.
                                 ______
                                 

             India's ICBM--On A ``Glide Path'' to Trouble?

   (A Policy Research Paper by Dr. Richard Speier, October 26, 2005)

                              INTRODUCTION

    A glide path is the gentle course that an airplane follows as it 
descends to a safe landing. If the plane encounters an unexpected 
development, it can divert, regain altitude, and change its course.
    Because India has been developing nuclear weapons and missiles to 
deliver them, United States-Indian technology relations have for many 
years remained up in the air, not heading for a safe landing. After 4 
years of Bush administration negotiations the United States now 
describes its technology relations with India as being on a ``glide 
path.''
    This paper addresses the question whether, in view of India's 
abundantly reported intercontinental ballistic missile (ICBM) 
development, we should divert from our present ``glide path'' approach 
to space cooperation.
    On October 3, 2003, the Washington Post questioned Secretary of 
State Powell about the latest diplomatic developments with India.

          QUESTION: . . . last week, President Bush presented [Prime 
        Minister Atal Bihari] Vajpayee with what was called, like, a 
        ``glide path'' toward better relations. .  . .
          SECRETARY POWELL: . . . there was a basket of issues that 
        they were always asking us about called, well, we called it--we 
        nicknamed it, ``The Trinity.'' How could you help us? How can 
        we expand our trade in high tech areas, in areas having to do 
        with space launch activities, and with our nuclear industry? . 
        . . we also have to protect certain red lines that we have with 
        respect to proliferation, because it's sometimes hard to 
        separate within space launch activities and industries and 
        nuclear programs, that which could go to weapons, and that 
        which could be solely for peaceful purposes. . . . And the 
        ``glide path'' was a way of bringing closure to this debate.\1\
---------------------------------------------------------------------------
    \1\ http://www.washingtonpost.com/wp-dyn/articles/A41977-
2003Oct3.html. Italics added for emphasis.

    Nearly 2 years later, President Bush and the Indian Prime Minister 
---------------------------------------------------------------------------
confirmed this cooperation in a joint statement.

          . . . the two leaders resolve . . . Build closer ties in 
        space exploration, satellite navigation and launch, and in the 
        commercial space arena. . . .\2\
---------------------------------------------------------------------------
    \2\ The White House, Office of the Press Secretary, July 18, 2005, 
``Joint Statement Between President George W. Bush and Prime Minister 
Manmohan Singh,'' available at http://usinfo.state.gov. Italics added 
for emphasis.

    As this cooperation was being negotiated and agreed, reports 
persisted that India was preparing to produce an ICBM. These reports 
had been accumulating for over two decades.\3\ The latest public report 
appeared less than 6 weeks after the Presidents' joint statement.\4\
---------------------------------------------------------------------------
    \3\ For early reports see Islamic Defence Review Vol. 6/No. 4, 
1981; Maurice Eisenstein, ``Third World Missiles and Nuclear 
Proliferation,'' The Washington Quarterly, Summer 1982; ``Liquid Fuel 
Engine Tested for PSLV,'' Hindustan Times, New Delhi, December 13, 
1985, p.1; ``Growing Local Opposition to India's Proposed National Test 
Range at Baliapal, Orissa,'' English Language Press, October 1986; and 
``India Faces Rising Pressure for Arms Race With Pakistan,'' Christian 
Science Monitor, March 9, 1987, p.1.
    \4\ Madhuprasad, ``Boost to Indian Armed Forces' Deterrence 
Arsenal; India to Develop Intercontinental Ballistic Missile,'' 
Bangalore Deccan Herald in English, August 25, 2005.
---------------------------------------------------------------------------
    Over the last decade the reports have been consistent in avering 
that the ICBM will be called ``Surya'' and that hardware and technology 
for the ICBM will come from India's gigantic Polar Space Launch Vehicle 
(PSLV).
    What are the capabilities of the ICBM, and why does India want it? 
How did India acquire the space launch vehicle technology for the 
weapon? And how did the United States come to ride a ``glide path'' to 
space launch cooperation with India? These topics will be covered in 
turn.
India's ICBM--what and why
    In 1980s India adapted a space launch vehicle, the SLV-3, to become 
the Agni medium-range ballistic missile. In keeping with India's 
practice of describing nuclear and missile programs as civilian until 
their military character could not be denied, India originally claimed 
that the Agni was a ``technology demonstrator.'' The Agni program now 
consists of three missiles with ranges, respectively, of upwards of 
700, 2,000, and 3,000 kilometers.
    India may have officially begun the Surya project (also sometimes 
known as Agni IV) in 1994.\5\ Reports cite various dates perhaps 
because the project has several decision points. Reports generally 
agree that the Surya program, like the Agni program, will result in 
missiles with various ranges.
---------------------------------------------------------------------------
    \5\ Vivek Raghuvanshi, ``Indian Scientists Poised To Test-Launch 
Country's First ICBM,'' Defense News, April 30, 2001, p. 26.

  <bullet> Surya-1 will have a range of about 5,000 kilometers.\6\
---------------------------------------------------------------------------
    \6\ International missile nomenclature defines an ICBM as a 
ballistic missile with a range of 5,500 or greater. However, Indian 
commentators have tended to exaggerate their missiles' capabilities by 
bumping missiles into the next higher range classes.
---------------------------------------------------------------------------
  <bullet> Surya-2 from 8,000 to 12,000 kilometers.
  <bullet> Surya-3 up to 20,000 kilometers.

    Table 1 compares the Agni and Surya families of missiles.

                                TABLE 1.--THE AGNI AND SURYA MISSILE FAMILIES \7\
----------------------------------------------------------------------------------------------------------------
             Missile                      Size                Range               Mobile?        Probable Target
----------------------------------------------------------------------------------------------------------------
lxd.............................  (km) (m)
Agni-1..........................  15xl...............  700-1000+..........  yes...............  Pakistan
Agni-2..........................  20x1...............  2000-3000+.........  yes...............  China
Agni-3..........................  20x1 or 13x1.8.....  3000-5000+.........  yes...............  China
Surya-1.........................  35x2.8.............  -5000..............  no................  China
Surya-2.........................  40x2.8.............  8000-12000.........  no................  United States
Surya-3.........................  40+x2.8............  20000..............  no................  Global
----------------------------------------------------------------------------------------------------------------

    Reports agree that the Surya will have the option of a nuclear 
payload--and sometimes the claim is made that the payload will consist 
of multiple nuclear warheads.
---------------------------------------------------------------------------
    \7\ The low-end figures for the Agni family are commonly reported. 
The high-end figures are more uncertain. In the case of Agni-3, the 
high-end figures may relate to later Agni models or even to the Surya. 
Surya lengths are approximations based on the lengths of the PSLV and 
GSLV missile stages.
---------------------------------------------------------------------------
    Reports generally agree that the Surya will be a three-stage 
missile with the first two Surya stages derived from PSLV's solid-fuel 
rockets. India obtained the solid-fuel technology for the SLV-3 and the 
PSLV from the United States in the 1960s.\8\ The third Surya stage is 
to use liquid fuel and will be derived either from the Viking rocket 
technology supplied by France in the 1980s (called Vikas when India 
manufactured PSLV stages with the technology) or from a more powerful 
Russian-supplied cryogenic upper stage for the Geosynchronous Space 
Launch Vehicle (GSLV), which is an adaptation of the PSLV.
---------------------------------------------------------------------------
    \8\ Gary Milhollin, ``India's Missiles--With a Little Help from Our 
Friends,'' Bulletin of the Atomic Scientists, November 1989, available 
at http://www.wisconsinproject.org/countries/india/misshelp.html and 
Sundara Vadlamudi, ``Indo-U.S. Space Cooperation: Poised for Take-
Off?'', The Nonproliferation Review, Vol. 12, No. 1, March 2005, p. 
203.
---------------------------------------------------------------------------
    If--as reported--the Surya uses PSLV rocket motors, it will be an 
enormous rocket with solid-fuel stages 2.8 meters (about 9 feet) in 
diameter and a total weight of up to 275 metric tons. This will make it 
by far the largest ICBM in the world--with a launch weight about three 
times that of the largest U.S. or Russian ICBMs.
    There appears to be no literature on Indian plans to harden or 
conceal the Surya launch site or to make the missile mobile, any of 
which would be difficult to do because of the missile's size and 
weight. If a cryogenic third stage is used, the launch process will be 
lengthy. This means that the Surya is likely to be vulnerable to attack 
before launch, making it a ``first-strike'' weapon that could not 
survive in a conflict. Indeed, the Surya's threatening nature and its 
prelaunch vulnerability would make it a classic candidate for 
preemptive attack in a crisis. In strategic theory this leads to 
``crisis instability,'' the increased incentive for a crisis to lead to 
strategic attacks because of each side's premium on striking first.
    Why would India want such a weapon? The reported ranges of the 
Surya variants suggest the answer.

  <bullet> 5,000-kilometer Surya-1 might overlap the range of a 
        reported 5,000-kilometer upgrade of the Agni missile.\9\ Surya-
        1 would have only one advantage over such an upgraded Agni. 
        That advantage would be a far larger payload--to carry a large 
        (perhaps thermonuclear) warhead or multiple nuclear warheads. 
        India has no reason to need a missile of ``ICBM'' range for use 
        against Pakistan. 5,000 kilometers is arguably an appropriate 
        missile range for military operations against distant targets 
        in China. As illustrations of the relevant distances, the range 
        from New Delhi to Beijing is 3,900 kilometers, from New Delhi 
        to Shanghai 4,400 kilometers, and from Mumbai to Shanghai 5,100 
        kilometers.
---------------------------------------------------------------------------
    \9\ Moscow Agentstvo Voyennykh Novostey internet news service in 
English, 1252 GMT November 1, 2004; and a publication of more uncertain 
quality, Arun Vishwakarma, ``Agni--Strategic Ballistic Missile,'' April 
15, 2005, available at http://www.bharat-rakshak.com/MISSILES/
Agni.html. It is possible that either or both of these references have 
conflated the Surya-1 the Agri program.

  <bullet> An 8,000-to-12,000-kilometer Surya-2 would be excessive for 
        use against China. However, the distance from New Delhi to 
        London is 6,800 kilometers, to Madrid 7,400 kilometers, to 
        Seattle 11,500 kilometers, and to Washington, D.C., 12,000 
        kilometers. An Indian Defence Research and Development 
        Organisation (DRDO) official wrote in 1997, ``Surya's targets 
        will be Europe and the United States.'' \10\
---------------------------------------------------------------------------
    \10\ Wilson John, ``India's Missile Might,'' The Pioneer in 
English, New Delhi, July 13, 1997, p. l, available as FBIS-TAC-97-195 
BK1407155097, July 14, 1997
---------------------------------------------------------------------------
  <bullet> A 20,000-kilometer range Surya-3 could strike any point on 
        the surface of the Earth.

    Indian commentators generally site two reasons for acquiring an 
ICBM: To establish India as a global power and to enable India to deal 
with ``high-tech aggression'' of the type demonstrated in the wars with 
Iraq.\11\ Because there is no obvious reason for India to want a 
military capability against Europe, there is only one target that 
stands out as the bullseye for an Indian ICBM--the United States.
---------------------------------------------------------------------------
    \11\ For example, Brahma Chellaney, ``Value of Power,'' The 
Hindustan Times in English, May 19, 1999.
---------------------------------------------------------------------------
How India got here
    The established path to a space launch capability for the United 
States, the Soviet Union, the United Kingdom, France, and China was to 
adapt a ballistic missile as a space launch vehicle. India turned the 
process around, adapting a space launch vehicle as a ballistic missile. 
If Brazil, Japan, or South Korea were to develop long-range ballistic 
missiles, they would probably follow India's example.
    President Kennedy was once asked the difference between the Atlas 
space launch vehicle that put John Glenn into orbit and an Atlas 
missile aimed at the Soviet Union. He answered with a one-word pun, 
``Attitude.'' Paul Wolfowitz is said to have compared space launch 
vehicles to ``peaceful nuclear explosives'' (PNEs); both have civilian 
uses but embody hardware and technology that are interchangeable with 
military applications. India has demonstrated this interchangeability 
with both space launch vehicles and PNEs.
    The path to India's ICBM capability took more than four decades.

  <bullet> Early 1960s: NASA trains Indian scientists at Wallops 
        Island, Virginia, in sounding rockets and provided Nike-Apache 
        sounding rockets to India.\12\ France, the UK, and the Soviet 
        Union also supply sounding rockets.\13\
---------------------------------------------------------------------------
    \12\ Vadlamudi, op cit.
    \13\ Milhollin, op cit.
---------------------------------------------------------------------------
  <bullet> 1963-64: A.P.J. Abdul Kalam, an Indian engineer, works at 
        Wallops Island where the Scout space launch vehicle (an 
        adaptation of Minuteman ICBM solid-fuel rocket technology) is 
        flown.\14\
---------------------------------------------------------------------------
    \14\ Ibid.
---------------------------------------------------------------------------
  <bullet> 1965: Upon Kalam's return to India the Indian Atomic Energy 
        Commission requests U.S. assistance with the Scout, and NASA 
        provides unclassified reports.\15\
---------------------------------------------------------------------------
    \15\ Ibid.
---------------------------------------------------------------------------
  <bullet> 1969-70: U.S. firms supply equipment for the Solid 
        Propellant Space Booster Plant at Sriharokota.\16\
---------------------------------------------------------------------------
    \16\ Vadlamudi, op cit.
---------------------------------------------------------------------------
  <bullet> 1973: India tests a ``peaceful nuclear explosion.''
  <bullet> 1970s: A.P.J. Abdul Kalam becomes head of the Indian Space 
        Research Organisation (ISRO), in charge of developing space 
        launch vehicles.
  <bullet> 1980: India launches its first satellite with the SLV-3 
        rocket, a close copy of the NASA scout.\17\
---------------------------------------------------------------------------
    \17\ Alexander Pikayev, Leonard Spector, et al., Russia, the U.S. 
and the Missile Technology Control Regime, Adelphi Paper 317, 
International Institute for Strategic Studies, March 1998.
---------------------------------------------------------------------------
  <bullet> February 1982: Kalam becomes head of DRDO, in charge of 
        adapting space launch vehicle technology to ballistic missiles.
  <bullet> 1989: India launches its first Agni ``technology 
        demonstrator'' surface-to-surface missile. The Agni's first 
        stage is essentially the first stage of the SLV-3. Later, the 
        Agni becomes a family of three short-to-intermediate-range 
        ballistic missiles.\18\
---------------------------------------------------------------------------
    \18\ Robert Norris and Hans Kristensen, ``India's Nuclear Forces, 
2005,'' Bulletin of the Atomic Scientists, Vol. 61, No. 05, September/
October 2005, available at http://www.thebulletin.org/
article_nn.php?art_ofn=so05norris.
---------------------------------------------------------------------------
  <bullet> 1990: Russia agrees to supply India with cryogenic upper 
        stage rockets and technology. The United States imposes 
        sanctions on Russia until, in 1993, Russia agrees to limit the 
        transfer to hardware and not technology. However, India claims 
        it has acquired the technology to produce the rockets on its 
        own.
  <bullet> 1994: India launches the PSLV. Stages 1 and 3 are 2.8 meter-
        diameter solid-fuel rockets. Stages 2 and 4 are liquid-fuel 
        Vikas engines derived from French technology transfers in the 
        1980s.
  <bullet> 1994: This is the earliest date for which the Surya ICBM 
        program, using PSLV technology, is reported to have been 
        officially authorized. However, India's space and missile 
        engineers--if not the ``official'' Indian Government--had 
        opened the option much earlier.
  <bullet> 1998: India tests nuclear weapons after decades of 
        protesting that its nuclear program was exclusively peaceful.
  <bullet> 1999: India flies the Agni II, an extended range missile 
        that tests reentry vehicle ``technology [that] can be 
        integrated with the PSLV programme to creat an ICBM'' according 
        to a defence ministry official.\19\
---------------------------------------------------------------------------
    \19\ V.G. Jaideep, ``India Building ICBM with 8,000-Plus Km 
Range,'' The Asian Age in English, February 8, 1999, pp. 1-2 and 
Barbara Opall-Rome, ``Agni Test Undercuts U.S., Angers China,'' Defense 
News, April 26, 1999, p. 17.
---------------------------------------------------------------------------
  <bullet> 1999: Defense News cites Indian Defence Research and 
        Development Organisation (DRDO) officials as stating that the 
        Surya is under development.\20\
---------------------------------------------------------------------------
    \20\ Vivek Raghuvanshi, ``India To Develop Extensive Nuclear 
Missile Arsenal,'' Defense News, May 24, 1999, p. 14.
---------------------------------------------------------------------------
  <bullet> November 6, 1999: India's Minister of State for Defence (and 
        former head of DRDO) Bachi Singh Rawat says India is developing 
        an ICBM known as Surya that would ``have a range of up to 5,000 
        km.'' \21\
---------------------------------------------------------------------------
    \21\ Canadian Security Intelligence Service, ``Ballistic Missile 
Proliferation,'' Report # 2000/09, March 23, 2001, available at http://
www.cisiscrs.gc.ca/eng/misdocs/200009_e.html.
---------------------------------------------------------------------------
  <bullet> November 23, 1999: Rawat is reported to have been stripped 
        of his portfolio after his ICBM disclosure.\22\
---------------------------------------------------------------------------
    \22\ Iftikhar Gilani, ``Premature Disclosure of ICBM Project, Rawat 
Stripped of Defence Portfolio,'' New Delhi, November 23, 1999.
---------------------------------------------------------------------------
  <bullet> 2001: Khrunichev State Space Science and Production Center 
        announces that it will supply five more cryogenic upper stages 
        to India within the next 3 years.\23\
---------------------------------------------------------------------------
    \23\ Moscow (Interfax), ``Khrunichev Space Center To Supply Rocket 
Boosters To India,'' April 16, 2001, available at http:/spacer.com/
news/india-01d.html.
---------------------------------------------------------------------------
  <bullet> 2001: The cryogenic engine is reported to be ``the Surya's 
        test-bed.'' \24\
---------------------------------------------------------------------------
    \24\ Cf. footnote 6.
---------------------------------------------------------------------------
  <bullet> 2001: A U.S. National Intelligence Estimate states, ``India 
        could convert its polar space launch vehicle into an ICBM 
        within a year or two of a decision to do so.'' \25\
---------------------------------------------------------------------------
    \25\ National Intelligence Estimate, ``Foreign Missile Developments 
and the Ballistic Missile Threat Through 2015,'' December 2001, 
available at http://www.cia.gov/nic/special_missilethreat2001.html.
---------------------------------------------------------------------------
  <bullet> 2004: A Russian Academy of Sciences Deputy Director states 
        that India is planning to increase the range of the Agni 
        missile to 5,000 kilometers and to design the Surya ICBM with a 
        range of 8,000 to 12,000 kilometers.\26\
---------------------------------------------------------------------------
    \26\ Cf. footnote 9.
---------------------------------------------------------------------------
  <bullet> 2005: According to Indian Ministry of Defence sources, there 
        are plans to use the non-cryogenic Vikas stage for the Surya 
        and to have the missile deliver a 2\1/2\ to 3\1/2\ metric ton 
        payload with two or three warheads with explosive yields of 15 
        to 20 kilotons.\27\
---------------------------------------------------------------------------
    \27\ Madhuprasad, op cit.

    The common threads in all these reports are that space launch 
vehicle technology is the basis for the Indian ICBM, and that India 
obtained the technology with foreign help.
How the United States got here
    The United States has a policy against missile proliferation, but 
the policy has not been in place as long as the Indian missile program. 
Nor has the policy been consistently applied. Some markers:

  <bullet> 1970s: The United States begins to consider a broad policy 
        against missile proliferation.\28\
---------------------------------------------------------------------------
    \28\ Richard Speier, ``The Missile Technology Control Regime: Case 
Study of a Multilateral Negotiation,'' manuscript funded by the United 
States Institute of Peace, Washington, D.C., November 1995.
---------------------------------------------------------------------------
  <bullet> 1980s: The United States and its six economic summit 
        partners secretly negotiate the Missile Technology Control 
        Regime (MTCR). After 1\1/2\ years of difficult negotiations on 
        the question of space launch vehicles, all partners agree that 
        they must be treated as restrictively as ballistic missiles 
        because their hardware, technology, and production facilities 
        are interchangeable. The MTCR is informally implemented in 1985 
        and is publicly announced in 1987.\29\
---------------------------------------------------------------------------
    \29\ Speier, ibid.
---------------------------------------------------------------------------
  <bullet> 1990: Two weeks after the United States enacts a sanctions 
        law against missile proliferation, the Soviet Union announces 
        its cryogenic rocket deal with India. The two parties are the 
        first to have sanctions imposed on them under the new law.\30\
---------------------------------------------------------------------------
    \30\ Pikayev, et al, op cit.
---------------------------------------------------------------------------
  <bullet> 1993: The United States and Russia agree that Russia may 
        transfer a limited number of cryogenic rocket engines to India, 
        but not their production technology. \31\
---------------------------------------------------------------------------
    \31\ Ibid.
---------------------------------------------------------------------------
  <bullet> 1998: India tests nuclear weapons. United States imposes 
        broad sanctions on nuclear and missile/space-related transfers.
  <bullet> 1999: Kalam says he wants to ``neutralise'' the 
        ``stranglehold'' some nations had over the MTCR that had tried, 
        but failed, to ``throttle'' India's missile program. ``I would 
        like to devalue missiles by selling the technology to many 
        nations and break their stranglehold.'' \32\
---------------------------------------------------------------------------
    \32\ ``Agni IRBM Built to Carry Nuclear Warhead,'' Jane's Defence 
Weekly, April 28, 1999.
---------------------------------------------------------------------------
  <bullet> September 22, 2001: United States lifts many of the 
        technology sanctions imposed in 1998. Subsequently, India's 
        Prime Minister visits the United States amid agreement to 
        broaden the technology dialogue.\33\
---------------------------------------------------------------------------
    \33\ Vadlamudi, op cit., is an excellent source for recent 
developments in the U.S.-Indian space dialogue.
---------------------------------------------------------------------------
  <bullet> 2002: Kalam becomes President of India.
  <bullet> 2002: The United States tells India it will not object to 
        India launching foreign satellites, as long as they do not 
        contain U.S.-origin components.\34\
---------------------------------------------------------------------------
    \34\ C. Raja Mohan, ``U.S. Gives Space to ISRO,'' The Hindu in 
English, September 30, 2002, p. 11.
---------------------------------------------------------------------------
  <bullet> April 2003: The last mention of India is made in the 
        Director of Central Intelligence's unclassified semi-annual 
        report to Congress on the acquisition weapons of mass 
        destruction. Future reports deletes descriptions of India's 
        activities.\35\
---------------------------------------------------------------------------
    \35\ Director of Central Intelligence, ``Unclassified Report to 
Congress on the Acquisition of Technology Relating to Weapons of Mass 
Destruction and Advanced Conventional Munitions, 1 January Through 30 
June 2002,'' posted April 2003, available at http://www.cia.gov.
---------------------------------------------------------------------------
  <bullet> October 2003: Secretary of State Powell speaks to the 
        Washington Post about the ``Trinity'' and the ``glide path.'' 
        \36\
---------------------------------------------------------------------------
    \36\ Cf. footnote 2.
---------------------------------------------------------------------------
  <bullet> January 2004: President Bush agrees to expand cooperation 
        with India in ``civilian space programs'' but not explicitly to 
        cooperate with space launches. This measure is part of a 
        bilateral initiative dubbed ``Next Steps in Strategic 
        Partnership.'' \37\
---------------------------------------------------------------------------
    \37\ The White House, Office of the Press Secretary, Statement by 
the President on India, ``Next Steps in Strategic Partnership with 
India,'' January 12, 2004, available at http://www.whitehouse.gov/news/
releases/2004/01/20040112-1.html.
---------------------------------------------------------------------------
  <bullet> July 2005: President Bush agrees to cooperate with India on 
        ``satellite navigation and launch.'' The Prime Minister of 
        India agrees to ``adherence to Missile Technology Control 
        Regime . . . guidelines.'' \38\
---------------------------------------------------------------------------
    \38\ Cf. footnote 3.

    The common thread in these developments is that the U.S. clarity 
about the relationship between space launch vehicles and missile 
proliferation appears close to being obscured in the case of India. 
India's agreement to adhere to the MTCR's export control guidelines is 
a welcome development but does not entitle India to missile (or space 
launch vehicle) technology. Without India's adherence, if India were to 
export missile technology restricted by the MTCR, it would be a 
candidate for the imposition of sanctions under U.S. law.
Analysis
    The story of India's ICBM illustrates short-sightedness on the 
parts of both India and the United States. If India completes the 
development of an ICBM, the following consequences can be expected:

  <bullet> An incentive to preempt against India in times of crisis,
  <bullet> A diversion of India's military funds away from applications 
        that would more readily complement ``strategic partnership'' 
        with the United States,
  <bullet> Increased tensions and dangers with China,
  <bullet> Confusion and anger on the part of India's friends in Europe 
        and the United States,
  <bullet> A backlash against India that will hinder further 
        cooperation in a number of areas, and
  <bullet> A goad to other potential missile proliferators and their 
        potential suppliers to becoming more unrestrained.

    The governments of India and the United States have nothing to be 
proud of in this business. In seeking to become a global power by 
acquiring a first-strike weapon of mass destruction the Indian 
Government is succumbing to its most immature and irresponsible 
instincts. The U.S. Government, by offering India the ``Trinity'' of 
cooperation, is flirting with counterproductive activities that could 
lead to more proliferation.
    There are, of course, arguments in favor of such cooperation:

  <bullet> Strategic cooperation with India is of greater value than 
        theological concerns about proliferation.
  <bullet> India has already developed nuclear weapons and long-range 
        missiles, so resistance to such proliferation is futile.
  <bullet> And India is our friend, so we need not worry about its 
        strategic programs.

    It is true that there is considerable value to strategic 
cooperation with India. But nuclear and space launch cooperation are 
not the only kinds of assistance that India can use. It has a greater 
use for conventional military assistance, development aid, and access 
to economic markets. Moreover, nonproliferation has a strategic value 
at least as great as that of an Indian partnership. A little 
proliferation goes a long way. It encourages other nations (such as 
Pakistan, Brazil, Japan, South Korea, and Taiwan) to consider similar 
programs. And the example of U.S. cooperation encourages other 
suppliers to relax their restraint.
    It is true that India has already developed nuclear weapons and 
long-range missiles. But India has a long way to go to improve their 
performance, and it has a history of using nuclear and space launch 
assistance to do just that. Some areas in which India can still improve 
its missiles are:

  <bullet> Accuracy. For a ballistic missile, accuracy deteriorates 
        with range. India's ICBM could make use of better guidance 
        technology, and it might obtain such technology with ``high-
        tech'' cooperation with the United States.
  <bullet> Weight. Unnecessary weight in a missile reduces payload and 
        range. Or it forces the development of gigantic missiles such 
        as India's PSLV-derived ICBM. India is striving to obtain 
        better materials and master their use to reduce unnecessary 
        missile weight.\39\
---------------------------------------------------------------------------
    \39\ Mir Ayoob Ali Khan, ``Agni-Ill to get light motor for bigger 
bombs,'' The Asian Age in English, New Delhi, October 14, 2005.
---------------------------------------------------------------------------
  <bullet> Reliability. India's space launch vehicles and medium range 
        missiles have suffered their share of flight failures. 
        Engineering assistance in space launches could improve India's 
        missile reliability--as was demonstrated with unapproved 
        technology transfers incident to launches of U.S. satellites by 
        China.\40\
---------------------------------------------------------------------------
    \40\ The ``Cox Commission'' Report, House of Representatives Report 
105-851, ``Report of the Select Committee on US National Security and 
Military/Commercial Concerns with the People's Republic of China,'' 
June 14, 1999, available at http://www.access.gpo.gov/congress/house/
hr105851/.
---------------------------------------------------------------------------
  <bullet> Multiple warheads. India's reported interest in missile 
        payloads with multiple nuclear warheads means that certain 
        elements of satellite technology may get diverted to military 
        use. Deliberate or inadvertent transfers of technology 
        associated with dispensing and orienting satellites could, as 
        in the Chinese case, make it easier to develop multiple re-
        entry vehicles.
  <bullet> Countermeasures against missile defenses. Assistance to 
        India in certain types of satellite technology, such as the 
        automated deployment of structures in space, could aid the 
        development of penetration aids for India's long-range 
        missiles. Given that the United States is the obvious target 
        for an Indian ICBM, such countermeasures could stress U.S. 
        missile defenses.

    Supplier restraint can slow down India's missile progress and make 
such missiles more expensive and unreliable--perhaps delaying programs 
until a new regime takes a fresh look at them and considers 
deemphasizing them. Apart from the technical assistance that the United 
States is considering supplying, the relaxation of U.S. objections to 
foreign use of India launch services will augment the ISRO budget for 
rocket development. Even if India were not materially aided by U.S. 
space launch cooperation, the example is certain to kindle hopes in 
such nations as Brazil that they can get away with the same tactics. 
And France and Russia, India's traditional and less-restrained rocket 
technology suppliers, are certain to want a piece of the action.
    It is true that India is our friend and ``strategic partner,'' at 
least at the present time. History raises questions whether such 
friendship would continue through a conflict with Pakistan. And India's 
interest in an ICBM, which only makes sense as a weapon against the 
United States, raises questions whether the friendship is mutual. 
Moreover, nonproliferation policy is often directed against programs in 
friendly nations. Argentina, Brazil, Israel, Pakistan, South Africa, 
South Korea, Taiwan, and Ukraine are all friendly nations for which the 
United States has attempted to hinder WMD and missile programs without 
undermining broader relations. An exception for India is certain to be 
followed by more strident demands for exceptions elsewhere. Is the 
space-launch component of ``friendship'' worth a world filled with 
nations with nuclear-armed missiles?
    India's missile program has evolved over more than four decades. 
The history of proliferation demonstrates the difficulty of holding to 
a strong nonproliferation policy over years, let alone decades.\41\ 
There will always be temptations to trade nonproliferation for some 
bilateral or strategic advantage of the moment. In the current 
situation, India may have out-negotiated the United States. After 
India's 1998 nuclear weapon tests, the United States imposed sanctions 
and then gradually lifted them. In nuclear and rocket matters, this was 
not enough for India. And once the United States began easing up on 
India, the United States kept easing up.
---------------------------------------------------------------------------
    \41\ Richard Speier, ``United States Strategies Against the 
Proliferation of Mass Destruction Weapons,'' doctoral dissertation, 
Massachusetts Institute of Technology, 1968.
---------------------------------------------------------------------------
    The United States professes to be holding to its ``red lines''--in 
Secretary of State Powell's words--in whatever kind of cooperation it 
is considering. But the world needs to know where these lines are when 
it comes to ``space launch'' cooperation. It is one thing for the 
United States to provide launch services for Indian satellites. It is 
another thing for the United States to use or help improve India's 
ICBM-capable rockets. Are the ``red lines'' firm or flexible? Is the 
``glide path'' a slippery slope? This brings us to this paper's 
recommendations.

Recommendations
    Under the July 18, 2005, Joint Statement, the United States and 
India committed themselves to ``build closer ties in space exploration, 
satellite navigation and launch, and in the commercial space arena.'' 
This does not require nor should it encourage U.S. cooperation on 
India's ICBM program directly or indirectly. In fact, the United States 
has already taken a step in the right direction by offering to launch 
Indian astronauts in upcoming space shuttle missions and to involve 
them to the fullest extent in the International Space Station
    The United States should do more to encourage India to launch its 
satellites and science packages on U.S. and foreign launchers by making 
these launches more affordable. The United States also should be 
forthcoming in offering India access, as appropriate, to the benefits 
of U.S. satellite programs--including communications, earth resource 
observation, and exploration of the cosmos. India, in fact, has some of 
the world's best astrophysicists and cosmologists. It is in our 
interest, as well as the world's, that we make all of the data from our 
space observation programs involving the Hubble telescope and similar 
systems available to Indian scientists to analyze.
            (1) Do not be naive about the nature of India s program
    After more than two decades of reports about India's interest in an 
ICBM--including reports from Russia, statements on India's ICBM 
capability by the U.S. intelligence community, and the firing of an 
Indian official after he publicly described the Surya program--there 
should be no illusions. All of the reports state that India's ICBM will 
be derived from its space launch vehicle. The United States should not 
believe that it is possible to separate India's ``civilian'' space 
launch program--the incubator of its long-range missiles--from India's 
military program. There should be no illusions about the target of the 
ICBM. It is the United States--to protect India from the theoretical 
possibility of ``high-tech aggression.'' The U.S. intelligence 
community's semi-annual unclassified reporting to Congress on India's 
nuclear and missile programs was discontinued after April 2003. This 
reporting should be resumed.
            (2) Do not assist India's space launch programs
    The United States should not cooperate either with India's space 
launches or with satellites that India will launch. India hopes that 
satellite launches will earn revenues that will accelerate its space 
program--including rocket development. U.S. payloads for Indian 
launches--such as the envisioned cooperative lunar project--risk 
technology transfer (see recommendation No. 3) and invite other nations 
to be less restrained in their use of Indian launches. Because there is 
no meaningful distinction between India's civilian and military rocket 
programs, the United States should explicitly or de facto place ISRO 
back on the ``entities'' list of destinations that require export 
licenses.\42\ Certainly, Congress should insist that the United States 
explain it's ``red lines'' regarding space cooperation with India. If 
these lines are not drawn tightly enough, Congress should intervene.
---------------------------------------------------------------------------
    \42\ U.S. Department of Commerce, ``Control Policy: End-User and 
End-Use Based,'' Export Administration Regulations, Part 744, available 
at http://www.access.gpo.gov/bis/ear/pdf/744.pdf. ISRO was removed from 
the ``entities'' list under a U.S-Indian agreement signed on September 
17, 2004. See Vadlamudi, op cit.
---------------------------------------------------------------------------
            (3) Review carefully any cooperation with India's satellite 
                    programs
    India is reportedly developing multiple nuclear warheads for its 
long-range missiles. If India develops an ICBM, the next step will be 
to develop countermeasures to penetrate U.S. missile defenses. Certain 
satellite technologies can help India with both of these developments. 
The United States should review its satellite cooperation to ensure 
that it does not aid India inappropriately in the technologies of 
dispensing or orienting spacecraft, of automated deployment of 
structures in space, or of other operations that would materially 
contribute to multiple warheads or countermeasures against missile 
defenses.

                               CONCLUSION

    The target of an Indian ICBM would be the United States. The 
technology of an Indian ICBM would be that of a space launch vehicle. 
The United States should not facilitate the acquisition or improvement 
of that technology directly or indirectly In this matter, U.S. clarity 
and restraint are what the world--and India--need.
                                 ______
                                 

                        Feeding the Nuclear Fire

 (From Foreign Policy in Focus, by Zia Mian and M.V. Ramona, Sept. 20, 
                                 2005)

    The July 18 Joint Statement by U.S. President George Bush and Prime 
Minister Manmohan Singh has attracted a great deal of comment. The 
focus has been on the possible consequences of United States promises 
to support India's nuclear energy program in exchange for India clearly 
separating its military and civilian nuclear facilities and programs 
and opening the latter to international inspection.
    Much of the debate on the deal has arisen between what can be 
broadly called nuclear hawks and nuclear nationalists. The hawks 
believe that New Delhi's nuclear program is a great success and that 
India is more than able to take care of itself. They see the deal as 
imposing unnecessary constraints on India's nuclear program and 
impeding the creation of a large nuclear arsenal--including 
thermonuclear weapons (hydrogen bombs)--which they believe to be 
essential for India to achieve ``great power'' status.
    The clearest expression of this perspective comes from former Prime 
Minister Atal Behari Vajpayee and the Bharatiya Janata Party (BJP), who 
seek the largest possible nuclear weapons capability. Vajpayee argues 
that: ``Separating the civilian from the military would be very 
difficult, if not impossible . . . It will also deny us any flexibility 
in determining the size of our nuclear deterrent.'' When he refers to 
``flexibility'' in determining the size of the Indian nuclear arsenal, 
he does not include reducing or eliminating it. Rather, his term 
expresses the fear that separating civil and military facilities may 
curb the arsenal's size.
    Nuclear nationalists have a less ambitious, more traditional 
perspective that considers Indias nuclear program a great national 
technological achievement and necessary for India's economic and social 
development. They see the deal as offering a way to sustain and expand 
the nuclear energy program without unduly restricting a ``minimum'' 
nuclear weapons arsenal.
    The current government has embraced this nationalist view, as have 
many defenders of the deal. The Prime Minister laid it out most clearly 
to Parliament on July 29, saying: ``Our nuclear program . . . is 
unique. It encompasses the complete range of activities that 
characterize an advanced nuclear power . . . our scientists have done 
excellent work, and we are progressing well on this program as per the 
original vision outlined by Pandit Jawaharlal Nehru and Dr. Homi 
Bhabha.'' Singh went on to argue that ``nuclear power has to play an 
increasing role in our electricity generation plans,'' and he noted 
that the deal is flexible because ``our indigenous nuclear power 
program based on domestic resources and national technological 
capabilities would continue to grow.'' The expected international 
support, both in nuclear fuel and nuclear reactors, will help ``enhance 
nuclear power production rapidly,'' he added. At the same time, he made 
it clear that ``there is nothing in the Joint Statement that amounts to 
limiting or inhibiting our strategic nuclear weapons program.''
    These two positions have by and large dominated the debate so far. 
There are many problems with both views. The first is their shared 
belief in the success of India's nuclear energy program and the need to 
continue with and expand this effort. They fail to recognize that the 
deal is actually a testament to the long-standing, expensive, and 
large-scale failure of the Department of Atomic Energy (DAE) to 
safeguard health, safety, the environment, and local democracy.
    Both camps also contend that nuclear weapons are a source of 
security, though this conviction has been extensively debunked. Those 
who persist in this belief also ignore the essential moral, legal, and 
criminal questions of what it means to have--and be prepared to use--
nuclear weapons. The only differences between the two camps are in the 
character and size of the genocidal weapons they desire and in the 
number of people they are prepared to threaten to kill.

                          A HISTORY OF FAILURE

    The establishment of the Atomic Energy Commission (AEC) in 1948 was 
framed by the rhetoric of indigenous national development. Led by Homi 
Bhabha, the AEC portrayed India as forging its own path in the new 
nuclear age. That was not to be. There was no progress until the United 
Kingdom offered the design details and enriched uranium fuel for the 
first Indian nuclear reactor, Apsara. In what was to become a pattern, 
the official announcement when the Apsara reactor went critical 
declared the landmark a ``purely indigenous affair.''
    Similarly, the CIRUS reactor, which provided the plutonium used in 
the 1974 nuclear test (and quite likely some used in the 1998 tests as 
well), was supplied by Canada, and the heavy water used in it came from 
the United States. An American firm, Vitro International, was awarded 
the contract to prepare blueprints for the first reprocessing plant at 
Trombay. The first power reactors at Tarapur and Rawatbhata were 
supplied by the United States and Canada respectively. And foreign 
collaboration did not just extend to reactors. Many of India's nuclear 
scientists were schooled in America and elsewhere. Between 1955 and 
1974, over 1,100 Indian scientists were sent to train at various United 
States facilities.
    Extensive foreign support of the nuclear program ended only after 
the 1974 nuclear test. The international community led by Canada and 
the United States--both of whom were incensed by India's use of 
plutonium from the CIRUS reactor, which had been given purely for 
peaceful purposes--cut off most material transfers relating to New 
Delhi's nuclear program. However, India's nuclear facilities 
surreptitiously procured components from abroad, and foreign 
consultants continued to be hired for projects. Moreover, DAE personnel 
still had access to nuclear literature and participated in 
international conferences where technical details were freely 
discussed.
    Even with all this help, DAE's failures were many and stark. In 
1962, Homi Bhabha predicted that by 1987 nuclear energy would 
constitute 20,000 to 25,000 megawatts (MW) of installed electricity 
generation capacity. His successor as head of the DAE, Vikram Sarabhai, 
predicted that by 2000 there would be 43,500 MW of nuclear power. In 
1984, the ``Nuclear Power Profile'' drawn up by the DAE suggested the 
more modest goal of 10,000 MW by 2000, India never came close to 
meeting any of these goals.
    After over 50 years of generous government funding, nuclear power 
amounts to only 3,400 MW, barely 3 percent of India's installed 
electricity capacity. This capacity is expected to rise by nearly 50 
percent over the next few years but not because of the DAE. The largest 
component of the expansion will be two 1,000 MW reactors purchased from 
and being built by Russia.
    This history of failure explains the escalating demands from the 
DAE and other nuclear advocates to gain access to international nuclear 
markets. Only with international help can the DAE ever hope to achieve 
its latest promised goal of 20,000 MW by the year 2020.
    Another pressure driving the deal with Washington has been the 
DAE's failure to manage its existing nuclear program. In its 
determination to build more and more reactors--something to show for 
all the money that it gets--the DAE has failed to provide reactor fuel. 
Soon after the United States-India deal was announced, this oversight 
became apparent in a statement from an unnamed official to the British 
Broadcasting Corporation who admitted: ``The truth is we were 
desperate. We have nuclear fuel to last only till [sic] the end of 
2006. If this agreement had not come through we might have as well 
closed down our nuclear reactors and by extension our nuclear 
program.'' The former head of the atomic energy regulatory board has 
reported that this is not a new problem, he notes that ``uranium 
shortage'' has been ``a major problem for the officials of NPCIL and 
the Nuclear Fuel Complex (NFC) for some time.''
    The issue is simple. Apart from Tarapur I and II, all DAE reactors 
are fueled using uranium from the Jaduguda region of Jharkand. The 
total electric capacity of the heavy water-based power reactors is 
2,450 MW. At 75 percent operating capacity, they require nearly 330 
tons of uranium every year. The reactors that are supposedly dedicated 
to making plutonium for nuclear weapons, CIRUS and Dhruva, consume 
perhaps another 30-35 tons. When mining started in Jaduguda, the 
average ore grade was about 0.O67 percent. Now it is reportedly less 
than half that. The current mining capacity is around 2,800 tons of 
uranium ore per day. This means the DAE may only be producing about 300 
tons of uranium a year, which falls well short of the fueling 
requirements. The DAE has been able to continue to operate its reactors 
only by using stockpiled uranium from earlier days when nuclear 
capacity was much smaller. This stockpile should be exhausted by 2007.
    The DAE has been desperately trying to open new uranium mines in 
India, but it has been met with stiff public resistance everywhere. 
This local resistance stems from the widely documented negative impacts 
of uranium mining and milling on public and occupational health.
    The limits on domestic uranium reserves have been known since the 
nuclear program was started. This concern was the justification for the 
three-phase nuclear power program that Bhabha originally proposed and 
that continues to be pursued. This program involves separating 
plutonium from the spent fuel produced in natural uranium reactors and 
setting up breeder reactors, which in turn could theoretically be used 
to utilize India's thorium resources for energy production. But the 
three phases are far from being realized. The DAE has failed to build 
and sustain enough natural uranium-fueled reactors for the first phase. 
The second phase is still experimental, and the first plutonium-fueled 
power reactor has yet to be completed. Even if it becomes fully 
functional, breeder reactors are unlikely to be a significant source of 
electricity for several decades. The thorium fuel cycle, the third 
phase, is still far in the future.

       IMPLICATIONS OF THE AGREEMENT FOR NUCLEAR ENERGY IN INDIA

    If the deal with Washington goes through, the DAE will be free to 
purchase uranium from the international market for its safeguarded 
reactors. This has some important consequences. For starters, it will 
reduce pressure on domestic uranium reserves. Since imported uranium 
will be much cheaper than Indian uranium, it may also marginally reduce 
the operating costs of Indian nuclear plants. Although the DAE hides 
its actual costs, there is little doubt that nuclear electricity is 
more expensive than other major sources of power in India.
    At the same time, access to cheap, imported uranium will remove 
what has been the DAE's primary justification for much of its long-term 
nuclear plan. For decades, the DAE has cited a shortage of domestic 
uranium as justification for India's breeder program, even though poor 
economics and countless engineering problems have effectively killed 
similar breeder reactor programs in the United States, France, and 
Germany. The high cost of breeder reactors stems from their need for 
plutonium fuel produced at reprocessing plants by chemically treating 
spent (i.e., used) nuclear fuel from ordinary reactors. The separated 
plutonium is then fashioned into breeder fuel at special and costly 
fabrication plants. There are enormous economic costs, environmental 
repercussions, and public health risks associated with this whole 
scheme.
    If cheap uranium becomes available to India, there will be no need 
for any of this. Even so, the DAE may balk at giving up its breeder 
reactor program. It may instead choose to emulate Japan, which imports 
uranium to power its nuclear reactors and, ignoring the costs and 
risks, continues to pursue its breeder reactor program. If so, the 
DAE's institutional interests will have once again triumphed over 
economic good sense and concerns about health and the environment.
    India's existing nuclear capacity--and any increases in it, 
domestic or foreign, that the United States deal facilitates--should 
not to be considered a benefit. Nuclear electricity is expensive, and 
it would be far better to invest in other, cheaper sources of power as 
well as energy conservation measures. There are also important safety 
concerns associated with nuclear power. At least one of the DAE's 
nuclear reactors has come close to a major accident. One can barely 
imagine the consequences of a Chernobyl-like meltdown involving the 
release of large quantities of radioactive materials at a reactor in a 
densely populated country like India. Other facilities associated with 
the nuclear fuel cycle have also experienced accidents, though these 
have primarily affected workers within the plant.
    Apart from extreme accidents, there are many environmental and 
public health consequences associated with the many facilities that 
make up India's nuclear complex. A scientific study of the health 
consequences on the local population around the Rajasthan Atomic Power 
Station (RAPS) located at Rawatbhata near Kota observed statistically 
significant increases in the rates of congenital deformities, 
spontaneous abortions, stillbirths and 1-day deaths of newborn babies, 
and solid tumors.
    And, to cap it all, there is the unsolved problem of managing large 
amounts of radioactive waste for many tens of thousands of years. The 
question that really needs to be discussed (but has hardly figured in 
the debate) is whether India needs any nuclear power plants at all. 
There are many who believe India would be better off giving up this 
costly and dangerous technology and finding ways to meet the needs of 
its people without threatening their future or their environment.

                       HOW MANY BOMBS ARE ENOUGH?

    Nuclear energy and nuclear weapons have been linked from the 
beginning, and this will continue under the deal with Washington. 
Access to the international uranium market for fueling reactors will 
free up domestic uranium for India's weapons program and will likely 
boost New Delhi's nuclear clout.
    There are several ways in which India could use its freed-up 
domestic uranium. It could choose to build a third reactor dedicated to 
making plutonium for nuclear weapons. There have been proposals for a 
larger reactor to add to CIRUS and Dhruva at the Bhabha Atomic Research 
center in Mumbai. India could also start to make highly enriched 
uranium for nuclear weapons. Pakistan has used such highly enriched 
uranium, produced at Kahuta, for its weapons. Both paths, which need 
not be exclusive, would allow India to increase its fissile materials 
stockpile at a much faster rate. A third use for domestic uranium would 
be in supplying the fuel for a nuclear submarine that has been under 
development since the 1970s. Modest uranium availability and the more-
pressing need to keep the power reactors running have restricted all 
such plans in the past.
    If the proposed agreement is solidified, India could use both its 
current stockpile of weapons-grade plutonium and all future production 
to make nuclear weapons. The current stockpile is estimated to be 
perhaps 400-500 kg, sufficient for about 100 simple fission weapons. 
(It is usually assumed that 5 kg is needed for a simple weapon. More 
sophisticated designs typically require less plutonium.) CIRUS and 
Dhruva produce about 25-35 kg of plutonium a year. This means that by 
2010 India's potential arsenal size could be about 130 warheads using 
only existing facilities.
    But there are other sources of weapons-grade fissile material. 
Power reactors can be used to make weapons-grade plutonium by limiting 
the time the fuel is irradiated. Run this way, a typical 220 MW power 
reactor could produce between 150-200 kg/year of weapons-grade 
plutonium when operated at 60-80 percent capacity.
    Another source of fissile material is the stockpile of plutonium in 
the spent fuel of power reactors. Though it has a slightly different 
mix of isotopes from weapons-grade plutonium, it can be used to make a 
nuclear explosive. The United States conducted a nuclear test in 1962 
using plutonium that was not weapons-grade. One of India's May 1998 
nuclear tests is also reported to have involved such material.
    Over the years, some 8,000 kg of reactor-grade plutonium may have 
been produced in the power reactors not under safeguards. Only about 8 
kg of such plutonium are needed to make a simple nuclear weapon. Unless 
this spent fuel is not put under safeguards-i.e., declared to be off-
limits for military purposes, as part of the deal--India would have 
enough plutonium from this source alone for an arsenal of about 1,000 
weapons, larger than that of all the nuclear weapons states except the 
United States and Russia.
    Lastly, there is the plutonium produced in Kalpakkam in India's 
small, fast-breeder test reactor (FBTR). Even more plutonium will be 
produced by the 500 MW prototype FBTR now under construction. It is 
curious that ever since the 1960s, the DAE has resisted placing India's 
breeder program under international safeguards, even though both 
Germany and Japan, neither of them nuclear weapon states, subjected 
their breeder reactor programs to such safeguards. In theory, 
international scrutiny prevents plutonium or uranium from civil nuclear 
facilities from being used to make nuclear weapons. The DAE's 
resistance to safeguards begs the question as to whether the breeder 
program is, or ever was, only for civilian purposes.
    A.N. Prasad, former director of the Bhabha Atomic Research Centre 
(BARC), has argued that these large stocks of weapons-usable material 
are beside the point. Prasad asserts that the deal with Washington 
should be rejected because ``our military activities are not aimed at 
stockpiling nuclear weapons,'' since the weapons become old, their 
materials degrade, [and] they have to be dismantled and replaced.
    But Prasad is disingenuous. It is estimated that the plutonium used 
in U.S. nuclear weapons may not need to be replaced for 45-60 years. 
The material can then be recycled into new nuclear weapons. Moreover, 
many of the aging effects that plutonium experiences can be avoided 
with proper storage, allowing existing stocks of plutonium to last 
indefinitely. All other nuclear weapons states have stopped producing 
new material for their nuclear weapons programs-only India, Pakistan, 
and Israel appear to be producing new weapons ingredients.
    Another nuclear weapons resource is tritium, a gas used to boost 
the yield of fission weapons. The DAE claims to have tested a tritium-
boosted weapon in 1998. However, tritium decays relatively quickly (its 
half-life is just over 12 years). Thus, to maintain a stockpile of 
tritium for a long time requires either a very large initial amount or 
production at a rate that balances decay. Tritium is a byproduct in 
nuclear reactors dedicated to producing plutonium for weapons. These 
reactors can also be used specifically to generate more tritium.
    In short, the deal with Washington promises not only to leave New 
Delhi's weapons capability intact but to allow for a rapid and large 
expansion of India's nuclear arsenal. And both parties to the pact 
accept this as a good thing.
    The effects of the use of both the smaller yield fission weapons 
and the more destructive thermonuclear weapons in India's arsenal are 
well-known. Put simply, the smaller weapons will kill almost everyone 
within 1.5 km of the explosion, and the larger weapons will kill most 
people out to distances of 3.5 km. The effects of radioactive fallout 
would spread tens of kilometers further. Either kind of bomb would be 
enough to destroy a modern city. The question that needs to be asked 
is, ``How many cities do India's leaders wish to be able to destroy?''
    There are many who believe that no country should have nuclear 
weapons, since such weapons engender fear through the threat of 
genocide. In the 60 years since Hiroshima, we all should have learned 
that there is no security to be found in the threat to kill millions.

                               CONCLUSION

    The nuclear agreement between the United States and India has many 
problems and raises two fundamental questions. The first is whether 
India needs nuclear energy for its development and the well-being of 
its people. A good case can be made that it does not.
    The second question is whether India needs nuclear weapons if it 
truly wants to live in peace with its neighbors and with the world. 
Many believe, with good reason, that it does not.
    The outcome of the proposed nuclear agreement, therefore, is a 
future in which a nuclear-powered and nuclear-armed India swaggers 
along in Washington's shadow. Such a choice could not be more stark.
                                 ______
                                 

Responses of Secretaries Nicholas Burns and Robert Joseph to Questions 
                       Submitted by Senator Lugar

The Administration's Legislative Proposal and the July 18 Joint 
        Statement
    Question. When will the administration present this committee with 
legislation regarding nuclear energy cooperation with India?

    Answer. We do not intend to ask Congress to take legislative action 
to facilitate this agreement until the Indian Government takes certain 
important steps. We have made it clear to the Indians that they need to 
begin to follow through on their commitments, including to present--and 
begin to implement--a credible and transparent plan for separation of 
their civilian and military nuclear facilities that is defensible from 
a nonproliferation standpoint before we would further seek to adjust 
our legal frameworks.
    We have agreed to work closely with the Indians over the next 
several weeks to months on this plan and on other Indian steps which 
will allow us to seek changes to our laws. We hope to be in a position 
to seek formal legislative relief in the first quarter of 2006.

    Question. When do you anticipate that India will have completed all 
of the steps it has committed to undertaking in the July 18, 2005, 
Joint Statement?

    Answer. Some of the actions to which India has committed are 
ongoing, such as its pledge to continue its moratorium on nuclear 
testing and its commitment to refrain from the transfer of enrichment 
and reprocessing technologies to states that do not already have them. 
Others can be completed with additional effort, such as India's 
adherence to the Nuclear Suppliers Group and the Missile Technology 
Control Regime. Some of the actions that India must take are complex, 
and will take time to complete. There is not yet an established 
timetable for the separation of India's civil and military nuclear 
infrastructure, for instance. Implementation of the plan will, as the 
Joint Statement suggests, take place in a phased manner. We intend to 
move expeditiously and will assess progress on all aspects of the Joint 
Statement prior to President Bush's expected trip to India in early 
2006. We hope that India will have developed and begun to implement a 
plan for civil-military separation and also be engaged in substantive 
discussions with the IAEA by that time.

    Question. In your view, when should Congress act to change U.S. 
law? Before or after completion by India of all its undertakings in the 
July 18 Joint Statement or after the completion of certain parts of the 
Joint Statement?

    Answer. Because the Joint Statement will take considerable time to 
implement fully, we do not intend to wait until all Indian commitments 
are fully realized to submit proposed legislation to the Congress. 
Rather, once India develops a transparent and credible civil-military 
separation plan for its nuclear facilities and programs and begins to 
implement it, we will then seek appropriate legislative solutions. 
Ideally, U.S. law would be properly adjusted before the Nuclear 
Supplies Group Guidelines are adjusted.

    Question. What are the interim forms of legislation being 
considered by the Department in this area? Will there be a new nuclear 
cooperative agreement with India, one for which statutory amendments 
would be required, or does the administration prefer to create a broad, 
new authority outside of the current Atomic Energy Act of 1954 (42 
U.S.C. 2011, et seq.) for India?

    Answer. In consultation with Congress, our objective is to conclude 
a new agreement for peaceful nuclear cooperation with India that 
satisfies all requirements of section 123(a) of the Atomic Energy Act, 
except for the requirement that full-scope IAEA safeguards be applied 
in India. India has agreed to separate its military and civilian 
nuclear facilities and programs, and to place its civilian components 
under IAEA safeguards. The result will not be ``full-scope'' IAEA 
safeguards, so the agreement for peaceful nuclear cooperation will not 
provide for that; but the agreement will allow for appropriate controls 
to help ensure that material or goods provided for civilian purposes 
remain within the civilian sector. The administration prefers stand-
alone, India-specific legislation, but could envision alternatives as 
well. We look forward to continuing consultations with both the Senate 
and the House in the coming weeks.

    Question. Could you please provide me with your understanding of 
current U.S. law, i.e., which U.S. laws or regulations prohibit exports 
to India of nuclear and dual-use nuclear items and which U.S. laws or 
regulations provide a presumption (of approval or denial) of such 
exports to India, and which such laws and regulations would need to be 
modified to implement the Joint Statement?

    Answer. Under Section 123 of the Atomic Energy Act (AEA) of 1954, 
as amended, an agreement for cooperation between the United States and 
India will be required in order for the United States to engage in 
major nuclear cooperation (e.g., nuclear material, nuclear facilities, 
and major nuclear components) with India as contemplated by the Joint 
Statement. One of the requirements is that an agreement for cooperation 
(outside of the NPT-recognized five nuclear weapon states) must include 
full-scope safeguards unless exempted by the President as provided in 
section 123. An agreement that has been exempted by the President from 
one or more requirements in section 123(a) cannot become effective 
until Congress adopts, and there is enacted, a joint resolution stating 
that Congress favors the agreement. We believe stand-alone legislation 
offers a preferable long-term solution.
    Section 128 of the AEA requires, as one of the export license 
criteria for significant nuclear exports, that a recipient nonnuclear 
weapon state have full-scope safeguards. The AEA's full-scope 
safeguards requirement is incorporated in the regulations of the 
Nuclear Regulatory Commission at 10 CFR Sec. 110.42(a)(6), as one of 
the export licensing criteria for exports of nuclear facilities and 
material. Section 129 of the AEA prohibits significant nuclear 
cooperation with a nonnuclear weapon state that is found by the 
President to have undertaken certain activities, including detonating a 
nuclear explosive device, or to have engaged ``in activities involving 
source or special nuclear material and having direct significance for 
the manufacture or acquisition of nuclear explosive devices, and has 
failed to take steps which, in the President's judgment, represent 
sufficient progress toward terminating such activities.'' The Nuclear 
Regulatory Commission's regulations at 10 CFR Sec. 110.46 incorporate 
section 129 of the AEA. Both section 128 and section 129 provide 
Presidential waiver authority.
    With respect to dual use nuclear items under the Export 
Administration Regulations (EAR), there would be no need to make a 
regulatory change. Dual-use items are reviewed on a case-by-case basis. 
As a matter of policy, Commerce does not approve exports to 
unsafeguarded facilities. Moreover, the United States remains committed 
to not ``in any way'' assist weapons programs in nonnuclear weapon 
states as defined by the NPT.

    Question. The Joint Statement commits the United States to ``full 
civil nuclear energy cooperation with India.'' As the United States has 
different forms of nuclear energy cooperation with many nations, 
differing even among NPT Parties, what is the meaning of this phrase in 
relation to U.S. law and regulation regarding nuclear commerce with 
India?

    Answer. For the United States, ``full civil nuclear cooperation'' 
with India means trade in most civil nuclear technologies, including 
fuel and reactors. But we do not intend to provide enrichment or 
reprocessing technology to India. As the President said in February 
2004, ``enrichment and reprocessing are not necessary for nations 
seeking to harness nuclear energy for peaceful purposes.'' We do not 
currently provide enrichment or reprocessing equipment to any country.
    We will also need to ensure that any cooperation is fully 
consistent with U.S. obligations under the NPT not to ``in any way'' 
assist India's nuclear weapons program, and with provisions of U.S. 
law.

    Question. What regulatory changes (beyond those already made under 
the Next Steps in Strategic Partnership or NSSP) would need to be made 
to implement full civil nuclear energy cooperation with India?

    Answer. Many of the specifics of required regulatory changes to 
implement full civil nuclear energy cooperation with India have yet to 
be determined by the administration. U.S. regulations that incorporate 
or reflect statutory language will need to be modified or waived in 
order to permit civil nuclear cooperation consistent with the Joint 
Statement, and will need to be addressed along with modification or 
waiver of the related statute. No Department of Commerce regulatory 
changes will be required in order to implement full civil nuclear 
cooperation, except as facilities are put under IAEA safeguards, they 
could in principle be removed from the Entity List.

    Question. Presuming Congressional approval of statutory amendments 
and Nuclear Suppliers Group approval of an exception to its Guidelines 
for India, when would the United States Government begin to approve the 
export of nuclear items or technical data to India, and what are those 
items or technical data likely to be?

    Answer. Should the NSG and the Congress approve, in principle, 
supply would be feasible when the United States and other potential 
suppliers assess they can confidently supply to Indian facilities and 
remain in compliance with our obligations under the NPT and NSG. This 
will occur once IAEA safeguards are put in place and applied in 
perpetuity. Further, the separation plan must ensure--and the 
safeguards must confirm--that cooperation does not ``in any way 
assist'' in the development or production of nuclear weapons. In this 
context, nuclear materials in the civil sector must remain within the 
civil sector. A clear and transparent separation between India's civil 
and military facilities is essential. We will be unable to supply 
facilities that are not under appropriate safeguards.
    We cannot say precisely which nuclear technologies the United 
States (or other suppliers) would export to India, except that we would 
exclude reprocessing and enrichment technologies from our list. In our 
view, once India makes demonstrable progress in implementing key Joint 
Statement commitments--with the presentation of a credible, 
transparent, and defensible separation plan foremost on the list--we 
will be ready to engage with our NSG partners in developing a formal 
proposal to allow the shipment of Trigger List items and related 
technology to properly safeguarded facilities in India.

Nuclear Suppliers Group Issues
    Question. What are the positions of each of the 44 members of the 
Nuclear Suppliers Group on the comments and proposals made by A/S Rocca 
and A/S Rademaker during their consultations with NSG members in 
Vienna, Austria, last October?

    Answer. Not every member of the Nuclear Suppliers Group expressed 
an opinion on the comments made by A/S Rocca and A/S Rademaker during 
their consultations with NSG Participants at the Consultative Group 
meeting in October. The meeting provided many NSG partners the first 
opportunity to consider our proposed approach to realizing full civil 
nuclear cooperation without amending the NSG Guidelines, per se.
    Of those delegations expressing an opinion, some governments, 
including the Czech Republic, France, Russia, and the U.K., expressed 
support for the proposal; several governments, including Argentina, 
China, Greece, Japan, and South Korea, said that their governments 
would require further information on implementation, including details 
of India's plans for the separation of civilian and military nuclear 
facilities, before they could make a decision on the proposals; and 
some governments, such as Sweden and Switzerland, expressed initial 
reservations and indicated a need for further study.

    Question. Could you please furnish the remarks made by Assistant 
Secretary Rocca and Assistant Secretary Rademaker in Vienna to the NSG 
members to the committee?

    Answer. Yes. To satisfy standard NSG confidentiality practices, 
Assistant Secretary Rocca's and Assistant Secretary Rademaker's 
statements are reproduced below. These are not intended for open 
publication.

    Question. Did the remarks made by the U.S. delegation present 
specific proposals regarding changes to specific parts of the NSG 
Guidelines for Nuclear Exports for India?

    Answer. We have not yet tabled any formal proposals. We expressed a 
preference at the October meeting of the NSG Consultative Group to 
treat India as an exceptional case in light of its substantial and 
growing energy needs, its nuclear nonproliferation record, and the 
enhanced nonproliferation commitments it has now undertaken. We also 
expressed our firm intention that the NSG maintain its effectiveness, 
and emphasized that we will not undercut this important 
nonproliferation policy tool. The U.S. proposal neither seeks to alter 
the decisionmaking procedures of the NSG nor amend the current full-
scope safeguards requirement in the NSG Guidelines.

    Question. Has the United States shown proposed changes to NSG 
Guidelines to Indian Government officials?

    Answer. No. Our discussions with India to date have centered on 
implementation of Indian and U.S. commitments rather than on what the 
NSG should do.

    Question. Will India join the NSG?

    Answer. In the 18 July Joint Statement, PM Singh committed India 
not to join but to adhere to Nuclear Suppliers Group (NSG) and Missile 
Technology Control Regime (MTCR) Guidelines. The practice of unilateral 
adherence to the MTCR or NSG is not unique to India. Unilateral 
adherents voluntarily abide by the Guidelines of the regime--as do 
regime members--but are not formal members, per se. We expect to hold 
unilateral adherents, such as India, to the same standards specified in 
the Guidelines.

    Question. Do you anticipate that the NSG will be able to make a 
consensus decision on the U.S. proposal(s) regarding India at its next 
plenary meeting?

    Answer. While we will certainly consider advancing a formal 
proposal for NSG consideration at the next plenary, the pace and scope 
of India's implementation will help determine the specific timing. 
Should its actions, and our ongoing consultations with NSG partners 
support it, we may be in a position to seek agreement on a formal 
proposal at the 2006 plenary session, expected in the May/June 
timeframe.

INPA Sanctions
    Question. On September 23, 2004, the administration sanctioned two 
Indian scientists for their activities in Iran under the authority of 
the Iran Nonproliferation Act of 2000 (P.L. 106-178, or INPA).

  <bullet> Has the administration considered other sanctions against 
        Indian entities or persons under INPA or any other relevant 
        U.S. law or executive order since last September?

    Answer. While we believe India has a solid record overall of 
ensuring that its nuclear-related expertise and technologies do not 
pose a proliferation risk, we continue to review information and take 
action to implement U.S. law as appropriate. In an unclassified 
response, it would not be appropriate to comment on the consideration 
of any other sanctions cases due to intelligence sensitivities that 
would surround any such case. However, if additional details are 
required, we could provide a classified response separately.

  <bullet> What was the reaction of the Indian Government to the INPA 
        sanctions last year?

    Answer. In the context of our ongoing dialog with India, we 
informed the Indian Government when sanctions were imposed. At that 
time, they expressed serious concerns, and we discussed the sanctions 
cases as part of the dialog. The Indian Government has made clear to us 
its commitment to close any loopholes and ensure that its entities are 
not a proliferation source of sensitive technologies in the future. 
Among recent steps, India has improved its export control legislation 
and has harmonized its national control list with the Nuclear Suppliers 
Group Guidelines.

  <bullet> What steps has India taken to prevent Indian interactions 
        with Iranian entities or persons closely involved with Iran's 
        atomic energy activities?

    Answer. We cannot comment in unclassified channels on specific 
Indian actions, but would be able to discuss this further in a 
classified setting.
    We believe India has a solid record overall of ensuring that its 
nuclear-related expertise and technologies do not pose a proliferation 
risk, and we have an ongoing dialog with India on proliferation issues. 
India has clearly demonstrated over the past several years its desire 
to work with the United States and the international community to fight 
the spread of sensitive nuclear technologies.
    As part of an effort launched with India during the 
administration's first term--the Next Steps in Strategic Partnership--
India took a number of significant steps to strengthen export controls 
and to ensure that Indian companies would not be a source of future 
proliferation. Not only did India pledge to bring its export control 
laws, regulations, and enforcement practices in line with modern export 
control standards, but also passed an extensive export control law and 
issued an upgraded national control list that will help it achieve this 
goal.
    Other measures were also instituted as a part of the NSSP process, 
which included India permitting U.S. Government end-use verifications 
and agreement to increase bilateral and multilateral cooperation on 
nonproliferation.
    In addition, India has become a party to the Convention on the 
Physical Protection of Nuclear Material and has taken significant steps 
toward meeting its obligations under UNSCR 1540.
    The additional nonproliferation commitments India made as part of 
the Joint Statement go even further and, once implemented, will bring 
it into closer conformity with international nuclear nonproliferation 
standards and practices.
    In our view, it is clear that India agrees that Iran's pursuit of a 
full nuclear fuel cycle makes no sense from an economic or energy-
security standpoint. India has called on Iran to return to negotiations 
with the EU-3 aimed at ending Iran's pursuit of a nuclear weapons 
capability in exchange for expanded cooperation from Europe and others 
in the field of peaceful nuclear energy, as well as economic, 
commercial, political, and security incentives. India has also called 
on Iran to cooperate fully with the IAEA's ongoing investigations, and 
to resume a suspension of all enrichment-related and reprocessing 
activities as a way of building confidence. We welcomed India's 
decision to join 21 other IAEA Board members in voting to adopt the 
September 24 resolution that found Iran in noncompliance with its 
safeguards obligations. That outcome demonstrated to Iran that it is 
not just the United States and other Western countries that have 
concerns about Iran's nuclear activities, but the entire international 
community. India has offered full support to the EU-3's efforts to seek 
an end to Iran's nuclear weapons ambitions.

India and Iran
    Question. India's vote in favor of IAEA Board of Governors (BOG) 
Resolution GOV/2005/77 was seen by some as a departure from its 
traditional siding with developing countries in multilateral fora.
    Prior to the vote, it had been my understanding that the goal of 
the United States and the EU-3 at that BOG meeting was to report Iran's 
noncompliance to the U.N. Security Council.
    Indian officials have taken credit for preventing such a report by 
supporting language that found Iran's noncompliance ``within the 
competence of the Security Council.'' An earlier Indian Ministry of 
External Affairs press release regarding a telephone conversation 
between Indian Prime Minister Singh and Iranian President Ahmadinejad 
stated that ``India supports the resolution of all issues through 
discussion and consensus in the IAEA.''

  <bullet> What were the reasons India did not support reporting 
        Iranian noncompliance to the Security Council at the last 
        meeting of the BOG?

    Answer. India voted for a resolution that requires a report to the 
United Nations Security Council (UNSC) and finds Iran in noncompliance 
with its NPT safeguards obligations under Article XII.C of the IAEA 
Statute. However, the timing and content of this report to the UNSC are 
still to be determined.

  <bullet> Under what circumstances would India support reporting 
        Iranian noncompliance to the Security Council?

    Answer. In its support for IAEA BOG Resolution GOV/2005/77, India 
endorsed sending a report to the Security Council. The contents of the 
report and the timing of transmitting the report are unclear at this 
point. In our view, it would not be useful to speculate further on this 
hypothetical question.

  <bullet> Is it the Administration's position that Iran's 
        noncompliance should be reported to the Security Council?

    Answer. The United States has long expressed the view that Iran 
should be reported to the United Nations Security Council. At the 
International Atomic Energy Agency's (IAEA) Board of Governors meeting 
on September 24, India voted--along with the United States and our EU-3 
partners--in favor of a resolution that requires a report to the United 
Nations Security Council and finds Iran in noncompliance with its NPT 
safeguards obligations under Article XII.C of the IAEA Statute. In 
addition, for the first time, the IAEA Board concluded with this 
resolution that Iran's pattern of deception and denial, continued lack 
of cooperation with the IAEA, and continued pursuit of nuclear fuel 
cycle capabilities in defiance of the international community, is a 
matter that falls within the competence of the United Nations Security 
Council, under Article III.B.4 of the IAEA Statute.

  <bullet> Does the administration consider Iran's July-August 2005 
        resumption of uranium conversion activities at UCF-Isfahan to 
        be a breach of its suspension of fuel-cycle activities agreed 
        to with the EU-3?

    Answer. Yes. Under the November 2004 Paris Agreement, Iran agreed 
``on a voluntary basis, to continue and extend its suspension to 
include all enrichment related and reprocessing activities, and 
specifically: The manufacture and import of gas centrifuges and their 
components; the assembly, installation, testing or operation of gas 
centrifuges; work to undertake any plutonium separation, or to 
construct or operate any plutonium separation installation; and all 
tests or production at any uranium conversion installation.'' Iran's 
uranium conversion activities represent a breach of its commitments 
under the Paris Agreement with the EU-3 and defy the September 24 IAEA 
Board resolution, which called on Iran to suspend all enrichment-
related activity including uranium conversion.

  <bullet> Does the Indian Government consider Iran's July-August 2005 
        resumption of uranium conversion activities at UCF-Isfahan to 
        be a breach of its suspension of fuel-cycle activities agreed 
        to with the EU-3?

    Answer. We do not know whether India considers Iran in breach of 
the Paris agreement, an agreement between Iran and the EU-3. Certainly, 
the EU-3 considers Iran in breach.

    Question.I understand that India has a formal defense cooperation 
agreement with Iran. Has the Department been provided with a copy of 
that Agreement, and if so, could you please furnish it to this 
committee?

    Answer. We do not know of a formal defense cooperation agreement 
between Iran and India. A Memorandum of Understanding between the 
Government of the Republic of India and the Government of the Islamic 
Republic of Iran on Road Map to Strategic Cooperation, was signed on 
January 23, 2003, in New Delhi by the previous administrations in both 
countries. According to the Indian Ministry of External Affairs, this 
MOU set out, among other things, ``to agree to explore opportunities 
for cooperation in defense in agreed areas, including training and 
exchange of visits.''

    Question. Public reports in late 2004 suggested that India was 
considering the sale to Iran of an advanced radar system known as 
``Super Fledermaus,'' a system capable of detecting low-flying objects 
such as the unmanned aerial vehicles (UAVs) the United States 
frequently uses to conduct surveillance operations. The radar system is 
produced by Bharat Electronics Limited (BEL) under license from 
Ericsson Radar Electronics, a U.S. firm.
    (a) Has India decided not to proceed with this sale?
    (b) Do you know of other significant defense equipment sales to 
Iran being considered by India?

    Answer.
    (a) We understand that the sale of the Super Fledermaus system has 
not occurred.
    (b) We do not know of other significant defense equipment sales to 
Iran being considered by India.

Interaction with Other Nonproliferation Policies and Countries
    Question. Could you please explain how the policy the 
administration adopted in the Joint Statement is consistent with other 
administration policies and statements regarding the ongoing crises of 
noncompliance in North Korea and Iran?

    Answer. The Joint Statement represents a carefully tailored 
approach that helps solve a real-world nonproliferation issue: How to 
integrate the world's largest democracy and rising 21st power into the 
nonproliferation mainstream.
    We need to adjust our approaches to take into account the 
conditions that exist, so that we can achieve our nonproliferation 
objectives. This has been a premise of administration policy since the 
outset of President Bush's first term, in which he established non- and 
counterproliferation as top national security priorities. Recognizing 
that traditional nonproliferation measures were essential but no longer 
sufficient, the President has established new concepts and new 
capabilities for countering WMD proliferation by hostile states and 
terrorists.
    There is no comparison between India's nonproliferation history and 
energy needs, and the compliance violations incurred by Iran and North 
Korea.
    Our position on Iran's nuclear program is well known and is 
unrelated to our increasing cooperation with India. We do not want to 
see any additional states developing nuclear weapons, whether Iran, 
North Korea, or others. Iran's compliance violations are a national 
security concern to the United States and many of its international 
partners--not just the EU-3. Indeed, India's September vote in the IAEA 
Board of Governors which found Iran in noncompliance with its nuclear 
nonproliferation obligations, demonstrated India's coming of age as a 
partner in global nonproliferation efforts.
    Further, our understanding with India should not affect the Six-
Party Talks in any way. India has taken a number of steps to deepen its 
commitment to nonproliferation and did not violate the NPT in order to 
pursue its nuclear weapons ambitions since it was not a party to the 
treaty. There can be no comparison of North Korea's record with that of 
India. North Korea has violated its NPT and IAEA safeguards 
commitments; it must abandon its nuclear weapons program.
                                 ______
                                 

 Responses of Under Secretary Nicholas Burns to Questions Submitted by 
                             Senator Lugar

The Administration's Legislative Proposal and the July 18 Joint 
        Statement
    Question. During your testimony before the committee, you seemed to 
indicate that the administration would prefer India-specific 
legislative language rather than country-neutral criteria. What are the 
strengths, in your view, of an India-specific exception to current U.S. 
law as opposed to a country-neutral exception?

    Answer. An India-specific exception would build on the precedent 
set by the Brownback II amendment, which created a South Asia-specific 
waiver authority for four different statutory sanctions without 
amending those statutes. An India-specific exception is appropriate to 
this country-specific initiative and well reflects the need for 
tailored, actor-specific strategies to combat WMD. It would confirm 
that the confluence of India's solid nuclear nonproliferation record, 
enhanced nonproliferation commitments, growing energy needs and 
strategic position in the world requires an unique approach. Finally, 
singling out India through legislation would also provide assurances to 
the Indian Government that the United States intends to develop key 
aspects of this partnership for the long-term.

    Question. Is it your view that if Congress did not approve 
provisions for India related to nuclear energy that the U.S.-India 
relationship would be harmed?

    Answer. The initiative to reach civil nuclear cooperation with 
India recasts one of the most divisive issues in our relationship, and 
is viewed by many in India as a litmus test for our strategic 
partnership. If Congress does not approve provisions for India related 
to nuclear energy, it is likely that the nuclear issue will continue to 
constrain our diplomatic relationship, as well as our strategic, 
commercial, defense, and scientific ties, thereby having a negative 
impact on many of the bilateral activities mentioned in the July 18 
Joint Statement.

    Question. Have Indian officials stated to you that if Congress does 
not approve a legislative exception for India from current law for 
nuclear commerce that India would either look differently on its new 
relationship with the United States or respond negatively to the lack 
of congressional action?

    Answer. Indian officials have not stated that they will treat the 
United States differently if Congress does not take action. They have, 
however, expressed concern about achieving extensive advances in the 
future of U.S.-India relations if either side does not complete its 
Joint Statement commitments.

    Question. What does India's current plan for its nuclear power 
sector call for in terms of the types of reactors (heavy- or light-
water reactors) it will seek from foreign providers?

    Answer. Because of the current international restrictions on 
nuclear commerce with India, India's plan for its nuclear power sector 
seeks to provide for a 20-fold increase in nuclear-generated 
electricity by 2020 without reactors from foreign suppliers. In support 
of this objective, India's Department of Atomic Energy (DAE) has 
committed extensive resources to develop a three-stage nuclear fuel 
cycle, based on its plentiful domestic thorium reserves, that involves 
fast-breeder reactors, which could pose proliferation risks. Moreover, 
some specialists assess that such an approach would not prove cost-
effective, and there are clear technical challenges to overcome.
    Opening the Indian market to foreign suppliers provides India with 
a vast array of new civil nuclear energy options. Access to new 
technologies, such as pebble-bed reactors and low-enriched uranium 
reactors, and participation in the Generation IV Forum (GIF) on 
advanced nuclear energy systems would encourage more viable and 
proliferation-resistant alternatives.

Place in the New Relationship
    Question. In testimony before the committee, several experts 
suggested that creating an exception from long-standing U.S. law and 
policy, and asking the Nuclear Suppliers Group (NSG) to do the same 
with respect to NSG Guidelines, damages U.S. nonproliferation 
leadership, and that the strategic rationale for the Joint Statement 
does not provide a basis for such changes.
    Why does nuclear energy figure so prominently among the many ways 
the United States can forge a new, strategic partnership with India?

    Answer. The initiative to reach civil nuclear cooperation with 
India recasts a divisive issue that has for decades constrained our 
diplomatic relationship, as well as our strategic, commercial, defense, 
and scientific ties. In addition to firmly aligning the United States 
with a country that shares our democratic values and commitment to 
freedom, it holds substantial, concrete benefits for the United States, 
India, and the global community.
    When implemented, all the steps that India pledged on July 18 will 
strengthen the international nonproliferation regime, and bolster our 
efforts to prevent the spread of weapons of mass destruction. 
Commercially, the opening of India's lucrative and growing civil 
nuclear energy market to U.S. firms could provide jobs for thousands of 
Americans, and provide India with a vast array of clean and viable 
options to meet its skyrocketing energy needs. India's participation in 
the International Thermonuclear Experimental Reactor (ITER) program 
will add significant resources and critical talent to global efforts to 
develop fusion as a cheap energy source program. If India joins the 
Generation IV International Forum (GIF), it could contribute to GIF's 
mission to make the next generation of reactors safer, more efficient 
and more proliferation resistant. Finally, these efforts will also help 
India pursue its ambitious plans for power development and 
electrification in a more environmentally friendly manner.
                                 ______
                                 

 Responses of Under Secretary Robert Joseph to Questions Submitted by 
                             Senator Lugar

The Administration's Legislative Proposal and the July 18 Joint 
        Statement
    Question. In your statement you note that Congress should not 
``make the perfect the enemy of the good'' and that adding any 
conditions to the eventual changes to law that Congress might make for 
India would be a ``deal breaker.''

  <bullet> Do you mean that the entire set of things contained in the 
        Joint Statement, beyond civil nuclear cooperation, would also 
        be sacrificed if Congress conditioned nuclear commerce with 
        India on things not detailed in the Joint Statement?

    Answer. I testified that, based on our interactions with the Indian 
Government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    The initiative to reach civil nuclear cooperation with India will 
remove one of the most divisive issues in our bilateral relationship. 
If the civil nuclear aspects of the Joint Statement are not realized, 
we believe that our diplomatic relationship and our strategic, 
commercial, and scientific ties will remain constrained; many of the 
bilateral activities delineated in the statement will be adversely 
affected.
    The critical point is that we must resist the temptation to pile on 
conditions that will prejudice our ability to realize the important and 
long-standing nonproliferation objectives embodied in the Joint 
Statement. We assess that additional conditions such as those specified 
above remain deal breakers for India. We are better off with India 
undertaking the nonproliferation commitments to which it has now agreed 
than in allowing status quo stalemates to prevail.

    Question. Does the administration oppose any additional 
nonproliferation measures for India beyond those stipulated in the 
Joint Statement?

    Answer. I testified that, based on our interactions with the Indian 
Government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    In our ongoing dialogs, we strongly encourage India to take 
additional steps to strengthen nonproliferation, such as joining PSI 
and harmonizing its national control lists with those of the Australia 
Group and Wassenaar Arrangement. We have indicated that we also plan to 
continue to discuss such issues as a fissile material cutoff. But we 
strongly recommend against adding additional conditions to Joint 
Statement implementation. The Joint Statement reached by President Bush 
and Prime Minister Singh is good both for India and for the United 
States, and when implemented, offers a net gain for global 
nonproliferation efforts. Rather than add additional conditions or seek 
to renegotiate the Joint Statement, we believe it would be better to 
lock in this deal and then seek to achieve further results as our 
strategic partnership advances. We believe that this is a sound 
arrangement that should be supported because the commitments India has 
made, will, when implemented, bring it into closer alignment with 
international nuclear nonproliferation standards and practices and, as 
such, strengthen the global nonproliferation regime.

    Question. Could you please provide me with your views with regard 
to each of the following items, items which have been proposed as those 
I might consider including in legislation:

  <bullet> A requirement that India stop producing fissile materials 
        for nuclear weapons.

    Answer. I testified that, based on our interactions with the Indian 
Government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    We have sought India's curtailment of fissile material production 
but have not reached agreement on this issue. In our assessment, 
insisting on such a cutoff as a precondition for implementing the Joint 
Statement would likely be a deal breaker for the Indian Government. We 
believe that we achieved an important objective, however, by obtaining 
India's commitment to designate, separate, and safeguard its civilian 
nuclear program. Moreover, the commitment to work toward the completion 
of a Fissile Material Cutoff Treaty (FMCT) is a significant step.
    We continue to encourage India, as well as Pakistan, to move in the 
direction of a fissile material cap or moratorium as part of our 
discussions with both governments. We also are willing to explore other 
intermediate options that might serve such an objective.
    The Joint Statement does not alter our policy on FMCT. We continue 
to support immediate commencement of negotiations in the Conference on 
Disarmament of a treaty banning production of fissile material for use 
in nuclear weapons or other nuclear explosive devices. We welcome 
India's support for the FMCT, which should help to build a consensus to 
begin those negotiations.

  <bullet> A requirement that India declare it will not conduct any 
        more tests of its nuclear weapons.

    Answer. I testified that, based on our interactions with the Indian 
Government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    In principle, making new U.S. law or waivers contingent on India 
fulfilling its commitments in the Joint Statement is a sound idea. As 
reflected in its pledge in the Joint Statement, India has already 
declared that it will maintain its nuclear testing moratorium. Since to 
date Pakistan has test-exploded nuclear weapons only in response to 
Indian nuclear tests, this commitment should help diminish the 
prospects for future nuclear testing in South Asia.

  <bullet> A distinction between India and NPT parties that would 
        provide different treatment in terms of the nuclear exports for 
        non-NPT parties, i.e., India would be eligible for most U.S. 
        exports except equipment, materials, or technology related to 
        enrichment, reprocessing, and heavy water production.

    Answer. I testified that, based on our interactions with the Indian 
Government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    We do not export enrichment or reprocessing technology to any 
state. Therefore, ``full civil nuclear cooperation'' with India will 
not include enrichment or reprocessing technology. We have not yet 
determined whether such a prohibition would extend to heavy water 
production.

  <bullet> Permitting U.S. nuclear exports only to those Indian 
        facilities, sites, and locations that are under IAEA safeguards 
        in perpetuity--not to facilities, sites, or locations under 
        voluntary safeguards arrangements.

    Answer. I testified that, based on our interactions with the Indian 
government, we believe that additional conditions such as implementing 
a moratorium on fissile material production, ratifying the 
Comprehensive Test Ban Treaty, and/or joining the NPT as a nonnuclear 
weapon state ``would likely be deal breakers.''
    To ensure that the United States and other potential suppliers can 
confidently supply to India and meet our obligations under the NPT, 
IAEA safeguards on civil facilities must be applied in perpetuity. We, 
and other potential suppliers, will be unable to supply facilities that 
are not under permanent safeguards.
India's Violations of U.S. Law
    Question. In testimony before the House on October 26, 2005, 
Leonard S. Spector, Deputy Director of the Center for Nonproliferation 
Studies at the Monterey Institute of International Studies, stated that

          India's misuse of plutonium produced in the Canadian-supplied 
        CIRUS research reactor is not a matter of ancient history; it 
        is an ongoing offense. The original transgression took place in 
        the 1970s, when India misused the reactor, along with U.S.-
        supplied heavy water that was essential for the reactor's 
        operation, in order to produce the plutonium for India's 1974 
        nuclear detonation.

  <bullet> What is the status of India's violation of its peaceful use 
        undertakings in the 1956 U.S. heavy-water contract, are they 
        ``ongoing'' or are they, as a result of the termination of 
        U.S.-Indian nuclear cooperation, no longer operative?

    Answer. India used heavy water that the United States provided 
under a 1956 Nuclear Regulatory Commission (NRC) contract--along with 
Indian and third-country heavy water--as a moderator for the Canadian-
provided CIRUS research reactor, the reactor India reportedly used to 
generate plutonium for its weapons program.
    After India detonated a nuclear device in 1974, the U.S. Government 
examined whether India's actions were inconsistent with a clause under 
the 1956 contract stating that the heavy water would be used for 
``research into and the use of atomic energy for peaceful purposes.'' 
The outcome was that a conclusive answer was not possible due to both 
the factual uncertainty as to whether U.S.-supplied heavy water 
contributed to the production of the plutonium used for the device and 
the lack of a mutual understanding of scope of the 1956 contract 
language.

  <bullet> Has any of the plutonium from CIRUS that was produced using 
        U.S.-origin heavy water been incorporated into Indian nuclear 
        explosive devices or used in any Indian tests of nuclear 
        explosive devices?

    Answer. As noted above, a conclusive answer has not been possible 
as to whether U.S.-supplied heavy water contributed to the production 
of the plutonium used for Indian nuclear explosive devices.

  <bullet> Will the administration, as a part of the process under the 
        Joint Statement, obtain from India a full, accurate, and 
        complete account of the disposition of any U.S.-origin heavy 
        water in India?

    Answer. The administration believes the most productive approach is 
to focus on India's new commitments under the Joint Statement. These 
commitments include, among other things, acceptance of IAEA safeguards 
(including monitoring and inspections of its civil nuclear facilities 
and programs), and agreement to sign and implement the Additional 
Protocol, which provides for broadened access to locations and 
information regarding nuclear and nuclear-related activities.

  <bullet> Does the Government of India acknowledge that its 
        unauthorized end use of U.S.-origin heavy water supplied for 
        the CIRUS reactor was a violation of U.S. law?

    Answer. Following India's 1974 detonation of a nuclear device, the 
Government of India plainly stated its disagreement with the United 
States over the meaning and scope of the clause in the 1956 contract 
that stipulated that the heavy water would be used for ``research into 
and the use of atomic energy for peaceful purposes.''
    At the time, the debate on whether India had violated the contract 
was inconclusive owing to the uncertainty as to whether U.S.-supplied 
heavy water contributed to the production of the plutonium used for the 
1974 device and the lack of a mutual understanding of scope of the 1956 
contract language on ``peaceful purposes.''
    We have since made it clear that we exclude so-called ``peaceful 
nuclear explosions''--and any nuclear explosive activity--from the 
scope of peaceful nuclear cooperation.
    India has not acknowledged to the United States that it considered 
that its use of U.S.-supplied heavy water was a violation of the 1956 
contract.

  <bullet> Does the Government of India acknowledge that its 1974 
        nuclear weapon test was not a ``peaceful nuclear explosion''?

    Answer. It is our understanding that it remains the view of the 
Indian Government that its test of a nuclear explosive device in 1974 
was a ``peaceful nuclear explosion.''

  <bullet> If India declares that CIRUS is a peaceful reactor, would 
        any plutonium produced there need to be removed from those 
        plutonium stocks that India has set aside for weapons and 
        placed under permanent IAEA safeguards?

    Answer. We do not yet have from the Government of India a plan 
outlining which of its nuclear facilities will be declared civilian; 
our discussions continue.
    The details of the safeguards agreement which India has undertaken 
to negotiate with the IAEA will presumably follow. However, as most 
such agreements are not retroactive, we would not expect the agreement 
to specify that previously produced material must be returned to the 
plant in order to be placed under safeguards. Were the plant to be 
placed under safeguards, those safeguards would be applicable in 
perpetuity to any material produced by, used by, or stored in the plant 
after the effective date of the agreement.

Safeguards Verification and Compliance
    Question. Has the Government of India entered into discussions with 
International Atomic Energy Agency (IAEA) officials regarding a new 
declaration of civil nuclear sites, facilities, or locations?

    Answer. To our knowledge, the Government of India has not yet 
entered into discussions with the IAEA. Such a step might be viewed as 
premature, considering that India has not yet developed a separation 
plan upon which such a declaration would be based. We have indicated 
that such a plan must be credible, transparent, and defensible from a 
nonproliferation standpoint.

    Question. When will India submit a new declaration to the IAEA of 
its civil sites, facilities, or locations that would be subject to 
safeguards?

    Answer. There is no set date. The first step is for India to 
develop a credible and transparent plan for separating its civil and 
military facilities and programs. We hope that such a separation plan 
and subsequent declaration to the IAEA of what is to be civilian--as 
well as initial implementation toward safeguarding its facilities--can 
be accomplished by early 2006.

    Question. What kinds of safeguards will be applied to India's 
declared civil sites, facilities, or locations (please specify IAEA 
Information Circular (INFCIRC) number)?

    Answer. Safeguards agreements are modeled after INFCIRC/153 (the 
NPT safeguards agreement) or INFCIRC/66 (the Agency's safeguards system 
predating the NPT). India will not likely sign a safeguards agreement 
based strictly on INFCIRC/153, as this would require safeguards on 
India's nuclear weapons program. NPT-acknowledged nuclear weapon states 
have so-called ``voluntary'' safeguards agreements that draw on 
INFCIRC/153 language, but do not obligate the IAEA to actually apply 
safeguards and do allow for the removal of facilities or material from 
safeguards. We heard from other states at the recent NSG meeting that 
they would not support a ``voluntary offer'' arrangement as, in their 
view, it would be tantamount to granting de facto nuclear weapon state 
status to India. We have similarly indicated to India that we would not 
view such an arrangement as defensible from a nonproliferation 
standpoint. We, therefore, believe that the logical approach to 
formulating a safeguards agreement for India is to use INFCIRC/66, 
which is currently used at India's four safeguarded reactors. For the 
most part, INFCIRC/66 and INFCIRC/153 agreements result in very similar 
technical measures actually applied at nuclear facilities.

    Question. Will India allow the safeguards applied to its declared 
civil sites, facilities, or locations to be permanent, i.e., that no 
declared site, facility, or location may be removed from India's 
declaration to the IAEA and that the safeguards in place on those 
declared sites, facilities, or locations are to be in place in 
perpetuity?

    Answer. We do not view a safeguards agreement that would allow 
India to withdraw facilities or material from safeguards as acceptable, 
and we have informed India of this view. Among other considerations, we 
must be assured that safeguards will be applied in perpetuity, that 
``civil'' material remains in the civil sector, and that any assistance 
provided in no way contributes to India's nuclear weapons program. The 
safeguards must effectively cover India's civil nuclear fuel cycle and 
provide strong assurances to supplier states and the IAEA that material 
and technology provided or created through civil cooperation will not 
be diverted to the military sphere.

    Question. Has the administration briefed the IAEA on its 
discussions of a civil-military split in Indian sites, facilities, or 
locations, and if so, when?

    Answer. No, we have not briefed the IAEA Secretariat on our 
discussions of a civil-military split in Indian sites, facilities, or 
locations. The IAEA Secretariat will play an essential role in this 
process, but that role is still in the future, once India has taken 
certain key steps and there is a clearer understanding and acceptance 
of India's separation plan.

    Question. What are the general ``phases'' (not dates) that will 
unfold under the Joint Statement's terms with respect to India's 
separation of its civil and military nuclear facilities, sites, or 
locations?

    Answer. The first step in the process will be for India to produce 
a general plan for the separation of its civil and military facilities 
and programs. We expect that India will propose a civil-military 
separation plan that is credible, transparent, and defensible from a 
nonproliferation standpoint. Such a plan would form the basis for a 
declaration by India to the IAEA of its civil facilities. It would also 
form the basis for the negotiation of a safeguards agreement between 
the IAEA and India. Negotiation of an Additional Protocol would 
probably proceed in parallel with the negotiation of the basic 
safeguards agreement, but this remains to be determined. Upon 
completion and entry into force of the safeguards agreement, the IAEA 
would begin inspections of Indian nuclear facilities. Based on the 
language of the Joint Statement, we expect that it will take some time 
to complete full implementation of safeguards at India's civil 
facilities, and thus implementation would occur in a ``phased'' manner, 
based on a sequence identified in the separation plan and as agreed to 
with the IAEA and as specified in the safeguards agreement.

    Question. The IAEA, because of budgetary pressures, discontinued 
inspections in the United States in 1993, largely because the value of 
such inspections is of limited utility in states with declared and 
lawful nuclear weapons programs. At the request of the U.S. Government, 
the IAEA resumed inspections in 1994 by applying safeguards to several 
tons of weapons-usable nuclear material, which had been declared excess 
to U.S. national security stockpiles. The IAEA undertook this effort on 
the condition that the United States reimburse the IAEA.
    The Joint Statement notes that India will ``assume the same 
responsibilities and practices and acquire the same benefits and 
advantages as other leading countries with advanced nuclear technology, 
such as the United States.''

  <bullet> Will India declare a portion of its weapons-useable 
        materials excess to its defense needs and place them under 
        permanent IAEA safeguards?

    Answer. India has not informed us of whether it views any existing 
weapons-usable material as ``excess.''

  <bullet> Will India reimburse the IAEA for any inspections conducted 
        in India on safeguarded facilities, sites, locations, and 
        materials?

    Answer. To our knowledge, the IAEA and India have not yet discussed 
whether India will reimburse the IAEA for any inspections conducted in 
India on safeguarded facilities, sites, locations, and materials.

    Question. Do you assess that the IAEA currently has the staff, 
funding, and necessary information to support safeguards monitoring for 
India without taking away from inspection and verification efforts in 
other countries?

    Answer. We recognize that implementing safeguards in India will 
entail significant costs that are not currently included in the IAEA's 
budget. We look forward to working with the IAEA and the Government of 
India to estimate those costs and to identify how best to meet them 
without undercutting inspections/verification efforts in other 
countries.

    Question. Would India permit the IAEA, as a confidence-building 
measure, to conduct inspections of its declared facilities, sites, or 
locations, and if so, how many such inspections and how many 
facilities, locations, or sites would be inspected?

    Answer. The safeguards agreement that India negotiates with the 
IAEA after developing a separation plan will require sustained IAEA 
inspections on all Indian civil facilities containing nuclear material, 
with frequency to be determined by the IAEA. The Additional Protocol 
will allow inspections of additional nuclear-related locations.

    Question. Will the Additional Protocol (AP) that India signs be 
identical to the Model Additional Protocol (INFCIRC/540)?

    Answer. No. The Model Additional Protocol is structured to 
accompany a country's full-scope safeguards agreement. Because India's 
safeguards agreement will differ from a full-scope safeguards 
agreement, India's Additional Protocol will differ from the Model as 
well.

    Question. In the Joint Statement the Indian Prime Minister states 
that India commits to ``signing and adhering to an Additional Protocol 
with respect to civilian nuclear facilities.'' Does this mean that 
India would not ratify and implement its Additional Protocol?

    Answer. No. We expect that India will ratify and implement both its 
safeguards agreement and its Additional Protocol.

    Question. Is it permissible for any Non-Nuclear Weapon State (NNWS) 
under the NPT to sign and adhere to, but not to ratify and implement, 
the Additional Protocol?

    Answer. While India is not a party to the NPT, nonnuclear weapon 
states party to the NPT are obliged under the NPT to bring into force a 
full-scope safeguards agreement, effectively covering all nuclear 
material in the state. The NPT does not, however, require such a party 
to either sign or bring into force an Additional Protocol, whose 
provisions strengthen the safeguards agreement beyond what is required 
by the NPT. The Additional Protocol's provisions include, for example, 
requirements to declare information regarding, and to allow access to, 
locations that do not involve nuclear material. The NPT also does not, 
unlike the NSG, condition full scope safeguards as a condition of 
nuclear supply. Rather the NPT requires that cooperation does not ``in 
any way assist'' any weapon program in nonnuclear weapon states.

    Question. Is it permissible for any Nuclear Weapon State (NWS) 
under the NPT to sign and adhere to, but not to ratify and implement, 
the Additional Protocol?

    Answer. Nuclear weapon states parties to the NPT are not required 
by the NPT to sign any type of safeguards or inspection agreement, 
including an Additional Protocol. All such undertakings by the nuclear 
weapon states are voluntary.

    Question. Will the Additional Protocol that India signs permit it 
to exclude the application of safeguards to any facilities, sites, or 
locations in India?

    Answer. India has not yet negotiated an Additional Protocol with 
the IAEA. The Joint Statement indicates that India's Additional 
Protocol will apply to Indian civil nuclear facilities, and we expect 
that there will be some language in the Indian Additional Protocol 
making its scope consistent with that concept. We believe it is 
unlikely that India will permit access to its nuclear military 
facilities under its Additional Protocol.

    Question. When will India sign an AP?

    Answer. There is not yet an established timetable for this step. 
The actions India committed to, in the Joint Statement, involve complex 
issues, and they will take time to implement fully. We hope to move 
expeditiously on all aspects of the civil nuclear initiative and will 
assess progress prior to President Bush's expected trip to India in 
early 2006.

    Question. What would be the relationship between India's list of 
declared civil sites subject to safeguards and its AP? Are the 
provisions of its AP binding on its declared civil sites?

    Answer. Two types of inspections would presumably occur at civil 
facilities in India: Safeguards inspections that would take place at 
nuclear facilities containing nuclear material of a defined purity, and 
complementary access inspections that would take place at other 
facilities, which, with minor exceptions, do not contain such material. 
The first type of facilities is declared and inspected as specified by 
the safeguards agreement, and the second type is declared and inspected 
as described by the Additional Protocol. The two types of facilities 
are distinct, but we anticipate that both would be part of an Indian 
declaration. The requirements on the state to provide information and 
access are equally binding in the two cases.

    Question. With regard to the plan that GOI will bring here this 
month, and in connection with the principle of ``Transparency'': If we 
are talking about an INFCIRC/66 Rev.2 [safeguards agreement] (SGA), it 
would clearly spell out which facilities were covered by the terms of 
that SGA. But if India does a voluntary safeguards agreement, or has 
some sites covered under a voluntary SGA, or sites, facilities, and 
locations colocated with sites that are not covered by the terms of an 
INFCIRC/66 Rev.2 SGA, then some of the list of eligible, declared 
civilian facilities would be considered ``safeguards-confidential'' not 
under an INFCIRC/66 Rev.2 SGA nor made all that transparent. In other 
words, there would be an INFCIRC agreement, but no one would have 
access to the actual list of sites, facilities, and locations (like our 
Voluntary Offer SGA).

  <bullet> Are we prepared to accept a mixed situation in India? Some 
        sites under VOA-type SGAs and some under INFCIRC/66 Rev.2 SGAs? 
        Does the IAEA hold such a situation with any other countries?

    Answer. Because the IAEA publishes a list of all facilities to 
which safeguards are applied, all exporters will be aware of which 
facilities in India they can export to. So-called ``voluntary offer'' 
agreements are used only by the five NPT-recognized nuclear weapon 
states. In general, voluntary arrangements allow the covered state to 
withdraw facilities and material from safeguards at will. In our view, 
a voluntary offer arrangement for India would be inconsistent with the 
Joint Statement and would not be defensible from a nonproliferation 
standpoint.

  <bullet> Is the administration looking to accept a cooperation 
        agreement that would already be covered by an existing 66 
        agreements (i.e., Tarapur), and then let India put additional 
        civilian facilities on an eligible list?

    Answer. Both an Agreement for Peaceful Nuclear Cooperation between 
the United States and India and a new safeguards agreement between 
India, the IAEA, and possibly other parties, would have to be 
negotiated.
    There is no ``eligible list'' associated with current Indian 
safeguards arrangements, which conform to INFCIRC/66. We expect India 
``to place all its civil nuclear facilities under full IAEA safeguards 
and that includes monitoring and inspections,'' as Under Secretary 
Burns said July 20, 2005. Since a voluntary offer arrangement would not 
require the IAEA to apply safeguards to facilities on a list of those 
eligible for safeguards, it would not meet that standard. Furthermore, 
in order to provide reasonable assurances to potential suppliers that 
they are not assisting the Indian nuclear weapons program, among other 
things safeguards must be applied in perpetuity and ``civil'' nuclear 
material must remain civil.

India's Export Control Laws, Regulations, and Policies
    Question. Has the administration undertaken an expert-level legal 
analysis of India's export control laws and regulations?

    Answer. Department of State and Commerce lawyers and export control 
experts have reviewed India's Weapons of Mass Destruction and Their 
Delivery Systems (Prohibition of Unlawful Activities) Act, adopted in 
2005, consistent with India's NSSP and Joint Statement commitments. We 
continue to discuss export control related issues with the Government 
of India.

    Question. If so, could you please furnish that analysis to this 
committee?

    Answer. There is today no consolidated analytical document 
representing an interagency assessment of India's export control law 
and regulations. As always, we stand ready to brief the committee on 
the results of our review.

    Question. I understand that the State Department sent a number of 
questions concerning India's export control law(s) (what is termed its 
``WMD law'') to New Delhi some time ago. Has the Government of India 
answered all of those questions, and could you please furnish (a) those 
questions and (b) answers to this committee?

    Answer. Given the sensitivities of the diplomatic communications 
involved, we cannot provide the information for the record. However, we 
would be happy to provide the committee with a briefing on our 
exchanges with India on this issue. We intend to have follow-on 
discussions regarding the implementation of the WMD law within the High 
Technology Cooperation Group meetings in early December 2005.

    Question. Does Indian law specify anything with regard to the 
reexport or resale of foreign-origin dual-use equipment?

    Answer. As we understand the Indian legislation, export from India 
of foreign-origin dual-use equipment exported to India, if of types 
covered by India's own control list and catch-all controls, would be 
subject to the same requirements that apply to export of Indian-origin 
goods.

    Question. What does Indian law specify about the access of either 
foreign nationals or dual-nationals to sensitive items exported from 
other nations to India?

    Answer. India's new WMD law deals specifically with the possession, 
export, reexport, transfer, and other conveyance or trafficking of WMD 
and their delivery systems, their components, and related technology by 
Indian and foreign nationals. The law, however, does not address access 
by foreign nationals or dual nationals to such items or technology in 
the course of those individuals' legitimate employment in India.
    Clause 13(4) of the WMD law seems to address in-country transfers 
of items to foreigners, but the operation of this provision is not 
entirely clear.

    Question. Do any foreign nationals or dual-nationals work at or 
have access to sites currently subject to IAEA safeguards in India 
(Rajasthan 1 & 2 and Tarapur 1 & 2)?

    Answer. We do not have sufficient information as to which specific 
foreign nationals may work or have access to these facilities. In 
general, however, IAEA inspectors, who are foreign nationals, have 
access to Rajasthan 1 & 2 and Tarapur 1 & 2, since these sites are 
subject to IAEA safeguards. The Indians have also granted Nuclear 
Regulatory Commission (NRC) delegations limited access to those 
facilities, most recently in February 2005. Additionally, the World 
Association of Nuclear Operators (WANO) is able to conduct peer reviews 
at these sites.

    Question. Do any foreign nationals or dual-nationals work at or 
have access to the Indian nuclear facilities Kundankulam 1 and 2?

    Answer. We do not have sufficient information as to which specific 
foreign nationals may work or have access to these facilities. In 
general, however, Kundankulam 1 & 2 are being constructed under a 
contract between India and the Russian Federation, so we presume that 
Russian nationals have access to these sites. IAEA inspectors, who are 
foreign nationals, will eventually have access to Kundankulam 1 & 2, 
once they are placed under IAEA safeguards.

    Question. Do any foreign nationals or dual-nationals work at or 
have access to the Indian Space Research Organization (ISRO) 
Headquarters in Bangalore, India; ISRO Telemetry, Tracking and Command 
Network (ISTRAC); ISRO Inertial Systems Unit (IISU), 
Thiruvananthapuram; Liquid Propulsion Systems Center; Solid Propellant 
Space Booster Plant (SPROB); Space Applications Center (SAC), 
Ahmadabad; Sriharikota Space Center (SHAR); Vikram Sarabhai Space 
Center (VSSC), Thiruvananthapuram?

    Answer. We do not have sufficient information as to which, if any, 
foreign nationals may work or have access to these facilities. We stand 
ready to discuss this and other considerations relating to these 
organizations further with the committee in a separate classified 
forum.

    Question. Do any foreign nationals or dual-nationals work at or 
have access to the following Indian Department of Atomic Energy 
entities: Bhabha Atomic Research Center (BARC); Indira Gandhi Atomic 
Research Center (IGCAR); Indian Rare Earths; Nuclear reactors 
(including power plants) not under International Atomic Energy Agency 
(IAEA) safeguards, fuel reprocessing and enrichment facilities, heavy 
water production facilities and their collocated ammonia plants?

    Answer. We do not have sufficient information as to which, if any, 
foreign nationals may work or have access to these facilities. We stand 
ready to discuss this and other considerations relating to these 
organizations further with the committee in a separate classified 
forum.

    Question. Does Indian law contain ``catch-all'' controls on items 
not otherwise stipulated in national controls?

    Answer. Clause 11 of the 2005 WMD law prohibits export of any 
material, equipment, or technology if the exporter knows that the 
exported items are intended for use in the design or manufacture of a 
biological weapon, chemical weapon, nuclear weapon, or other nuclear 
explosive device, or in their missile delivery systems, but does not 
specifically refer to transfers, retransfers, items brought in transit 
or transshipment. We read Clause 11 of the 2005 WMD law as a catch-all 
provision similar to the ``knows'' portion of the U.S. catch-all 
control provisions. Clause 5 of the 2005 WMD law may provide the 
equivalent of the ``is informed'' portion of the U.S. catch-all 
controls over exports, reexports, transshipments, and transits.

    Question. Have there been successful prosecutions of entities or 
persons brought by the Government of India for violations of its export 
control laws?

    Answer. The Government of India has been actively prosecuting the 
Indian entity NEC Engineers Private Ltd.'s cooperation with Iraq. 
According to Indian press reports, NEC sent 10 shipments containing 
titanium vessels, filters, titanium centrifugal pumps, atomized and 
spherical aluminum powder, and titanium anodes to Iraq. The NEC 
prosecution is ongoing.
    We do not have information on other examples of Indian prosecutions 
regarding violations of its export control laws. One reason for this is 
that, before India passed its WMD law this year, its governmental 
authority over such export activities was relatively limited. India's 
new WMD law has greatly increased its ability to hold its entities and 
individuals accountable for activities that impinge on nonproliferation 
practices.

    Question. Did India pursue any action (civil or criminal) against 
Dr. Y.S.R. Prasad and Dr. C. Surendar after the United States 
sanctioned them under the authority of the Iran Nonproliferation Act of 
2000 (P.L. 106-178)?

    Answer. We understand that India investigated the activities of the 
retired scientists Dr. Y.S.R. Prasad and Dr. C. Surendar after the 
United States imposed sanctions on them in September 2004. As far as we 
are aware, India did not pursue any civil or criminal action against 
Drs. Prasad or Surendar.

    Question. Does the United States have any information that Indian 
entities or persons in the United States have engaged in attempts to 
falsify necessary bona fides in transactions with U.S. entities or 
persons?

    Answer. Any such activities would be regarded as a law enforcement 
matter in this country. Any such matters would need to be addressed to 
the Department of Justice, Department of Commerce, and/or the 
Department of Homeland Security.

    Question. In oral remarks made at the Department of Commerce's 
annual Bureau of Industry Security (BIS) ``Update'' Conference recently 
held in Washington, DC, Steven Goldman, director of the BIS Office of 
Nonproliferation and Treaty Compliance, stated that ``India has 
modified its approach, has made major commitments, in many respects 
commitments that exceed those of our closest allies.'' \1\
---------------------------------------------------------------------------
    \1\ As found at http://www.exportcontrolblog.com/blog/2005/10/
update_day_one_4.html.
---------------------------------------------------------------------------
    Do you concur with this assessment, and if so, how does India 
exceed the nonproliferation commitments made by our closest allies, in 
particular, those who are nuclear weapon states (such as the United 
Kingdom) under Article I of the NPT?

    Answer. The Department of State agrees that India has made major 
commitments which, when implemented, will bring it closer into 
conformity with nonproliferation standards and practices. India has 
committed to a number of important nonproliferation steps. Some of 
these steps exceed NPT requirements, such as India's export-restraint 
of enrichment and reprocessing technologies and its willingness to sign 
and adhere to an Additional Protocol.

RMP Facility
    Question. Do you concur with the assessment of alleged Indian 
attempts to illicitly acquire certain dual-use nuclear technology 
provided by David Albright during testimony before the House on October 
26, 2005? Which states in relevant part:

          Indian nuclear organizations use a system that hires domestic 
        or foreign nonnuclear companies to acquire items for these 
        nuclear organizations. Such procurement appears to continue for 
        its secret gas centrifuge enrichment plant near Mysore. In an 
        attempt to hide its true purpose from suppliers and others when 
        it started this project in the 1980s, India called the facility 
        the Rare Materials Plant (RMP) and placed it under Indian Rare 
        Earths (IRE) Ltd, an Indian Department of Atomic Energy company 
        focused on mining and refining of minerals. Since the mid-
        1980s, IRE has served as a management company for RMP and 
        appears to be the declared end-user of its procurements of 
        centrifuge-related equipment and materials.\2\ 
---------------------------------------------------------------------------
    \2\ Available at http://wwwc.house.gov/international_relations/109/
alb102605.pdf.

    Answer. We cannot comment in any detail in unclassified channels on 
assessments of activities of Indian entities or facilities. We could 
---------------------------------------------------------------------------
discuss further in classified session.

    Question. What is the purpose of the RMP facility?

    Answer. We cannot comment in any detail in unclassified channels on 
assessments of activities of Indian entities or facilities. We could 
discuss further in classified session.

    Question. The Commerce Department issued revised U.S. regulations 
for balance of plant exports to certain Indian entities last 
September.\3\  The Indian Department of Atomic Energy entity called 
``Indian Rare Earths'' is named in those FR notices, but could you 
please explain for the record the current regulatory treatment provided 
to the entity Indian Rare Earths under current law and regulation?
---------------------------------------------------------------------------
    \3\ 69 FR 56,693 (2004), revised in 69 FR 58,049 (2004).

    Answer. The September 22, 2004, regulatory change did not change 
the regulatory treatment for Indian Rare Earths. India Rare Earths is 
still a listed entity under Commerce regulations, as it has been since 
the sanctions were imposed in 1998. Therefore, under the Export 
Administration Regulations, exporters need to apply for licenses to 
---------------------------------------------------------------------------
export even uncontrolled commodities to this end-user.

Proliferation Security Initiative
    Question. Why has India not joined the Proliferation Security 
Initiative (PSI)?

    Answer. The United States has encouraged India to join PSI, given 
its geographic location along several key routes for proliferation 
trafficking and its significant operational capabilities in the region. 
Officials of the Government of India have told us that they are 
continuing their internal review of PSI, including an examination of 
the international and national legal underpinnings for their possible 
participation in PSI. We are hopeful that India will soon endorse PSI, 
and join the more than 70 countries around the world--and United 
Nations Secretary General Kofi Annan--that have expressed their support 
for PSI.

    Question. What are the views of the Government of India on the 
Statement of Interdiction Principles?

    Answer. Officials of the Government of India have told us that they 
are continuing their internal review of PSI, including an examination 
of the international and national legal underpinnings for their 
possible participation in PSI. We are hopeful that India will soon 
endorse the PSI Statement of Interdiction Principles, and join the more 
than 70 countries around the world--and United Nations Secretary 
General Kofi Annan--that have expressed their support for PSI.

                                  <all>

</pre></body></html>
